EXHIBIT A
(Ct. App. Dkt. No. 82)

Case 20-3590, Document 82, 11/09/2020, 2971105, Page1 of 9

E.D.N.Y. – Bklyn.
20-cv-4834
Matsumoto, J.
20-cv-4844
Garaufis, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
_________________

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 9th day of November, two thousand twenty.
Present:
Raymond J. Lohier, Jr.,
Michael H. Park,
Circuit Judges,
Jed S. Rakoff, *
Judge.
Agudath Israel of America, Agudath Israel of Kew Garden Hills,
Agudath Israel of Madison, Agudath Israel of Bayswater, Rabbi
Yisroel Reisman, Rabbi Menachem Feifer, Steven Saphirstein,
Plaintiffs-Appellants,
v.

20-3572

Andrew M. Cuomo, Governor of the State of New York, in his
official capacity,
Defendant-Appellee.
The Roman Catholic Diocese of Brooklyn, New York,
Plaintiff-Appellant,
v.

20-3590

Governor Andrew M. Cuomo, in his official capacity,
Defendant-Appellee.
* Judge Jed S. Rakoff, of the United States District Court for the Southern District of New York,

sitting by designation.

Case 20-3590, Document 82, 11/09/2020, 2971105, Page2 of 9

These appeals, which are being heard in tandem, arise from the ongoing COVID-19 pandemic.
The pandemic has caused more than 25,000 deaths in New York State and more than 10,000 deaths
in Brooklyn and Queens alone. In response to a recent spike in cases concentrated in parts of
Brooklyn, Queens, and other areas, Governor Andrew Cuomo issued an executive order to limit
further spread of the virus in these COVID-19 “hotspots.”
The executive order directs the New York State Department of Health to identify yellow, orange,
and red “zones” based on the severity of outbreaks, and it imposes correspondingly severe
restrictions on activity within each zone. For example, the order provides that in “red zones,”
non-essential gatherings of any size must be cancelled, non-essential businesses must be closed,
schools must be closed for in-person instruction, restaurants cannot seat customers, and houses of
worship may hold services but are subject to a capacity limit of 25 percent of their maximum
occupancy or 10 people, whichever is fewer.
The Appellants—Agudath Israel of America, Agudath Israel of Kew Garden Hills, Agudath Israel
of Madison, Agudath Israel of Bayswater, Rabbi Yisroel Reisman, Rabbi Menachem Feifer,
Steven Saphirstein (collectively, “Agudath Israel”), and The Roman Catholic Diocese of
Brooklyn, New York (the “Diocese”)—each challenged the executive order as a violation of the
Free Exercise Clause of the First Amendment. In each case, the district court denied the
Appellants’ motion for a preliminary injunction against the enforcement of the order. The
Appellants now move for emergency injunctions pending appeal and to expedite their appeals,
after an applications Judge on our Court denied their requests for an administrative stay,
No. 20-3572, doc. 30; No. 20-3590, doc. 29.
Preliminarily, we conclude that Agudath Israel did not “move first in the district court for” an
order “granting an injunction while an appeal is pending” before filing with this Court its present
motion for an injunction pending appeal. Fed. R. App. P. 8(a)(1)(C). Instead, Appellant
moved for a preliminary injunction pending the district court’s final judgment. In its briefs and
at oral argument before this panel, moreover, Agudath Israel has not explained or otherwise
justified its failure to comply with the straightforward requirement of Rule 8(a). Agudath Israel
also has failed to demonstrate that “moving first in the district court would be impracticable,”
Fed. R. App. P. 8(a)(2)(A), or even futile, particularly in light of the fact that a full eleven days
elapsed after the district court’s ruling before Agudath Israel sought relief from this Court. We
deny Agudath Israel’s motion for these procedural reasons. See Hirschfeld v. Bd. of Elections in
N.Y., 984 F.2d 35, 38 (2d Cir. 1993).
We deny the Diocese’s motion for an injunction pending appeal—and would deny the motion
filed by Agudath Israel if it were properly before us—for the reasons that follow.
As an initial matter, an injunction is “an extraordinary remedy never awarded as of right.”
Winter v. Nat. Res. Def. Council, 555 U.S. 7, 24 (2008). To obtain an injunction from a district
court, movants generally bear the burden of showing that (1) they are likely to succeed on the
merits; (2) they are likely to suffer irreparable harm in the absence of preliminary relief; (3) the
balance of equities tips in their favor; and (4) an injunction is in the public interest. Id. at 20.
2

Case 20-3590, Document 82, 11/09/2020, 2971105, Page3 of 9

To obtain a stay of a district court’s order pending appeal, more is required, including a “strong
showing that [the movant] is likely to succeed on the merits.” New York v. U.S. Dep’t of
Homeland Sec., 974 F.3d 210, 214 (2d Cir. 2020). The motions at issue here seek a remedy still
more drastic than a stay: an injunction issued in the first instance by an appellate court. “Such a
request demands a significantly higher justification than a request for a stay because, unlike a
stay, an injunction does not simply suspend judicial alteration of the status quo but grants judicial
intervention that has been withheld by lower courts.” Respect Maine PAC v. McKee, 562 U.S.
996, 996 (2010) (quotation marks omitted).
“The Free Exercise Clause, which applies to the States under the Fourteenth Amendment, protects
religious observers against unequal treatment and against laws that impose special disabilities on
the basis of religious status.” Espinoza v. Mont. Dep’t of Revenue, 140 S. Ct. 2246, 2254 (2020)
(quotation marks omitted); see Cent. Rabbinical Cong. of U.S. & Canada v. N.Y.C. Dep’t of Health
& Mental Hygiene, 763 F.3d 183, 193 (2d Cir. 2014) (“[T]he Free Exercise Clause . . . protects
the performance of (or abstention from) physical acts that constitute the free exercise of religion:
assembling with others for a worship service, participating in sacramental use of bread and wine,
proselytizing, abstaining from certain foods or certain modes of transportation.”) (quotation marks
omitted)). But the Free Exercise Clause “does not relieve an individual of the obligation to
comply with a valid and neutral law of general applicability,” Emp’t Div., Dep’t of Human Res. v.
Smith, 494 U.S. 872, 879 (1990) (quotation marks omitted), “even if the law has the incidental
effect of burdening a particular religious practice,” Church of the Lukumi Babalu Aye, Inc. v. City
of Hialeah, 508 U.S. 520, 531 (1993).
“A law burdening religious conduct that is not both neutral and generally applicable, however, is
subject to strict scrutiny.” Cent. Rabbinical, 763 F.3d at 193 (citing Lukumi, 508 U.S. at 531–32).
“A law is not neutral if it is specifically directed at a religious practice.” Id. (cleaned up).
Similarly, a law is “not generally applicable if it is substantially underinclusive such that it
regulates religious conduct while failing to regulate secular conduct that is at least as harmful to
the legitimate government interests purportedly justifying it.” Id. at 197.
The Court fully understands the impact the executive order has had on houses of worship
throughout the affected zones. Nevertheless, the Appellants cannot clear the high bar necessary
to obtain an injunction pending appeal. The challenged executive order establishes zones based
on the severity of the COVID-19 outbreaks in different parts of New York. Within each zone,
the order subjects religious services to restrictions that are similar to or, indeed, less severe than
those imposed on comparable secular gatherings. See S. Bay United Pentecostal Church v.
Newsom, 140 S. Ct. 1613, 1613 (2020) (Roberts, C.J., concurring) (denying emergency injunctive
relief to houses of worship that were subject to similar or less severe restrictions than those
applicable to comparable secular gatherings); see also Elim Romanian Pentecostal Church v.
Pritzker, 962 F.3d 341, 342, 346–47 (7th Cir. 2020) (upholding an order that capped religious
gatherings at ten people where the most comparable activities—those “that occur in auditoriums,
such as concerts and movies”— had been banned completely); cf. Commack Self-Serv. Kosher
Meats, Inc. v. Hooker, 680 F.3d 194, 210–11 (2d Cir. 2011) (holding that a Kosher food labeling
act was a neutral and generally applicable law subject to rational basis review because it applied
3

Case 20-3590, Document 82, 11/09/2020, 2971105, Page4 of 9

to “food purchased by individuals of many different religious beliefs” and impacted consumers
who purchased kosher products “for reasons unrelated to religious observance”).
Thus, while it is true that the challenged order burdens the Appellants’ religious practices, the
order is not “substantially underinclusive” given its greater or equal impact on schools, restaurants,
and comparable secular public gatherings. Cf. No. 20-3590, doc. 20, Ex. L at 2 (Governor Cuomo
criticizing the order’s policy of “clos[ing] every school” as “a policy being cut by a hatchet,” not
“a scalpel”). To the contrary, the executive order “extend[s] well beyond isolated groups of
religious adherents” to “encompass[] both secular and religious conduct.” Cent. Rabbinical,
763 F.3d at 195.
In a dissent from this Court’s order, our colleague asserts that the executive order is subject to
strict scrutiny because it violates the minimum requirement of neutrality. The fact that theaters,
casinos, and gyms are more restricted than places of worship, the dissent reasons, “only highlights
the fact that the order is not neutral towards religion.” But this view is undermined by recent
precedent, which makes clear that COVID-19 restrictions that treat places of worship on a par with
or more favorably than comparable secular gatherings do not run afoul of the Free Exercise Clause.
See, e.g., S. Bay, 140 S. Ct. at 1613 (Roberts, C.J., concurring) (guidelines that “place[d]
restrictions on places of worship” less severe than those on comparable gatherings “appear
consistent with the Free Exercise Clause”); see also Elim, 962 F.3d at 347 (same).
The dissent attempts to distinguish South Bay as having been decided during the early stages of
the pandemic while local governments were actively shaping their response to changing facts on
the ground. But here, too, the executive order is a response to rapidly changing facts on the
ground. For several months, New York’s “limits and restrictions lessen[ed] and evolve[d] as the
curve continue[d] to flatten,” and the State’s “limits and restrictions . . . increase[d]” only when
“a review of the data indicate[d] a trend of increasing COVID-19 cases or spikes of cases in [the]
cluster areas” targeted by the challenged executive order. No. 20 Civ. 4834 (KAM) (E.D.N.Y.
2020), doc. 12 at 14, 18–19. In any event, South Bay did not draw a distinction between the
pandemic in its early or late stage. Its central relevant facts exist in New York in November
2020 just as they existed in California in May 2020: There is no vaccine or known cure for
COVID-19; the pandemic has killed hundreds of thousands of Americans; and “[b]ecause people
may be infected but asymptomatic, they may unwittingly infect others.” S. Bay, 140 S. Ct. at
1613 (Roberts, C.J., concurring).
Upon due consideration, and for the foregoing reasons, it is hereby ORDERED that the Appellants’
motions for injunctions pending appeal are DENIED. Among other infirmities in their arguments,
the Appellants have failed to meet the requisite standard for an injunction pending appeal. See
New York v. U.S. Dep’t of Homeland Sec., 974 F.3d at 214. It is further ORDERED that the
motion to expedite the appeals is GRANTED.
We address here only the Appellants’ motions for injunctions pending appeal and to expedite their
appeals, not their underlying appeals challenging the district courts’ refusals to provide preliminary
injunctive relief. With respect to the underlying appeals, the parties have agreed to the following
4

Case 20-3590, Document 82, 11/09/2020, 2971105, Page5 of 9

merits briefing schedule: Appellants’ briefs are due Tuesday, November 17, 2020; Appellee’s
brief is due Tuesday, December 8, 2020; Appellants’ reply briefs are due Monday, December 14,
2020, and the matter is to be calendared as early as the week of December 14, 2020.
Judge Park dissents from the denial of the motions for injunctions pending appeal.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

5

Case 20-3590, Document 82, 11/09/2020, 2971105, Page6 of 9

Park, Circuit Judge, dissenting:
In response to the COVID-19 pandemic, the Governor of New York issued an executive
order imposing strict capacity limits on “houses of worship” in certain specified “zones.” Those
restrictions apply only to religious institutions; in the same zones, pet shops, liquor stores, and
other businesses the Governor considers “essential” remain open, free from any capacity limits.
By singling out “houses of worship” for unfavorable treatment, the executive order specifically
and intentionally burdens the free exercise of religion in violation of the First Amendment. I would
thus grant the motions for injunctive relief pending appeal.
I
Discrimination against religion is “odious to our Constitution.” Trinity Lutheran Church
of Columbia, Inc. v. Comer, 137 S. Ct. 2012, 2025 (2017). “Official action that targets religious
conduct for distinctive treatment” must thus satisfy “the most rigorous of scrutiny.” Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 534, 546 (1993).
A
First, the executive order fails the “minimum requirement of neutrality” towards religion,
which means that a government policy may “not discriminate on its face.” Id. at 533. The order
authorizes the New York State Department of Health to designate “areas in the State that require
enhanced public health restrictions” as red, orange, or yellow zones. N.Y. Exec. Order No. 202.68.
In each zone, the order subjects only “houses of worship” to special “capacity limit[s]”: in red
zones, “25% of maximum occupancy or 10 people, whichever is fewer”; in orange zones, “the
lesser of 33% of maximum occupancy or 25 people”; and in yellow zones, “50% of . . . maximum
occupancy.” Id. But in the very same zones, numerous businesses deemed “essential” may operate
with no such restrictions. 1 This disparate treatment of religious and secular institutions is plainly
not neutral.
The Governor’s public statements confirm that he intended to target the free exercise of
religion. The day before issuing the order, the Governor said that if the “ultra-Orthodox [Jewish]
community” would not agree to enforce the rules, “then we’ll close the institutions down.” 2 See
Masterpiece Cakeshop, Ltd. v. Colo. C.R. Comm’n, 138 S. Ct. 1719, 1731 (2018) (factors relevant
to the assessment of neutrality include “the specific series of events leading to the enactment or
1

See Guidance for Determining Whether a Business Enterprise Is Subject to a Workforce
Reduction Under Recent Executive Orders, N.Y. State Dep’t of Econ. Dev. (updated Oct. 23, 2020),
https://esd.ny.gov/guidance-executive-order-2026; Guidance for Determining Whether a Business
Enterprise Is Subject to a Workforce Reduction Under Executive Order 202.68, N.Y. State Dep’t of Econ.
Dev. (updated Oct. 7, 2020), https://esd.ny.gov/ny-cluster-action-initiative-guidance; Hearing Tr. at 81–82,
No. 20-cv-4844 (E.D.N.Y. Oct. 15, 2020).
2

Governor Cuomo Updates New Yorkers on State’s Progress During COVID-19 Pandemic, Off.
of the Governor (Oct. 5, 2020), https://www.governor.ny.gov/news/video-audio-photos-rush-transcriptgovernor-cuomo-updates-new-yorkers-states-progress-during-1.

Case 20-3590, Document 82, 11/09/2020, 2971105, Page7 of 9

official policy in question” and “contemporaneous statements made by members of the
decisionmaking body”).
The Governor argues that the executive order should nonetheless be subject to only
rational-basis review because it treats houses of worship “more favorably” than “non-essential”
secular businesses, like theaters, casinos, and gyms. But this only highlights the fact that the order
is not neutral towards religion. Rational-basis review applies when a generally applicable policy
incidentally burdens religion, but a policy that expressly targets religion is subject to heightened
scrutiny. See Cent. Rabbinical Cong. of U.S. & Can. v. N.Y.C. Dep’t of Health & Mental Hygiene,
763 F.3d 183, 194 (2d Cir. 2014). Here, the executive order does not impose neutral public-health
guidelines, like requiring masks and distancing or limiting capacity by space or time. Instead, the
Governor has selected some businesses (such as news media, financial services, certain retail
stores, and construction) for favorable treatment, calling them “essential,” while imposing greater
restrictions on “non-essential” activities and religious worship. Such targeting of religion is
subject to strict scrutiny.
South Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613 (2020) (mem.), is not to
the contrary. Summary decisions of the Supreme Court are precedential only as to “the precise
issues presented and necessarily decided.” Mandel v. Bradley, 432 U.S. 173, 176 (1977).
Petitioners in South Bay sought a writ of injunction, which is granted only when “the legal rights
at issue are indisputably clear.” Id. at 1613 (Roberts, C.J., concurring) (citation omitted). Here,
Appellants seek injunctions pending appeal, for which they need to show, at most, a “‘substantial’
likelihood” of success on the merits. United for Peace & Just. v. City of New York, 323 F.3d 175,
178 (2d Cir. 2003). In addition, the motions before this Court arise from quite different
circumstances. South Bay was decided during the early stages of the pandemic, when local
governments were struggling to prevent the healthcare system from being overwhelmed and were
“actively shaping their response to changing facts on the ground.” 140 S. Ct. at 1614 (Roberts,
C.J., concurring). By contrast, the Governor’s stated concern here is maintaining localized
containment. In April, New York reported a seven-day average of nearly 1,000 deaths per day
from COVID-19. 3 Six months later, that average has not exceeded 20 for months. See id.
Finally, the Governor overstates the import of Jacobson v. Massachusetts, 197 U.S. 11
(1905), which upheld a mandatory vaccination law against a substantive due process challenge.
Jacobson was decided before the First Amendment was incorporated against the states, and it “did
not address the free exercise of religion.” Phillips v. City of New York, 775 F.3d 538, 543 (2d Cir.
2015). Indeed, the Court specifically noted that “even if based on the acknowledged police powers
of a state,” a public health measure “must always yield in case of conflict with . . . any right which
[the Constitution] gives or secures.” 197 U.S. at 25. Jacobson does not call for indefinite

3

See New York Covid Map and Test Count, N.Y. Times (updated Nov. 4, 2020),
https://www.nytimes.com/interactive/2020/us/new-york-coronavirus-cases.html.

2

Case 20-3590, Document 82, 11/09/2020, 2971105, Page8 of 9

deference to the political branches exercising extraordinary emergency powers, nor does it counsel
courts to abdicate their responsibility to review claims of constitutional violations.
B
Applying strict scrutiny, there is little doubt that the absolute capacity limits on houses of
worship are not “narrowly tailored.” Lukumi, 508 U.S. at 546. As the Governor himself admitted,
the executive order is “not a policy being written by a scalpel,” but rather is “a policy being cut by
a hatchet.” See Appellant’s Br., No. 20-3590, at 4.
First, the fixed capacity limits do not account in any way for the sizes of houses of worship
in red and orange zones. For example, two of the Diocese’s churches in red or orange zones as of
October 8, 2020 seat more than a thousand people. But the order nonetheless subjects them to the
same 10-person limit in red zones applicable to a church that seats 40 people. Such a blunderbuss
approach is plainly not the “least restrictive means” of achieving the State’s public safety goal.
Lukumi, 508 U.S. at 578.
The fixed capacity limits also bear little relation to the particular COVID-19 transmission
risks the Governor identifies with houses of worship, such as “singing or chanting” and mingling
before and after services. Churchgoers and daveners remain subject to generally applicable
distancing and mask requirements, so the additional capacity limits assume that worshippers—
unlike participants in “essential” activities—will not comply with such restrictions. The Governor
may not, however, “assume the worst when people go to worship but assume the best when people
go to work or go about the rest of their daily lives in permitted social settings.” Roberts v. Neace,
958 F.3d 409, 414 (6th Cir. 2020). Here, Appellants have made clear that they would follow any
generally applicable public-health restrictions.4
II
The remaining injunction factors also support granting the motions. Appellants presented
unrebutted evidence that the executive order will prevent their congregants from freely exercising
their religion. And “[t]he loss of First Amendment freedoms, even for minimal periods of time,
unquestionably constitutes irreparable injury.” N.Y. Progress & Prot. PAC v. Walsh, 733 F.3d
483, 486 (2d Cir. 2013) (quoting Elrod v. Burns, 427 U.S. 347, 373 (1976) (plurality op.)). 5
4

For example, the Diocese presented evidence that, even before the order, it had voluntarily
restricted attendance to 25% of building capacity and required masks during Mass; it has also “agreed to
accept potential further restrictions (such as eliminating congregant singing and choirs during Mass) as a
condition of injunctive relief.” Appellant’s Br., No. 20-3590, at 4.
5

The district court in the Agudath Israel case found that plaintiffs had not demonstrated irreparable
harm because “the Orthodox community has previously complied with the total lockdown” and they could
“continue to observe their religion” with “modifications.” Tr. of Proceedings at 66, No. 20-cv-04834
(E.D.N.Y. Oct. 9, 2020). This was error, in light of which plaintiffs reasonably believed that another motion
for injunction in the district court would be futile. See, e.g., Hernandez v. Comm’r, 490 U.S. 680, 699

3

Case 20-3590, Document 82, 11/09/2020, 2971105, Page9 of 9

Finally, the balance of equities and public interest favor Appellants. The question is not
whether the State may take generally applicable public-health measures, but whether it may
impose greater restrictions only on houses of worship. It may not.
I respectfully dissent from the denial of the motions for injunctions pending appeal.

CERTIFIED COPY ISSUED ON 11/09/2020

(1989) (“It is not within the judicial ken to question the centrality of particular beliefs or practices to a faith,
or the validity of particular litigants’ interpretations of those creeds.”).

4

EXHIBIT B
(Dist. Ct. Dkt. No. 36)

)URP
6HQW
7R
6XEMHFW

HFIBERXQFHV#Q\HGXVFRXUWVJRY
7XHVGD\2FWREHU30
QRERG\#Q\HGXVFRXUWVJRY
$FWLYLW\LQ&DVHFY1**&/37KH5RPDQ&DWKROLF'LRFHVHRI%URRNO\Q1HZ
<RUNY&XRPR2UGHURQ0RWLRQIRU3UHOLPLQDU\,QMXQFWLRQ

>([WHUQDO(PDLO@
7KLVLVDQDXWRPDWLFHPDLOPHVVDJHJHQHUDWHGE\WKH&0(&)V\VWHP3OHDVH'21275(6321'WR
WKLVHPDLOEHFDXVHWKHPDLOER[LVXQDWWHQGHG
127(7238%/,&$&&(6686(56
-XGLFLDO&RQIHUHQFHRIWKH8QLWHG6WDWHVSROLF\SHUPLWV
DWWRUQH\VRIUHFRUGDQGSDUWLHVLQDFDVH LQFOXGLQJSURVHOLWLJDQWV WRUHFHLYHRQHIUHHHOHFWURQLFFRS\RI
DOOGRFXPHQWVILOHGHOHFWURQLFDOO\LIUHFHLSWLVUHTXLUHGE\ODZRUGLUHFWHGE\WKHILOHU3$&(5DFFHVVIHHV
DSSO\WRDOORWKHUXVHUV7RDYRLGODWHUFKDUJHVGRZQORDGDFRS\RIHDFKGRFXPHQWGXULQJWKLVILUVW
YLHZLQJ+RZHYHULIWKHUHIHUHQFHGGRFXPHQWLVDWUDQVFULSWWKHIUHHFRS\DQGSDJHOLPLWGRQRW
DSSO\
86'LVWULFW&RXUW
(DVWHUQ'LVWULFWRI1HZ<RUN
1RWLFHRI(OHFWURQLF)LOLQJ

7KHIROORZLQJWUDQVDFWLRQZDVHQWHUHGRQDW30('7DQGILOHGRQ
7KH5RPDQ&DWKROLF'LRFHVHRI%URRNO\Q1HZ<RUNY&XRPR
&DVH1DPH
FY1**&/3
&DVH1XPEHU

)LOHU
'RFXPHQW1XPEHU1RGRFXPHQWDWWDFKHG


'RFNHW7H[W
25'(5)RUWKHUHDVRQVVWDWHGLQWKHFRXUW V>@PHPRUDQGXPDQGRUGHUWKH>@PRWLRQIRU
DQLQMXQFWLRQSHQGLQJDSSHDOLV'(1,('2UGHUHGE\-XGJH1LFKRODV**DUDXILVRQ
 /D]DUXV%HQMDPLQ 

FY1**&/31RWLFHKDVEHHQHOHFWURQLFDOO\PDLOHGWR

5DQG\00DVWURUPDVWUR#JLEVRQGXQQFRPDDULDV#JLEVRQGXQQFRPPDR#JLEVRQGXQQFRP

6HWK-)DUEHUVHWKIDUEHU#DJQ\JRY6WHSKDQLH5RVHQEHUJ#DJQ\JRYRDJOLWD#DJQ\JRY

$NLYD6KDSLURDVKDSLUR#JLEVRQGXQQFRP$0DVWHUV#JLEVRQGXQQFRP

:LOOLDP-RKQ0RFFLDZPRFFLD#JLEVRQGXQQFRPDPDVWHUV#JLEVRQGXQQFRPGFRQUR\#JLEVRQGXQQFRP
ONROH#JLEVRQGXQQFRPVKDUWQHWW#JLEVRQGXQQFRP



/HH5RVV&UDLQOFUDLQ#JLEVRQGXQQFRPOURVVFUDLQ#JPDLOFRP

FY1**&/31RWLFHZLOOQRWEHHOHFWURQLFDOO\PDLOHGWR




EXHIBIT C
(Dist. Ct. Dkt. No. 32)

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 1 of 24 PageID #: 870

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 2 of 24 PageID #: 871

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 3 of 24 PageID #: 872

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 4 of 24 PageID #: 873

x

x
x
x
x
x

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 5 of 24 PageID #: 874

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 6 of 24 PageID #: 875

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 7 of 24 PageID #: 876

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 8 of 24 PageID #: 877

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 9 of 24 PageID #: 878

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 10 of 24 PageID #: 879

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 11 of 24 PageID #: 880

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 12 of 24 PageID #: 881

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 13 of 24 PageID #: 882

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 14 of 24 PageID #: 883

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 15 of 24 PageID #: 884

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 16 of 24 PageID #: 885

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 17 of 24 PageID #: 886

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 18 of 24 PageID #: 887

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 19 of 24 PageID #: 888

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 20 of 24 PageID #: 889

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 21 of 24 PageID #: 890

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 22 of 24 PageID #: 891

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 23 of 24 PageID #: 892

Case 1:20-cv-04844-NGG-CLP Document 32 Filed 10/16/20 Page 24 of 24 PageID #: 893

EXHIBIT D
(Dist. Ct. Dkt. No. 31-1)

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 1 of 127 PageID #: 743

EXHIBIT $

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 2 of 127 PageID #: 744
1
1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
- - - - - - - - - - - - - - - X
:
: 20-CV-4844 (NGG)
:
:
:
: United States Courthouse
: Brooklyn, New York
:
: Thursday, October 15, 2020
: 2:00 p.m.
:
:
:
:
:

THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK,
Plaintiff,
-against-

8
9
10
11
12
13
14

GOVERNOR ANDREW M. CUOMO in
his official capacity,
Defendant.
- - - - - - - - - - - - - - - X

TRANSCRIPT OF CIVIL CAUSE FOR PRELIMINARY INJUNCTION HEARING
BEFORE THE HONORABLE NICHOLAS G. GARAUFIS
SENIOR UNITED STATES DISTRICT COURT JUDGE

15

A P P E A R A N C E S:

16

For the Plaintiff:

GIBSON, DUNN & CRUTCHER, LLP
200 Park Avenue, 48th Floor
New York, New York 10166
BY:RANDY MASTRO, ESQ.
WILLIAM J. MOCCIA, ESQ.
AKIVA SHAPIRO, ESQ.

For the Defendant:

LETITIA JAMES
ATTORNEY GENERAL OF THE STATE OF NEW YORK
28 Liberty Street
New York, New York 10005
BY:SETH FARBER, ESQ.

17
18
19
20
21
22
23
24
25

Court Reporter:

Linda A. Marino,
Official Court Reporter
E-mail: lindacsr@aol.com

Proceedings recorded by computerized stenography.
produced by Computer-aided Transcription.
LAM

OCR

RPR

Transcript

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 3 of 127 PageID #: 745
Proceedings
1
2

THE COURTROOM DEPUTY: This is a preliminary
injunction hearing.

3
4

Beginning with the Plaintiffs, please state your
appearances for the record.

5

Plaintiff?

6

MR. SHAPIRO:

7

Dunn.

This is Akiva Shapiro from Gibson

I believe Randy Mastro is on.

8

THE COURT:

9

Where are you?

10
11

Mr. Mastro, state your appearance.

THE COURTROOM DEPUTY:

He was just on.

THE COURT:

Let's just wait a moment for him to

reappear.

14

(Pause in proceedings.)

15

MR. MASTRO:

16

THE COURT:

17

Now we lost

him.

12
13

2

Hi.
Mr. Mastro, please state your

appearance.

18

MR. MASTRO:

Certainly, your Honor.

Randy Mastro,

19

of Gibson Dunn & Crutcher, along with my colleagues Akiva

20

Shapiro and William Moccia.

21

THE COURT:

Just for the sake of seeing all of your

22

head, could you adjust the camera?

23

otherwise.

24
25

MR. MASTRO:

It's disconcerting

My head is big enough already, your

Honor.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 4 of 127 PageID #: 746
Proceedings
1

Is this better?

2

THE COURT:

3

helpful to make the adjustment.

4

MR. MASTRO:

5

It's somewhat better, yes.

Books are

There's a reason I went into the law:

Because I'm not that athletic.

6

I lost the video.

7

THE COURTROOM DEPUTY:

8

THE COURT:

9

I can hear you.

I see you.

He lost his video.

10

(Pause in proceedings.)

11

MR. FARBER:

12

Defendant.

13

problems.

Your Honor, this is Seth Farber for the

Unfortunately, I've been having connection

14

THE COURT:

15

FEMALE SPEAKER:

16

THE COURT:

17

MR. MASTRO:

18

THE COURT:

19

3

All right, Mr. Farber.
Can you see Randy now?

Yes, we can.
Thank you.
All right.

Sorry about the delay.
So, we have Mr. Mastro and

co-counsel and Mr. Farber.

20

That's all counsel?

21

Mr. Farber, anyone else?

22

MR. FARBER:

23

the Defendant today, your Honor.

No, I'll be the only one appearing for

24

THE COURT:

25

This is the case of the Roman Catholic Diocese of

Thank you very much, sir.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 5 of 127 PageID #: 747
Proceedings

4

1

Brooklyn against Governor Andrew Cuomo.

2

proceeding is to provide an evidentiary hearing in connection

3

with the Plaintiff's motion for preliminary injunction against

4

the Governor of the State of New York in connection with

5

limitations on religious worship in Catholic churches during

6

the COVID-19 pandemic under Executive Order 202.68.

7

The purpose of this

So, let me just state how we're going to proceed

8

here.

9

Defendant has one witness.

The Plaintiff has two witnesses, I understand, and the
The Plaintiff has objected to the

10

Defendant's witness, and the Court has considered the

11

objection and overruled the objection.

12

So, we're going to proceed.

And how we will proceed

13

is that we will take the Plaintiff's witnesses first and then,

14

depending on how much time has transpired, we'll take a break

15

and then take the Defendant's witness.

16

First, I'll indicate that I've reviewed all of the

17

papers that have been submitted by the parties.

18

is that we will complete all of the testimony this afternoon,

19

which will permit the Court to try to issue a decision before

20

the weekend.

21

objective.

And my hope

So, I wish to mention that that's my hope and my

22

Also, before we move into the testimony, let me

23

thank Judge Eric Komitee for handling the application for

24

temporary restraining order last Friday when I was not

25

available.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 6 of 127 PageID #: 748
Proceedings
1
2

5

So, at this point, is there anything preliminary
prior to beginning hearing from the witnesses?

3

Anything from you, Mr Mastro?

4

MR. MASTRO:

5

Your Honor, nothing other than will

your Honor take any argument at the conclusion of the hearing?

6

THE COURT:

It really depends on how late we go, but

7

I could hear some argument.

8

discuss all those issues in great detail and that may be

9

sufficient, but if there's something that you want to put a

10

I have all of your papers which

finer point on I certainly would like to hear from you --

11

MR. MASTRO:

12

THE COURT:

13

And Mr. Farber, anything from you before we get

14

Thank you, your Honor.
-- and from the State's attorney.

started?

15

Mr. Farber?

16

Well, we need Mr. Farber.

17

Is Mr. Backenson on the call?

18

MR. BACKENSON:

19

THE COURT:

20

I know Commissioner Esposito for many years in

21

Yes, I am.

I just wanted to identify you.

dealing with the City of New York.

22

And Bishop Chappetto, is this the Bishop?

23

BISHOP CHAPPETTO:

24

THE COURT:

25

Yes, your Honor.

So, we have all of our witnesses.

just waiting for Mr. Farber.

LAM

OCR

RPR

I'm

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 7 of 127 PageID #: 749
Proceedings
1

(Pause in proceedings.)

2

THE COURT:

3

mute until they're called upon?

4
5

6

Would everyone put their microphones on

That will make it a lot easier.

If you want to

object --

6

MR. FARBER:

7

THE COURT:

8

MR. FARBER:

9

THE COURT:

10

Can anyone hear me?
Mr. Farber?
Yes, yes, your Honor.
You're back?

Are we ready?

11

order of proceedings?

12

MR. FARBER:

Okay.

Did you hear what I said about the

I did, your Honor.

You asked

13

Mr. Mastro if he had anything prior to proceeding and you then

14

asked me.

15

I do not, your Honor.

16

THE COURT:

17

MR. FARBER:

Thank you.
We are ready to proceed.

18

for my technical issues.

19

Thank you.

I apologize

I don't understand them, but okay.

20

THE COURT:

21

Did you provide a phone number to Mr. Reccoppa, my

Is there a phone number, just in case?

22

courtroom deputy, just in case?

23

MR. FARBER:

24

THE COURT:

25

Mr. Mastro, you may call your first witness.

Yes, he has my cell phone number.
All right.

LAM

OCR

Let's proceed, then.

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 8 of 127 PageID #: 750
Chappetto - Direct - Moccia
1

MR. MASTRO:

2

And my colleague Will Moccia is going to do the

3

Your Honor, Bishop Chappetto.

direct examination.

4

THE COURT:

5

MR. MOCCIA:

6

Thank you.
Your Honor, this is Will Moccia, Gibson

Dunn, on behalf of Plaintiff.

7

We call Bishop Raymond Chappetto.

8

THE COURT:

9

THE COURTROOM DEPUTY:

10

7

Please swear in the witness.
Sir, just raise your right

hand, please.

11

Do you solemnly swear the testimony you shall give

12

to the Court will be the truth, the whole truth, and nothing

13

but the truth, so help you God?

14

BISHOP CHAPPETTO:

15

THE COURTROOM DEPUTY:

16

THE COURT:

17

Go ahead, sir.

18

MR. MOCCIA:

19

RAYMOND F. CHAPPETTO,

I do swear that.
Thank you.

Thank you.

Thank you, your Honor.

20

called by the Plaintiff, having been

21

first duly sworn, was examined and testified

22

as follows:

23

DIRECT EXAMINATION

24

BY MR. MOCCIA:

25

Q

Good afternoon, Mr. Chappetto.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 9 of 127 PageID #: 751
Chappetto - Direct - Moccia

8

1

A

Good afternoon, Will.

2

Q

Could you briefly describe for the Court your current

3

occupation?

4

A

5

Brooklyn, and I serve as the Vicar General and the Vicar for

6

Clergy.

7

Q

8

Church; is that correct?

9

A

That's correct.

10

Q

How long have you held that position?

11

A

I have been the Vicar for Clergy since 2009 and I've been

12

the Vicar General of the Diocese since 2013.

13

Q

14

Vicar General?

15

A

16

say, of the Diocese of Brooklyn.

17

Bishop DiMarzio and the governance of the Diocese.

18

Q

19

offer public Mass within the Diocese?

20

A

Yes, I have.

21

Q

And is that at one church?

22

A

My role consists of going around to various churches for

23

many different reasons; various celebrations, I help out in

24

different churches.

25

different churches for special occasions, so I do visit many

Yes.

I am a Roman Catholic bishop of the Diocese of

And that's a clerical position within the Roman Catholic

And just in brief, what are your responsibilities as

Vicar General is sort of the vice president, you might
I work very closely with

And since assuming that role, have you continued to also

I also get specific assignments to

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 10 of 127 PageID #: 752
Chappetto - Direct - Moccia

9

1

churches.

2

Q

3

Catholic Church?

4

A

I was ordained on May 29, 1971.

5

Q

And can you briefly walk us through some of the positions

6

you've held in the Diocese since your ordination?

7

A

8

pastor -- at four different parishes.

9

territorial vicar, taking care of 62 parishes in the Brooklyn

When were you initially ordained as a priest in the Roman

I've been a parochial vicar -- that means an assistant

10

west region.

11

Brooklyn, two in Queens.

12

I served as a

I was pastor of three different parishes; one in

Then I became an auxiliary bishop, and, after that,

13

I assumed the responsibilities in the administration of the

14

Diocese as well as my pastoral functions.

15

Q

16

referred to in the Catholic Church as "pastoral roles"?

17

A

18

a pastoral role as well.

19

Q

20

just in general terms explain what it means in the Catholic

21

Church when someone refers to a "pastoral role"?

22

A

23

of the Church and you preside over various celebrations;

24

baptisms, funerals, weddings, of course the Eucharist every

25

Sunday and weekday Mass as well.

And, so, is it fair to say that you held what would be

Yes, I have both roles; I have an administrative role and

Just so that we're clear for the record, can you please

"Pastoral role" means that you celebrate the sacraments

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 11 of 127 PageID #: 753
Chappetto - Direct - Moccia

10

1

Q

2

about the same thing, to a few documents that have been filed

3

in this case.

I'd like to turn now, just so that we're all talking

4

Do you have in front of you a document titled,

5

"Declaration of Bishop Raymond F. Chappetto in support of

6

Plaintiff's application for temporary restraining order and

7

preliminary injunction"?

8

A

Yes, I do.

9

Q

Do you recognize that document?

10

A

Yes, I do.

11

Q

And, again, just so that we're clear for the record, does

12

the document at the top have a header that identifies it as

13

Document No. 5?

14

A

Yes, it does.

15

Q

And are you familiar with the contents of that document?

16

A

Yes, I am very familiar with it.

17

Q

And are you familiar with the materials that are attached

18

to it as Exhibit A?

19

A

Yes.

20

Q

And have you re-read that document since you first

21

executed it?

22

A

Yes, I have.

23

Q

And you signed that document under penalty of perjury; is

24

that correct?

25

A

They are memos, and I'm familiar with them.

That's correct.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 12 of 127 PageID #: 754
Chappetto - Direct - Moccia
1

Q

2

the contents of that document true and correct?

3

A

4

have corrected in a supplemental document.

5

11

To the best of your knowledge as you sit here today, are

There are some corrections that I think one of which we

Correction number one would be the names and number

6

of parishes that have been affected by the executive order.

7

We have corrected it in a supplemental document because we

8

received interactive maps that helped us to get a clearer

9

picture and better identify the parishes that were affected.

10

So, yes, that's the first correction, would be in the

11

supplemental document.

12

that have been affected by the executive order.

13

We do say that there are 26 parishes

The second correction is that in the listing of the

14

people who have assisted Joseph Esposito in the reopening

15

committee that was formed, the last -- it's paragraph eight on

16

page three, the last sentence is incorrect.

17

typographical error.

18

The last sentence reads, "The commission regularly

19

consulted with a mental health expert."

20

medical health expert.

21

substituted for "mental."

22

Q

23

It must be a

It should say a

The word "medical" should be
That's the second correction.

Thank you very much for those.
Aside from those two corrections that you've

24

identified, are the remaining contents of the declaration true

25

and correct as you sit here today?

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 13 of 127 PageID #: 755
Chappetto - Direct - Moccia
1

A

2

true.

3

Q

4

12

Aside from those two items, the documents are correct and

Thank you very much.
The second document I want to just briefly discuss

5

is titled, "Supplemental declaration of Bishop Raymond F.

6

Chappetto in further support of Plaintiff's application for

7

preliminary injunction."

8

Do you have that document in front of you?

9

A

Yes, I do.

10

Q

And are you familiar with that document?

11

A

Yes, I'm very familiar with it, yes.

12

Q

And, again, just so the record is clear, does the header

13

at the top of that document identify it as Document 21?

14

A

That's correct.

15

Q

And have you re-read that document since you first

16

executed it?

17

A

Yes, I have.

18

Q

And you signed that document under penalty of perjury; is

19

that correct?

20

A

Yes, I did.

21

Q

And to the best of your knowledge as you sit here today,

22

are the contents of that document true and correct?

23

A

Yes, they are correct and true.

24

Q

Thank you very much.

25

about COVID-19.

LAM

So, I want to just now talk briefly

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 14 of 127 PageID #: 756
Chappetto - Direct - Moccia
1

13

In your role as Vicar General, have you been

2

involved in the Diocese of Brooklyn's response to COVID-19?

3

A

4

Bishop DiMarzio on all aspects of it.

5

Q

And could you please identify who Bishop DiMarzio is?

6

A

Yes.

7

Catholic Diocese of Brooklyn.

8

Q

9

questioning, if I refer simply to the "Diocese," I'll be

Very much so.

I have been working very closely with

Bishop Nicholas DiMarzio is the Bishop of the Roman

Thank you.

I am Auxiliary Bishop.

For simplicity here on out in this

10

referring to the Diocese of Brooklyn; is that okay?

11

A

Yes, certainly.

12

Q

How did the Diocese initially respond to the COVID-19

13

outbreak in New York?

14

A

15

the public for the safety and protection of the people.

16

the pandemic first broke out and we saw that it was

17

escalating, we wanted to be proactive at that point.

18

the initiative of closing the churches to the public.

19

Q

20

prohibited large public gatherings?

21

A

We did it before the public demand to do so.

22

Q

And what, if anything, did the Diocese do in between the

23

time it closed for public Mass and the time it reopened?

24

A

25

parishes to do virtual Masses, livestreaming Masses, so that

Well, we took the initiative of closing our churches to
When

We took

And was that before or after the City and State

During that time, we encouraged our pastors and our

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 15 of 127 PageID #: 757
Chappetto - Direct - Moccia

14

1

the faithful people could continue to worship, you might say,

2

at a distance.

3

We did keep in touch with people through phone

4

calls, through robocalls, through various communications, our

5

Diocesan newspaper, keeping the people informed of what was

6

happening, why it was happening, and always looking forward to

7

a change.

8

Q

9

the pandemic itself to prepare for an eventual reopening?

10

A

And were there any specific steps taken with respect to

Very much so.

11

When we came towards the end of the time, we

12

realized that we would be reopening but we wanted to be

13

prepared.

14

Esposito, and this committee's charge was to give advice and

15

recommendations to the Bishop on how to safely reopen the

16

churches.

17

Q

18

that would later be implemented by the Diocese?

19

A

20

times -- we decided to present our recommendations to the

21

Bishop for his approval.

22

Q

23

I guess let me take a step back.

24
25

So, we formed a committee headed by Joseph

Is it correct that the commission developed protocols

That's correct.

After many meetings -- we met many

And you mentioned some meetings of the commission.

Approximately how many people were on this
commission?

LAM

OCR

RPR

Well,

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 16 of 127 PageID #: 758
Chappetto - Direct - Moccia
1

A

Approximately ten to twelve people.

2

Q

In general, can you describe their backgrounds?

3

A

They came from all different walks in life; some were

4

police officers, some were legal representatives, some were

5

Diocesan representatives who knew things about buildings.

6

15

So, we had various disciplines represented on the

7

commission.

8

Q

9

corrections to the declarations, but am I correct that there

And you touched on this earlier when we were discussing

10

were also consultations with medical professionals?

11

A

12

that's correct.

13

Q

14

consultations?

15

A

I believe there were several consultations.

16

Q

And in general, how often was the commission meeting

17

during this time period?

18

A

19

we met weekly.

And then as the time came closer, we did not

20

meet as often.

But at the beginning, I would say it was every

21

week for four to six weeks.

Yes, we had a consultation with a medical professional,

And was it one consultation or were there ongoing

We were meeting weekly.

22

For between four to six weeks,

And then once the document was ready, the commission

23

had served its purpose, so we disbanded and we did not meet

24

again.

25

Q

And this document that you're referring to, are those the

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 17 of 127 PageID #: 759
Chappetto - Direct - Moccia

16

1

protocols that we discussed a few minutes ago?

2

A

That's correct.

3

Q

And could you just walk us through some of the protocols

4

that are in that document?

5

A

6

out the church -- and that means with masking tape, other

7

kinds of markings -- to make sure that the people when they

8

came back would be socially distanced, so that they would be

9

six feet apart, they'd be seated every other row.

10

Yes.

And that

was the first thing, was the social distancing.

11
12

We instructed all of our pastors to carefully mark

Then we instructed the people that they would not be
admitted into the church unless they had a mask on.

13

We told our pastors to get hand sanitizers at the

14

doors of the church and to post signs at the church entrances

15

instructing the people that if they did not have a mask on,

16

they would not be admitted in; and to use the hand sanitizers

17

upon entrance.

18

We also instructed them to get cleaning supplies, to

19

buy them in bulk, so that we could make sure that after every

20

service, after every Mass, the churches would be cleaned and

21

sanitized.

22

mechanically to make sure that the churches were being cleaned

23

and sanitized in a proper way.

24
25

Many of them bought the machines to do it

These are just some of the ways in which we
instructed our pastors to prepare, to get ready, so when the

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 18 of 127 PageID #: 760
Chappetto - Direct - Moccia

17

1

day would come when we could reopen, then we would be entirely

2

ready and prepared to make sure the people were kept safe.

3

Q

4

the parts of the Mass?

5

A

6

as short as possible so that the people would not be detained

7

unnecessarily.

8
9

And how about the Mass itself?

Were any changes made to

Well, we encouraged the celebrants of the Mass to make it

We changed the way in which Holy Communion was
distributed.

People were told that they would receive in

10

their hand and not on the tongue, which is an option that we

11

generally do have.

12

that they would receive in the hand; that they would come up

13

to the altar, keeping the social distancing, they would keep

14

their masks on when they received Holy Communion, they would

15

step to the side, they would then remove their mask, they

16

would receive the Holy Communion, and then they would put

17

their mask back on again as they returned to their seats.

18

Q

19

reopened at a limited capacity?

20

A

21

reopening, however, was with ten people in which -- the first

22

reopening was just for visits to the church, without services.

23

But for this time period, people were told

And in terms of capacity at Mass, am I correct that you

Yes, we opened up at 25 percent capacity.

The first

And then we went to the second phase, which was

24

services with ten people.

25

a priest with ten people present.

LAM

I, myself, celebrated a funeral for

OCR

Only ten people.

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 19 of 127 PageID #: 761
Chappetto - Direct - Moccia
1

18

And then we went to the third phase, which was the

2

reopening at 25 percent capacity.

3

Q

4

has permitted larger gatherings; is that correct?

5

A

Yes, we have.

6

Q

Bishop Chappetto, to your knowledge, were the protocols

7

recommended by the commission adopted by the Diocese?

8

A

Yes, they were.

9

Q

And to your knowledge, were those protocols implemented

And you've remained at 25 percent even after the State

10

by churches within the Diocese?

11

A

12

Yes, they were.
I have visited many of the churches myself because,

13

as I mentioned before, I am a Sunday Mass celebrant in the

14

different churches, and I see how the pastors have implemented

15

the protocols in a very serious way.

16

Q

17

report any incidence of COVID-19?

18

A

19

any incidences.

20

Q

21

churches within the Diocese since the reopening you described?

22

A

I am not aware of anything that has come to my attention.

23

Q

And if there were such incidences, would you expect them

24

to come to your attention?

25

A

And does the Diocese have a way for parishioners to

They can call the pastors and let them know if there were

And are you aware of any outbreaks of COVID-19 in any

I think I would be among the first to know.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 20 of 127 PageID #: 762
Chappetto - Direct - Moccia

19

1

Q

And why is that?

2

A

Because of the position that I hold.

3

they all have my cell number, they know they can call me at

4

any time about any reason pertaining to the church or

5

pertaining to the situation.

6

there was a COVID breakout from the church.

7

Q

8

and saying Masses at the parishes within the Diocese, how

9

would you describe the level of compliance with the protocols?

And the pastors,

So, they would inform me if

And based on your firsthand observations while visiting

10

A

11

complete compliance as I go around.

I am very much impressed.

12

I have to be -- what I see is

I complimented one parish that I was at recently.

13

They formed teams of people because they have four or five

14

services on a Sunday, four or five Masses on a Sunday, and

15

there's a team after each Mass that does the cleaning.

16

in fact, in this particular parish, one time the team for some

17

reason was not able to make it, and one of the priests himself

18

did the cleaning to be sure that it was done.

19

And,

So, I can tell you my own eyes have seen what

20

they're doing as far as sanitizing, cleaning, people wearing

21

masks.

22

it's an annoyance to wear it, they must wear it.

23

all doing it.

24
25

I compliment the people.

I tell them it's not easy,
And they're

So, I would have to say the compliance is excellent.
Q

For those on the call who might not be familiar with the

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 21 of 127 PageID #: 763
Chappetto - Direct - Moccia

20

1

Catholic faith, could you just in brief explain what it means

2

to go to Mass?

3

A

4

Sunday; they can go to the vigil Mass on Saturday night or

5

Mass on Sunday.

Well, for us, the attendance at Mass is obligatory on

6

It's obligatory.

And the Mass consists of readings from the Sacred

7

Scriptures; a Homily, which is an explanation of those

8

readings and how they apply to our daily life; and then the

9

celebration of the Eucharist, which is the presentation of the

10

bread and wine, the consecration of the bread and wine into

11

what we believe is the Body and Blood of our Lord and Savior,

12

and then the distribution of the Holy Communion to the

13

individual people.

14

Eucharist, is the consecration and the distribution of the

15

Eucharist.

16

dismissal.

17

Q

18

person?

19

A

20

on TV have said, "It's a nice thing to watch it on the TV, but

21

it's not the same.

That is the heart and center of the

And then there's a dismissal, final prayer and a

How important is it that the Mass be celebrated in

It's absolutely essential because people who have watched

22

You cannot receive Communion at home."

The priest has no way of bringing Communion to every

23

household.

24

at church, it's the fullness of the Eucharist, it's the

25

complete Eucharist by receiving Holy Communion, and it's

It's impossible.

LAM

So, for them to be in attendance

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 22 of 127 PageID #: 764
Chappetto - Direct - Moccia
1

21

really absolutely essential.

2

People were starved for Holy Communion during the

3

pandemic because while they could watch it on TV, which was

4

very nice, they couldn't receive the Eucharist.

5

the heartbreak of our people because that's what defines us as

6

Catholics.

7

are people of the Mass, and the Mass defines us and it really

8

tells us who we are.

9

Q

And that was

We are what we call a "Eucharistic people."

We

And you touched on this briefly, but if you could just

10

elaborate, please, on how the lack of in-person Mass impacted

11

parishioners during the pandemic.

12

A

13

was a hunger on the part of the people.

14

them personally who told me the spiritual void that they felt

15

in not being able to receive Holy Communion.

16

loss for them.

It was definitely a hunger to receive the Eucharist.

17

It

I spoke to many of

It was a great

So, coming back to the -- when the Mass was again

18

allowed to be celebrated with people present, it was a great

19

joy and a great relief.

20

satisfied.

21

Q

22

Communion.

23

written on this, but, if you could, just succinctly spell out

24

from a theological perspective what the significance of Holy

25

Communion itself is.

The hunger that they had is now being

I'd like to hone in a little more.

You referenced Holy

I realize there are whole theological treatises

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 23 of 127 PageID #: 765
Chappetto - Direct - Moccia
1

A

2

Apostles changed the bread and the wine into the Body and

3

Blood of Christ.

22

We believe that Jesus at the Last Supper with the twelve

4

That was the first Mass, at the Last Supper.

We believe that every Mass is a recreation of the

5

Last Supper, every Mass is a celebration of the Lord's Supper.

6

And we believe that Jesus said to do this in His memory.

7

continue that, we celebrate Mass daily.

8

church there is a Mass.

9

To

Every day at every

But on Sunday, the people have the obligation to

10

attend the Mass because we believe that they are listening to

11

the Word of God and that they are participating in the Lord's

12

Supper.

13

serious part of the Mass and receiving the Holy Communion for

14

a Catholic is the essence of what it means to be a Catholic.

15

Q

16

Holy Communion during Mass?

17

A

18

the choice is up to them:

19

and then to place the Holy Eucharist into their mouths by

20

themselves; or the other option that was there prior to the

21

pandemic was the opportunity receive Communion on their

22

tongue.

23

place the Holy Eucharist on their tongue and then they would

24

consume it that way.

25

Q

The consecration of the bread and wine is the most

And prior to the pandemic, how would one normally receive

Prior to the pandemic, people would have a choice, and
To receive Communion in their hand

They would extend their tongue and the priest would

And you said that that choice has been removed; is that

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 24 of 127 PageID #: 766
Chappetto - Direct - Moccia

23

1

correct?

2

A

3

could keep our people safe, yes.

4

Q

5

also an option of receiving the Precious Blood during Holy

6

Communion?

7

A

We removed that choice for sanitary reasons so that we

And again now speaking prior to the pandemic, was there

Yes, there was.

8
9

Thank you for mentioning that.

That was completely discontinued -- completely -- so
that there would be no chance of anything.

10

It is not necessary for a Catholic to receive both

11

the Holy Communion in the form of bread and the Precious

12

Blood, as we call it, in the form of wine.

13

necessary to receive the Precious Blood.

14

host or the wafer -- it is the Body of Christ -- that is

15

sufficient for a Catholic.

It is not

It's receiving the

16

So, we discontinued that so there would be no

17

misunderstanding on the part of anybody that they could

18

contract any kind of germs.

19

Q

20

and people leave the church.

You mentioned about at the end, there's a sending forth

21

Could you talk briefly about any protocols that were

22

put in place to make sure that people were safely entering and

23

existing the churches?

24

A

25

so that they could go out the various exits.

Yes.

We opened the doors of the church, all the doors,

LAM

OCR

RPR

We encourage

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 25 of 127 PageID #: 767
Chappetto - Direct - Moccia
1

them not to the congregate outside as they would do

2

pre-pandemic so that the people could leave and go home as

3

soon as possible.

4

Q

5

Governor Cuomo have referred to as the "cluster initiative"?

6

A

I'm not familiar with that.

7

Q

I can be more specific.

And are you familiar with what the State of New York and

8
9

24

Are you aware that as part of a recent regulation,
the Governor has issued an executive order that would limit

10

in-person church attendance in certain geographic areas to 10

11

or 25 people?

12

A

13

you're referring to that?

14

Q

Yes.

15

A

I am familiar with that, of course.

16

zones with a limited capacity and the red zones with an even

17

more limited capacity.

18

Q

And how does that restriction impact the Diocese?

19

A

Oh, a tremendous, tremendous impact.

20

thing that we are dealing with is the fact that our people

21

were coming back to Mass after that long period of absence,

22

they had just started to get used to the idea of coming back

23

and that it was safe because we made it safe, we made the

24

environment safe, and then to have this come upon us was very

25

difficult because it seems like we're going backwards instead

You're referring to the orange zones and the red zones;

Yes, the orange

Yes, I'm very familiar with that.

LAM

OCR

RPR

This is the hardest

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 26 of 127 PageID #: 768
Chappetto - Direct - Moccia

25

1

of going forwards.

2

Q

3

like to tell the Court about the why the Diocese's churches

4

should be permitted to reopen this Sunday for Mass subject, of

5

course, to a 25 percent capacity cap and any other safety

6

measures that the Diocese has implemented and agreed to

7

implement?

8

A

9

people, people need to worship, people need to be present for

And Bishop Chappetto, is there anything else that you'd

I think that the essential nature of the worship of our

10

the reception of the Eucharist, people need to be present

11

because they belong to a community of faith.

12

that is not very, very easy to swallow.

13

And to deny them

We need to have our people in church.

We need to

14

have our people receiving the Eucharist.

15

there and we have done everything that we could possibly do,

16

to my knowledge, to make the environment safe for them so that

17

when they do come into the church they are safe.

18

continue to do that as much as possible.

19

Q

And we will

Thank you very much, Bishop Chappetto.

20
21

People want to be

MR. MOCCIA:

Your Honor, I have nothing further for

the witness at this point.

22

THE COURT:

23

Mr. Farber, do you have any questions for the

24
25

All right.

Thank you.

witness?
MR. FARBER:

Thank you, your Honor.

LAM

OCR

RPR

I have a very

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 27 of 127 PageID #: 769
Chappetto - Cross - Farber
1

brief cross, if I might.

2
3

THE COURT:

All right.

Please introduce yourself to

Bishop Chappetto.

4

MR. FARBER:

Yes.

Good afternoon, Bishop.

5

is Seth Farber.

6

represent Governor Cuomo today.

My name

I'm with the Attorney General's Office, and I

7

BISHOP CHAPPETTO:

8

MR. FARBER:

9

26

Thank you.

Thank you, sir.

CROSS-EXAMINATION

10

BY MR. FARBER:

11

Q

12

Paragraph 15 of the -- which is on Page 6 of Document 5, the

13

first declaration you gave in this case, you state that you

14

have a reporting structure and you would know whether there

15

have been any instances of COVID-19 spread in your churches;

16

correct?

17

A

That's correct.

18

Q

And it's fair to say that you know this based on what

19

parishioners report to either their parish priest or other

20

church officials, correct?

21

A

That's correct.

22

Q

So if, for example, a parishioner were asymptomatic and

23

didn't even know they were COVID positive, of course they

24

couldn't report that to their parish priest or church

25

officials, correct?

In your declaration, you state that -- I'm referring to

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 28 of 127 PageID #: 770
Chappetto - Redirect - Moccia
1

A

2

report it, you're right.

3

Q

4

no particular requirement that parishioners show a negative

5

COVID test before attending church service; is there?

6

A

No, we do not have that provision in the protocols.

7

Q

Okay.

8

symptoms of COVID but for whatever reason failed to report

9

that to a parish priest or a church official, you wouldn't

If they don't know they have it, then they couldn't

Okay.

And my understanding is in your protocol, there's

And similarly, if a parishioner actually had

10

know that either, correct?

11

A

If they failed to report it, we would not know it.

12

Q

Thank you very much, Bishop.

13

MR. FARBER:

14

THE COURT:

15

Anything else from Plaintiff's counsel?

16

MR. MOCCIA:

17

Nothing further from me.
All right.

Thank you.

Your Honor, just a very quick redirect,

if I might.

18

THE COURT:

19

REDIRECT EXAMINATION

20

BY MR. MOCCIA:

21

Q

22

might come to church and not be aware or might not have

23

disclosed that they are COVID positive.

24
25

27

Please.

Bishop Chappetto, Mr. Farber asked you about people who

I just want the record to be clear if any such
person attended Mass, am I correct that they would be

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 29 of 127 PageID #: 771
Chappetto - Redirect - Moccia

28

1

physically distanced from anyone else attending the Mass?

2

A

3

you have any symptoms, stay home.

4

protocol.

5

felt sick or had any symptoms, we've made it very clear that

6

they were not to come to the Mass.

7

Q

8

Mr. Farber's hypothetical scenario where one actor disregards

9

that instruction, that person would still be attending Mass

Well, we've told people very clearly if you are sick, if
That's part of the

So, we've discouraged them from coming.

Understood.

If they

So, my question then is even assuming

10

subject to all the distancing and the no receipt of the

11

Precious Blood and everything else we discussed a short time

12

ago; is that correct?

13

A

Absolutely, yes, that's correct.

14

Q

And then I guess the other question is about the

15

reporting structure.

16

So, am I correct that in addition to just any

17

informal word of an individual parishioner telling you that

18

there's an issue, is there also a formal reporting structure

19

within the Diocese by which the pastors would be directed to

20

contact someone, either yourself or someone else higher up

21

within the Diocese, about the situation?

22

A

23

calls made to me because of the outbreak.

24

waited for that 15-day period to be sure and we received

25

several calls at the beginning.

Yes.

At beginning of the pandemic, there were numerous

LAM

OCR

And you know, we

But we're talking now at the

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 30 of 127 PageID #: 772
Chappetto - Redirect - Moccia
1

29

middle of March.

2

So, at that time, yes, we did get calls, but then

3

since then we've done so much and so much time has passed.

4

Mass, you know, closing the churches, we helped to flatten the

5

curve.

6

to do that, conscientiously to do that, to make those numbers

7

come down.

8

Q

9

answer, but I just want to clarify.

We helped to bring the numbers down.

We were working

We succeeded in helping and doing our part.

And then you've now largely touched on that with this
Mr. Farber read a portion

10

of Paragraph 15 of your declaration.

11

says, "To my knowledge, since our churches reopened in July

12

for Mass and other religious ceremonies subject to our safety

13

protocols, there has not been any COVID-19 outbreak or spread

14

in any of our churches --"

15

MR. FARBER:

16

THE COURT:

17

You can go ahead.

That paragraph also

I'm going to object, your Honor.
Overruled.

18

Q

Bishop Chappetto, is that statement correct?

19

A

Yes, that's correct.

20

Q

And just to reiterate, anyone attending Mass would be not

21

just physically distanced from the other parishioners but also

22

would be wearing a mask; is that correct?

23

A

Yes, they must wear the mask, that's correct.

24

MR. MOCCIA:

25

Nothing further, your Honor.

Thank you very much.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 31 of 127 PageID #: 773
Proceedings

30

1

THE COURT:

2

MR. FARBER:

3

THE COURT:

4

Thank you very much, Bishop.

5

And I'll ask the Plaintiff to call their next

6

No, your Honor, no recross.
Thank you very much.

You have to turn on your microphone, please, Mr.
Mastro.

9

Not yet.

10

MR. SHAPIRO:

11

THE COURT:

12

You're excused.

witness.

7
8

Anything else, Mr. Farber?

I can take over.

I wanted to see if Mr. Mastro can do

this.

13

(Pause in proceedings.)

14

THE COURT:

All right.

We'll give him some time.

15

I'm sure he'll have something to say later.

16

Just identify yourself.

17

Everyone when they speak

should identify themselves for the court reporter.

18

So, go ahead.

19

MR. SHAPIRO:

20

Dunn, counsel for the Plaintiff.

Akiva Shapiro, A-K-I-V-A, from Gibson

21

I will be calling Joseph J. Esposito.

22

THE COURT:

23

MR. ESPOSITO:

24

THE COURT:

25

THE COURTROOM DEPUTY:

All right, Mr.

Esposito?

Good afternoon, your Honor.

Please swear in the witness.

LAM

OCR

Sir, please raise your right

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 32 of 127 PageID #: 774
Esposito - Direct - Shapiro
1

31

hand.

2

Do you solemnly swear the testimony you shall give

3

to the Court will be the truth, the whole truth, and nothing

4

but the truth, so help you God?

5

MR. ESPOSITO:

6

THE COURTROOM DEPUTY:

7

THE COURT:

8

MR. SHAPIRO:

9

I do.
Thank you.

You may proceed.
Thank you, your Honor.

JOSEPH J. ESPOSITO,

10

called by the Plaintiff, having been

11

first duly sworn, was examined and testified

12

as follows:

13

DIRECT EXAMINATION

14

BY MR. SHAPIRO:

15

Q

16

taking the time to be with us.

And good afternoon, Commissioner Esposito.

17

Thank you for

If we just start out, if you could give the Court a

18

little bit of a background, a brief overview of your

19

professional background?

20

A

21

1968 as a police trainee.

22

next 45 years, ultimately became the chief of the department.

23

The chief of the department is the highest-ranking uniformed

24

member of the NYPD.

25

Sure.

I started in New York City Police Department in
I rose through the ranks during the

I held that position for almost 13 years.

After my mandatory retirement at age 63, I was hired

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 33 of 127 PageID #: 775
Esposito - Direct - Shapiro

32

1

as the Commissioner for New York City Emergency Management,

2

where I served from 2014 to 2019.

3

THE COURT:

Before you go any further, the Court is

4

very familiar with Commissioner Esposito from his service as

5

the head of the Office of Emergency Management and also his

6

tenure in the police department and has the greatest respect

7

for his accomplishments serving the New York City community.

8

So, let's go on.

9

THE WITNESS:

Thank you, your Honor.

10

MR. MASTRO:

11

THE COURT:

Yes, I can.

12

MR. MASTRO:

I'm back.

13

THE COURT:

14

MR. SHAPIRO:

Can you hear me now?
Thank you, Mr. Mastro.
Thank you.

Let's proceed.
Certainly, your Honor.

I'm going to

15

ask only one more question about background just because it

16

ties in directly to the substance of what we're talking about.

17

Q

18

were you involved in preparing for infectious disease

19

outbreaks or pandemics?

20

A

21

emergencies and prepared for emergencies.

22

Commissioner of Emergency Management, that was one of our

23

primary responsibilities:

24

to help City agencies make plans, and actually have tabletop

25

exercises where we would deal with certain disasters.

As Commissioner of New York City Emergency Management,

Sure.

I mean, in my role in the NYPD also, we managed

LAM

But as my role as

To train people, to look at plans,

OCR

RPR

And on

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 34 of 127 PageID #: 776
Esposito - Direct - Shapiro
1

a number of occasions, we would deal with pandemic in New

2

York.

3

Q

Thank you.

4

33

I'll move on past background now.

Do you have in front of you a document titled,

5

"Declaration of Joseph J. Esposito in support of Plaintiff's

6

application for a temporary restraining order and preliminary

7

injunction"?

8

A

Yes, I have it in front of me.

9

Q

Okay.

And that document is titled or marked Document 6

10

at the top, the front page?

11

A

Yes, it is.

12

Q

Great.

13

I'm going to call that document your declaration.

Did you review your declaration before signing it on

14

the last page?

15

A

Yes.

16

Q

And at that time of signing it, you certified, affirmed,

17

that it was true under penalty of perjury; is that right?

18

A

Yes.

19

Q

Great.

20

content of your declaration true and correct?

21

A

Yes, they are.

22

Q

Okay.

23

signed it?

24

A

Yes.

25

Q

And is there anything that you'd like to modify or

And to the best of your knowledge, are the

And have you re-read your declaration since you

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 35 of 127 PageID #: 777
Esposito - Direct - Shapiro

34

1

correct?

2

A

No.

3

Q

Okay.

4

response to the COVID-19 pandemic.

5

the same page, as far as my colleague Mr. Moccia, when I refer

6

to "the Diocese," I'm referring to the Roman Catholic Church

7

of Brooklyn, New York, which is the Plaintiff in this action.

8
9

Now I'm going turn your attention to the Diocese's
And just so we're all on

How did you come to be involved -- did you come at
some point in time to be involved in the Diocese's response to

10

the COVID-19 pandemic?

11

A

Yes, I was.

12

Q

How did you come to be involved in it and what was your

13

role?

14

A

15

known to the Diocese; members of the Diocese, bishops,

16

monsignors, a lot of the local priests.

17

on a committee since 2013.

18

voluntary work, where I investigate misconduct by clergy.

19

in that role, I became very familiar with the Bishop and the

20

staff of the Diocese.

Well, I'm a practicing Catholic in Brooklyn.

21

I'm well

I've actively served

I'm the chair of a committee,
So,

So, and, again, when Corona hit, I was asked to come

22

onboard and help with the opening of the churches in a safe

23

manner.

24

Q

25

in response to the coronavirus?

And, so, what did the church do or the Diocese do to --

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 36 of 127 PageID #: 778
Esposito - Direct - Shapiro

35

1

A

2

We met on a regular basis.

3

and city guidelines, we made sure that we used them as our

4

guidelines to open up the churches.

5

meetings, communications back and forth with the pastors of

6

the churches, getting their feedback on our plans that they

7

developed.

Well, we formed a committee, as the Bishop had stated.

8
9
10

We looked at the federal, state,

Multiple, multiple

Ultimately, the plans were okayed.
Again, we spoke to medical professionals.

We had

people on the committee who were planners, who had planned
major events in the NYPD.

11

As a result, we come up with these guidelines.

12

believe it's your Exhibit A.

13

went out to the parishes.

14

in effect.

15

MR. SHAPIRO:

I

Those were the final plans that

And we went out and put those plans

And just for the record, that's

16

Exhibit A to Commissioner Esposito's declaration.

17

Q

18

recommendations, safety recommendations, were those all made

19

or done in consultation with medical professionals?

20

A

21

their input, especially on the Communion issue, receiving

22

Communion.

23

Okay.

And when you made the various protocol

Yes, yes, I spoke to a number of medical people to get

The other restrictions, again, we complied with the

24

federal, state, and city restrictions, but we also talked with

25

medical experts for their input if they thought we had

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 37 of 127 PageID #: 779
Esposito - Direct - Shapiro

36

1

anything we could modify the plans or add to them.

2

were really concerned with the part of receiving Communion.

3

Q

4

the Holy Communion, so I won't walk through that again, it's

5

in the record.

But they

And the Bishop has covered the changes that were made to

6

But if you could, just summarize the other changes

7

that were made or the other protocols that were put in place

8

for the churches in the Diocese to ensure the safety.

9

A

10
11

Sure.

I'd just like to re-stress what the Bishop said

about receiving Communion.
Receiving Communion is a very, very important part

12

of the Mass service.

13

really gone to Mass and done their responsibility if they

14

haven't received.

15

lot of the parishioners, especially the older parishioners.

16

It's a very, very important piece to keep in mind.

17

There are people that feel they haven't

So, that was a real big sore point for a

Things that we did:

The churches should be

18

sanitized following protocols based on federal, state, and

19

city; social distancing measures; pews, we knocked off a --

20

every other pew was closed to ensure that social distancing of

21

the six feet.

22

that we had stickers or tape or some kind of marker that

23

people would stay six feet apart.

24

member and you lived together with the family, then you could

25

sit together.

All the pews were marked six feet apart, so

LAM

OCR

Unless you were a family

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 38 of 127 PageID #: 780
Esposito - Direct - Shapiro
1

Occupancy was limited.

2

a face mask.

3

wear gloves.

4

37

Again, everyone had to wear

We encouraged gloves also, if you had them, to

Well-ventilated.

We made sure that the churches

5

kept the windows open a lot of time so that the air could come

6

through.

7

Hand sanitizer was provided.

8

We encouraged the at-risk population, people with

9

prior medical conditions, we asked them it might be best to

10

stay away.

11

We reinforced all the hygiene protocols, hand

12

washing.

13

restrooms; we closed the restrooms.

14

We closed the bathrooms.

Many of the churches have

Things of that nature.

15

Q

16

people came in and out of the church?

17

A

18

familiar with Saint Athanasius.

19

parish.

And how about the entrances and exits and the way that

You know, I'll just mention Saint Athanasius.

I'm very

That's my own personal

20

They have at least five entrances.

21

Sunday, the parishioners enter and leave from that main

22

entrance because they would have the priest who conducted that

23

Mass be generally at the door of the church or on the

24

sidewalk.

25

he'll bless an object if they brought for the kids, they sign

On a normal

And he greets the people; he'll shake their hand,

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 39 of 127 PageID #: 781
Esposito - Direct - Shapiro
1

papers to show that the kids were at church.

2

So, we eliminated that.

38

There's no more proceeding

3

into the church, and the priest comes on the altar from the

4

sanctuary door.

5

all.

6

And, again, he doesn't greet the people at

And again, Saint Athanasius has five doors.

On a

7

normal Sunday, the main door is used, the side door, we're

8

making people go out another two doors to really get the back

9

of the church.

10

We encourage, a lot, not congregating in front

of the church the way they normally would do.

11
12

(Continued on the following page.)

13
14
15
16
17
18
19
20
21
22
23
24
25

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 40 of 127 PageID #: 782
Esposito - direct - Shapiro

39

1

BY MR. SHAPIRO:

2

Q

3

changes that other churches within the Diocese have made in

4

the way that they enter and exit?

5

A

6

result of this, St. Athanasius in Williamsburg, Mount Carmel

7

in Greenpoint, and more churches in Queens, and all of the

8

protocols we've put in place, I've seen them being used in all

9

of the churches that I've been to.

(Continuing)

And to your knowledge, is that representative of the

Oh, yes, sure.

I visited a number of churches as a

10

Q

11

any specific cap or percentage that you were limiting

12

occupancy to?

13

A

Yes, the 25 percent.

14

Q

Okay.

15

Diocese, is that right?

16

A

17

schedule.

18

adapted.

19

restructured to help with the, with the problem.

20

Q

21

respect to additional employees or individuals in the

22

churches, inside the churches to ensure compliance?

23

A

24

originally just for prayer on a Monday to Friday basis where

25

people go into the church, say a prayer and leave.

And you had mentioned limiting the occupancy.

Yes.

Great.

Was there

And that was for all the churches in the

And then some of the churches had to modify their
Some added masses.

Some removed masses.

We

Just even the scheduling of the masses was, was

And were there any changes made or steps taken with

Sure.

We go back to the original opening.

CMH

OCR

RMR

CRR

FCRR

We opened up

And then

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 41 of 127 PageID #: 783
Esposito - direct - Shapiro

40

1

after that, we went to a Monday to Friday mass where we have a

2

mass Monday to Friday, a daily mass.

3

went to the masses on the weekend, Sundays, and we limited

4

those folks and we had ushers, some churches hired security

5

guards.

6

and he would make sure that everyone wore a mask, social

7

distancing.

8

Then, ultimately, we

I know at St. Dominic's, they had a security guard

The numbers were kept to the acceptable level.

So, yes, every church did something.

Either they

9

organized, as the Bishop had mentioned, different groups to

10

sanitize the churches, but they all added ushers or people.

11

Q

12

put together, the commission put together communicated to

13

individual churches in the Diocese?

14

A

All of them.

15

Q

And I don't know if I asked before.

16

in the commission that the Diocese put together?

17

A

The chairperson.

18

Q

And to your knowledge, have the protocols that your

19

commission put together been adopted by all the churches in

20

the Diocese?

21

A

22

about the Catholic church, when the Bishop says something, the

23

parishes listen.

24

Q

25

eyes, they did, in fact, listen, right?

And to your knowledge, were the protocols that your group

They were mandated to accept it.

What was your role

If you know anything

And, in fact, in your, from what you saw with your own

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 42 of 127 PageID #: 784
Esposito - direct - Shapiro

41

1

A

Without a doubt.

2

Q

And I guess, you know, I mean, I imagine the parishioners

3

and the priests throughout the Diocese have the utmost respect

4

for the Bishop and would certainly follow any directive that

5

he put out, any mandate that he put out?

6

A

7

St. Athanasius.

8

We had the confirmation.

9

confirmation.

Yes.

10

As a matter of fact, I was, I went to
I guess it was ten days ago or so, Bishop?
We had a double session

We had to split the ceremony to accommodate the

11

crowd.

12

confirmation, and we had to use strict regulations because

13

it's a very, very important sacrament to receive and usually

14

you bring your whole family.

15

sponsor and mother and father and it was very, very -- it

16

wasn't easy to do.

17

in with more and more people.

18

they complied but when they don't, we have ushers there to

19

make sure they comply.

20
21

We probably had 120, maybe 150 kids receiving

You only had the

We had people at the church trying to get

THE COURT:

We had to stop them.

I'm sorry.

So, yes,

Where did this event take

place?

22

THE WITNESS:

23

THE COURT:

24

THE WITNESS:

25

We limited it.

The confirmation?

Yes.
This was at St. Athanasius.

guess it was about 10 days ago, Bishop?

CMH

OCR

RMR

CRR

And I

I think it was last

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 43 of 127 PageID #: 785
Esposito - direct - Shapiro
1

42

Tuesday, I believe.

2

THE COURT:

All right.

Thank you.

Go ahead.

3

Q

4

or instructions in place for priests to report on any COVID-19

5

instances that they become aware of coming out of church

6

services?

7

A

8

instruct the parishioners to stay home if they're sick and if

9

they do feel sick and they were at church there, we've asked

And did the Diocese, to your knowledge, have any protocol

Yes.

They've been instructed -- the priests will

10

them to report it to their local parish.

11

Q

12

been any reported outbreaks or cases that were reported of

13

that structure?

14

A

I would have been notified, yes.

15

Q

And are you aware of any outbreaks of COVID-19 or spread

16

in any of the Diocese churches or parishes since the

17

reopening?

18

A

Not to my knowledge.

19

Q

Just a couple final questions and I'll wrap up.

And would you be told, would you be informed if there had

20

You're familiar with the order, the executive order

21

from the Governor that this proceeding is about which, in

22

practice, limits attendance at churches and the Diocese to a

23

fixed cap of 10 or 25 people regardless of the size of the

24

church, right?

25

A

Yes.

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 44 of 127 PageID #: 786
Esposito - direct - Shapiro

43

1

Q

2

what has the effect been on the churches of the Diocese in

3

your experience?

4

A

5

church on Sunday just to help communicate that St. Athanasius

6

was closed.

7

crying because they can't go to church.

8

their entire family, they want to come in and celebrate the

9

mass.

Since that order came out about a week and a half ago,

We've been devastated.

We've been devastated.

I was at

There were people at the front door of churches

We had to turn them away.

They showed with

It's very, very

10

disheartening especially because, really, talking about

11

Brooklyn and Queens, would have complied, we've gone above and

12

beyond what the regulations have asked us to do and I think

13

it's just unfair the way they've done this, with a blanket

14

statement:

Close all the houses of worship.

15

I think what would be a better way of doing this, if

16

you want my opinion, is the Health Department has thousands of

17

people working for them and they have a multitude of

18

inspectors.

19

out and visit on a Friday, visit a mosque.

20

prayer day.

21

their big prayer day.

22

churches, Christian churches, all churches.

23

that house of worship was in violation, well, then you give a

24

warning, you close them down, take some kind of action against

25

them, but to do a blanket statement where you're closing all

Well, get a hundred, get 200 inspectors and go
That's their big

On a Saturday, visit the synagogues.

CMH

That's

On a Sunday, go to the Catholic

OCR

RMR

CRR

And if you find

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 45 of 127 PageID #: 787
Esposito - direct - Shapiro

44

1

houses of worship, those that have been complying, ones that

2

are doing what they can to do the right thing, to close them,

3

you're really defeating the purpose.

4

people that are listening to you.

5

the people that aren't listening to us.

6

Q

7

You're smacking the

A better way would be smack

Thank you for that.
Based on your experience in emergency management,

8

NYPD and information you've obtained chairing the Diocese

9

COVID-19 commission, do you believe that it's safe for the

10

churches and the Diocese to stay open as long as they comply

11

with the 25 percent capacity cap and all of the safety

12

protocols the Diocese has instituted?

13

A

14

I've been in church every Sunday.

15

special events, weddings and funerals, Communions,

16

Confirmations.

17

rules to the umpteenth percent and to criticize them or to,

18

you know, make them close as a result of them doing the good

19

thing is just counterproductive.

20

Q

21

like to tell the Court about why the Diocese churches should

22

be permitted to reopen Sunday for mass, Sunday, subject to the

23

25 percent cap and the all the other safety measures?

24

other additional thoughts you want to give the Court?

25

A

Without a doubt.

Without a doubt.

I've been there.

I've been at a number of

They have been, they have been abiding by the

And last question.

Is there anything else that you'd

Any

Well, I think I've articulated it but, again, I just want

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 46 of 127 PageID #: 788
Esposito - cross - Farber

45

1

to tell you how important it is for the parishioners to go to

2

church on a Sunday.

3

parishioners.

They want to meet their fellow

They want to relate to them and talk to them.

4

It's been very, very stressful.

5

so many people and they're stressed out to the max.

6

communication with their co-parishioners.

7

it on Facebook.

8

great, putting the masses out, but there's nothing to replace

9

going to church, seeing your fellow parishioners, seeing your

You know, I talk to
They need

You know, you watch

They do a great job, the Diocese is doing

10

local, you know, your local religious leader, shaking his

11

hand, getting a blessing from him on a Sunday.

12

nothing better than that and we're missing that every Sunday.

13

And, again, doing it virtually, it helps us but it doesn't

14

replace being there.

15
16

MR. SHAPIRO:

There's

No further questions on direct,

Your Honor.

17

THE COURT:

18

Mr. Farber, any question?

19

MR. FARBER:

Thank you very much.

Very brief, Your Honor.

20

CROSS-EXAMINATION

21

BY MR. FARBER:

22

Q

Good afternoon, Mr. Esposito.

23

A

Good afternoon.

24

Q

My name is Seth Farber.

25

Office.

I'm with the Attorney General's

I'm representing the defendant Governor Cuomo today.

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 47 of 127 PageID #: 789
Esposito - redirect - Shapiro
1

46

In brief, sir, you've acknowledged that social

2

interaction is a big part of the experience of going to

3

church.

4

A

Yes.

5

Q

Okay.

6

epidemiology or infectious disease?

7

A

8

conduct at Emergency Management.

9

training.

10

Q

Is that fair to say?

Is it fair to say, sir, you have no training in

The only training I have is the tabletops that I would

Okay.

All right.

No, no official medical

Thank you, sir.

11

THE COURT:

12

MR. SHAPIRO:

Anything else from plaintiff?
Yes, very briefly, Your Honor.

13

REDIRECT EXAMINATION

14

BY MR. SHAPIRO:

15

Q

16

social interactions, but all social interactions that occur in

17

churches since they have reopened have been subject to the

18

protocols that you and your commission put in place, right?

19

A

20

during the mass, we greet one another.

21

you know, "Peace be with you," and people will shake hands,

22

they'll hug, they'll do a cheek kiss.

23

eliminated also.

24

you are going to get is you turn around, wave at your fellow

25

parishioners and say, "Peace be with you."

Commissioner Esposito, Mr. Farber was asking you about

Yes.

There's one thing that wasn't mentioned.

CMH

You know,

You know, we'll say,

That has been

When you say, "Peace be with you," the most

OCR

RMR

CRR

So that social --

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 48 of 127 PageID #: 790
Esposito - redirect - Shapiro

47

1

and we've modified the way we're doing mass.

2

Q

3

nowadays?

4

A

No contact.

5

Q

And everyone is social distanced 6 feet or more apart

6

both during mass and afterwards?

7

A

Yes.

8

Q

Okay.

9

they're in the church except for the brief moment when they've

And just to be clear, nobody is shaking the priest's hand

And everyone's wearing a mask the entire time that

10

stepped to the side and take from the Holy Communion?

11

A

No mask, no mass.

12

Q

And so the parishioners know that the socializing that

13

they are doing in church is not like any kind of socializing

14

they would have done in the old days before COVID, right?

15

A

That's correct.

16

Q

And everyone is very careful to maintain all of the

17

requirements that the Bishop has put in place and mandated

18

that everyone comply with?

19

A

20

have enough additional ushers and security to mandate that

21

they do.

22

time the other day about putting a mask on.

I had to go over

23

and tell him, "No mask, you can't come in."

He ultimately put

24

on a mask and came in.

25

Q

Very much so.

That's been our slogan.

And if they don't do it by themselves, we

We, we -- a fellow was giving us a bit of a hard

But to your knowledge, even that kind of brief

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 49 of 127 PageID #: 791
Esposito - redirect - Shapiro

48

1

intransigences happen very infrequently, right?

2

A

3

regular churchgoer, I could tell, so he wanted to be a little

4

defiant and we put him in check.

5

Q

Yes.

Well he was there for a Confirmation.

He was not a

Very good.

6

And the, the social interaction that people are

7

really coming to church for nowadays is to be, to gather as a

8

spiritual community and celebrate mass together under the very

9

strict guidelines that the church has put in place, fair to

10

say?

11

A

Without a doubt.

12

Without a doubt.

Look, I mean a lot of these folks, they want to be

13

in that building.

14

to go up to the front.

15

front of the holy statutes.

16

We don't even have Holy Water.

17

eliminated the Holy Water.

18

gone above and beyond.

19

Q

20

appreciate the time.

21
22

Okay.

They want to be in that church.

Great.

They want

They want to kneel down and pray in
They want to be in that church.
Another thing.

We've

The fountains are empty.

We've

I'm telling you.

Thank you, Commissioner Esposito.

MR. SHAPIRO:

I

No further questions from us,

Your Honor.

23

THE COURT:

24

MR. FARBER:

25

THE COURT:

CMH

Anything further from you, Mr. Farber?
No, Your Honor.
All right.

OCR

RMR

Does the plaintiff have any

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 50 of 127 PageID #: 792
Backenson - direct - Farber
1

other witnesses?

Mr. Mastro?

2

MR. MASTRO:

3

THE COURT:

Thank you.

4

All right.

At this point, Mr. Farber, do you want

5

to call your witness?

6

MR. FARBER:

7

49

No, Your Honor.

I do.

I would call Bryon Backenson.

I

believe he is on.

8

THE COURT:

9

MR. FARBER:

Yes, he is here on video.
Okay.

10

THE COURT:

11

(The witness is duly sworn/affirmed by the Clerk of

12

So let's swear in the witness.

the Court under penalties of perjury.)

13

THE COURT:

14

MR. FARBER:

You may proceed, Mr. Farber.
Thank you, Your Honor.

15

DIRECT EXAMINATION

16

BY MR. FARBER:

17

Q

Mr. Backenson, what is your current position?

18

A

I'm a research scientist 5 with the New York State

19

Department of Health.

20

of Communicable Disease Control for the State Department of

21

Health.

22

Biostatistics at the University at Albany School of Public

23

Health.

24

Q

25

Health?

I'm the Deputy Director of the Bureau

I'm an Assistant Professor of Epidemiology and

And how long have you been with the State Department of

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 51 of 127 PageID #: 793
Backenson - direct - Farber

50

1

A

2

consecutively now since 2000.

3

Q

4

court?

5

A

6

Madison, New Jersey, a Master of Science in epidemiology and

7

biostatistics from the University of Albany.

8

Q

9

epidemiological issues, is that correct?

Twenty-four years.

I've been with the Department

Can you describe your educational background for the

I have an undergraduate degree from Drew University in

As a general matter, you are familiar with

10

A

I am.

11

Q

Can you tell the Court who is Debra Blog?

12

A

Debra Blog is the director of the Division of

13

Epidemiology in New York State.

14

epidemiologist.

15

Blog is the State epidemiologist for New York.

16

bureau, the Bureau of Communicable Disease Control, falls

17

under Deb Blog.

18

Q

Okay.

19

A

I do.

20

Q

And in what capacity?

21

Dr. Blog?

22

A

23

is one of 5 bureaus that work under Dr. Blog.

24

75 or so different diseases in New York State, infectious

25

diseases, that are mandated to be reported to New York State

She's also the State

There is one designated for each state.

Deb

She -- my

And do you work with Ms. Blog, Dr. Blog?

What is your relationship with

So my group, the bureau of communicable disease control

CMH

OCR

RMR

CRR

There are about

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 52 of 127 PageID #: 794
Backenson - direct - Farber

51

1

and county health departments and our group basically

2

investigates those as well as other issues that come up that

3

require investigation that may not have made that list quite

4

yet.

5

individual cases of disease and clusters of cases of disease,

6

depending on the pathogen or the disease involved.

7

Q

8

this case?

9

A

I am.

10

Q

Have you had a chance to review that declaration?

11

A

I have.

12

Q

Have you had a chance to review the exhibits to that

13

declaration?

14

A

I have.

15

Q

All right.

16

contain any statements that you disagree with?

Basically, what we do is we look, we investigate

Are you aware that Dr. Blog has filed a declaration in

17
18

Is there anything in that declaration that

MR. MASTRO:

Objection, Your Honor.

May I please be

heard?

19

THE COURT:

Yes, Mr. Mastro.

20

MR. FARBER:

I can rephrase.

21

MR. MASTRO:

It's not a question of rephrasing.

The

22

questioner is leading his own witness, but this witness, you

23

know, he's not in a position, he's not qualified as an expert

24

in the way that the State presented Dr. Blog.

25

generally familiar with epidemiology and he is now going to be

CMH

OCR

RMR

CRR

He said he's

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 53 of 127 PageID #: 795
Backenson - direct - Farber
1

asked to adopt opinions given by Dr. Blog that were really

2

general conclusions that other courts in this state and

3

recently in Washington, D.C. found were conclusory and not

4

based on a sufficient record under Daubert.

52

This is actually trying to not have the real witness

5
6

here who might actually have been qualified to give an

7

opinion, although challenge it.

8

not a doctor, not a Ph.D., and who's now being asked to adopt

9

in its entirety an affidavit or a declaration over 90

We have a subordinate who is

10

paragraphs, 37 exhibits, and he's simply not qualified to give

11

the opinions that are given in the declaration and it is, you

12

know, at its core, putting words in the witness' mouth when

13

the other person should have been here.
So, Your Honor, I don't mean belabor the point but

14
15

we would have objected to opinions being rendered in this

16

conclusory fashion just as the Northern Division of New York

17

rejected the Commissioner of Health doing the same thing in a

18

case in August and a DC district court just did last Friday,

19

but this witness isn't even qualified to give those conclusory

20

results.

21

agree with everything in it?

22

testimony, Your Honor, certainly not proper expert testimony.

23

He read her declaration.

THE COURT:

Now he's going to say I

I don't think that's proper

Mr. Farber, you're not providing this

24

witness as an expert on the issues that would require

25

expertise of the type that Dr. Blog may or may not have, are

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 54 of 127 PageID #: 796
Backenson - direct - Farber
1

53

you?

2

MR. FARBER:

I'm not offering the witness for

3

Dr. Blog's expertise, Your Honor.

4

the background of this policy, public health practices and

5

other matters with which he is eminently familiar since he

6

works in that area and has worked in that area for many years.

I'm offering the witness on

7

MR. MASTRO:

8

THE COURT:

9

In that case, why don't you ask him specific

Your Honor, may I talk, please?
Wait, Mr. Mastro.

10

questions which relate to his responsibility in his position

11

and leave Dr. Blog's declaration as a separate matter that can

12

be argued about.

13

a witness and the Court may or may not take her declaration

14

into account in reaching the determination, but I think this

15

witness certainly can speak to certain issues.

16

questions myself so why don't we go ahead with some specific

17

questions as to issues or --

Dr. Blog did not, is not being presented as

18

MR. FARBER:

19

THE COURT:

20

I have a few

Right.
-- facts that he has specific knowledge

of and then we'll move on from there.

21

MR. FARBER:

I will move on, Your Honor.

22

MR. MASTRO:

Thank you, Your Honor.

23

THE COURT:

Okay.

24

Q

25

your position with the Department of Health is and New York

Mr. Backenson, can you tell the court what your role in

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 55 of 127 PageID #: 797
Backenson - direct - Farber
1

State's response to the COVID-19 pandemic?

2

A

3

of communicable diseases in New York State.

4

that since 2009.

5

individuals to investigate outbreaks across New York State.

6

am the, I'm the person who people call at 2 in the morning

7

when a physician has a question about a case that they don't

8

know what to do with with regards to reporting that.

54

So I over -- in my role, I oversee our case investigation

9

I've been doing

I investigate outbreaks and direct
I

My first instance with regards to COVID was in

10

January when I wound up getting phone calls with regards to

11

individuals who had recently returned from China and I've

12

worked with other members of the Department ever since in

13

order to help develop some of the surveillance techniques in

14

order to, in order to identify cases, some of the policies

15

involved in trying to address issues when it comes to

16

isolation and quarantine and so forth with regards to this.

17

I've also been directly involved in contact tracing and

18

contact elucidation with all the counties of New York State.

19

Q

20

the division of epidemiology, is it infectious diseases?

21

A

22

Communicable Disease Control and we investigate outbreaks and

23

we try and implement public health measures to help mitigate

24

spread of outbreaks.

25

Q

Okay.

And what is the role of your particular section of

It's communicable disease, right.

Okay.

It's the Bureau of

And what is the role of the Division of

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 56 of 127 PageID #: 798
Backenson - direct - Farber

55

1

Epidemiology in response to the COVID pandemic?

2

A

3

groups.

4

is a group that deals with hospital-acquired infections.

5

There's a group that deals with tuberculosis.

6

that deals with communicable disease data.

7

broken up by individual subject matter fields, if you will.

8

Q

9

transmitted?

The Division of Epidemiology encompasses five different
Ours is kind of general communicable disease.

Okay.

There

There's a group

So we're basically

To your knowledge, how is the SARS-CoV-2 virus

10

A

11

inhaling particles that have, that are infected with the

12

virus, be them aerosols or be they droplets.

13

again, that's primarily how this happens.

14

indication that there may be some transmission of this through

15

picking up the virus on surfaces and then, you know, wiping it

16

into a mucous membrane like a mouth or an eye.

17

vast majority of transmission is via the respiratory route.

18

It's a respiratory virus.

MR. MASTRO:

It is transmitted primarily by

They are --

There is some

It appears the

Your Honor, I have to object because it

19

was represented that he wasn't going to try to solicit expert

20

opinion from the witness and he just elicited the witness',

21

you know, opinion about how the virus is transmitted.

22

Your Honor, I didn't hear the witness say and I'm happy to

23

voir dire him on it, I didn't hear him say he considers

24

himself to be an expert on COVID-19.

25

all.

I didn't hear that at

So he's being called to give testimony about, really in

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 57 of 127 PageID #: 799
Backenson - direct - Farber
1

56

the nature of expert testimony about how the virus --

2

THE COURT:

Well, your point is well taken but

3

anyone who's listened over the last eight months to Dr. Fauci

4

has become an expert on how COVID-19 is transmitted.

5

generally understood situation, it would seem, and I'm not

6

taking his statement as an expert statement.

7

reinforces what we have been, we have come to understand about

8

the pandemic.

9

experts on how COVID-19 is transmitted and then there are a

10

It's a

It just

There are millions of Americans who are now

few who have no idea whatsoever.

11

So let's just move ahead.

Your point is well taken.

12

I am not going to rely on this witness on that particular

13

issue.

14

MR. MASTRO:

15

THE COURT:

Thank you, Your Honor.
Yes.

Let's move on.

Let's move on, please.

I'd like

16

to hear more about the specifics of this particular executive

17

order and how it came about, 202.68 which imposed new

18

restrictions in certain neighborhoods in Queens and Brooklyn

19

which is the subject of this application.

20

Okay.

21

MR. FARBER:

Let's go ahead, Mr. Farber.
Sure.

22

Q

23

cluster is?

24

A

25

related in one way or another.

Mr. Backenson, can you tell the Court what a COVID

Yes.

A cluster of COVID is a group of cases that are all

CMH

OCR

RMR

It could be related through an

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 58 of 127 PageID #: 800
Backenson - direct - Farber

57

1

occupational exposure, it could be related through a home

2

exposure, it could be related through some sort of gathering

3

but, basically, it's a link between a number of people who are

4

positive and it's basically, it's, you know -- typically it's

5

assumed to be three or more individuals who are all linked

6

together.

7

Q

Can you tell the court what a superspreader event is?

8

A

A super spreader event is something where one particular

9

infected individual disproportionately infects a number of

10

other individuals.

11

multiple circumstances with regards to COVID and other

12

illnesses for that matter but, typically, that can be from

13

when one particular individual is in a position where they may

14

be sharing more virus particles than they would, than another

15

individual might, particularly a situation that they might be

16

placed in where people are close together and there are a

17

number of people who may be susceptible to becoming infected

18

but, in general, again, it is one individual

19

disproportionately infecting a number of others.

20

Q

21

of worship and superspreader events?

Is there a relationship to your knowledge between houses

22
23

MR. MASTRO:

Objection, Your Honor.

Foundation and

he's asking him for, again, expert testimony.

24
25

It is something that we've seen in

THE COURT:
Q

Okay.

Sustained.

Superspreader events take place, as you just said,

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 59 of 127 PageID #: 801
Backenson - direct - Farber

58

1

when there are large groups of people present, is that fair to

2

say?

3

A

Yes.

4

MR. MASTRO:

5

THE COURT:

Leading the witness, Your Honor.
Go ahead.

6

Q

7

of New York in determining that there were COVID clusters?

8

A

9

proportion of tests that are testing positive so the number of

Can you describe the data that was relied on by the State

These would be the data on human cases as well as the

10

people getting tested and the number of percentage of those

11

tests that are returning positive within a different time

12

period.

13

Q

14

cluster initiative?

15

A

I am.

16

Q

Can you tell the Court what the cluster initiative is?

17

A

So the cluster initiative is a, it's -- first of all,

18

it's an identification of areas of increased incidents of

19

cases in a particular area, particularly compared to other

20

locations, and it's basically a targeted return to some of the

21

techniques that were done when New York went on pause back in

22

March.

23

basically trying to reduce density in areas where there are

24

large or larger proportions of people who are testing

25

positive.

Are you familiar with what the State is calling the

It's limiting businesses, it's limiting movement, it's

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 60 of 127 PageID #: 802
Backenson - direct - Farber

59

1

Q

2

number 202.68?

3

A

Yes.

4

Q

Okay.

5

"orange zone" and "yellow zone" as set forth in that executive

6

order?

7

A

Yes.

8

Q

Okay.

9

orange zone and yellow zone are?

Are you familiar with the Governor's executive order

Are you familiar with the terms "red zone,"

And briefly, can you say what the red zone and

10

A

11

individual zones have been set up so that the red zone is an

12

area that has the highest incident of new cases in an area

13

that go through the highest proportion of tests being, coming

14

back positive.

15

less than that.

So these zones are basically ways that, they're -- the

16

Orange is less than that and yellow then is

In each of those, there are a number of different

17

mitigation measures that are taking place.

18

temporary.

19

that had been increasing in those particular areas.

They are

They're there to try and help reduce the spread

20

They include limits on gatherings from none in the

21

red to 10 in the orange to 25 in the yellow to business just

22

being essential, just essential businesses being open in the

23

red zone to some closing of high risk businesses in the orange

24

zone to all businesses being open in the yellow zone.

25

are restaurant restrictions from takeout only in the red zone

CMH

OCR

RMR

CRR

FCRR

There

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 61 of 127 PageID #: 803
Backenson - direct - Farber

60

1

to outdoor dining limited to four at a table only in the

2

orange zone to indoor and outdoor dining limited to four at a

3

table in that yellow zone.

4

and the orange zones.

They're open in the yellow zones but

5

with required testing.

And churches are limited in the red

6

zones to 25 percent or 10 -- 25 percent capacity or 10

7

individuals whichever is smaller, the orange zone is

8

33 percent capacity or 25 individuals, whichever is smaller,

9

and in the yellow, it's listed to 50 percent capacity.

Schools are closed in both the red

10

Q

11

zones?

12

A

13

case data as well as testing data.

14

Q

15

red zones represent, you know, the highest concentration of

16

COVID cases, the orange zones the less highest and the yellow

17

zones the less highest, is that fair to say?

18

A

Are you aware of the data that was used in creating these

The data that was used for these was a combination of

All right.

As far as you're aware, the red zones, do the

Having looked at the data --

19

MR. MASTRO:

20

THE COURT:

21

Go ahead.

Objection, Your Honor.
I'm allowing the answer.

22

A

23

to the highest incidence rates and the highest testing rates.

24
25

Having looked at the data, the zones certainly correspond

THE COURT:

Let me just ask this.

Excuse me,

Mr. Farber, if I may.

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 62 of 127 PageID #: 804
Backenson - direct - Farber
1
2

61

Is your office the office that collects this data
and examines and interprets this data?

3

THE WITNESS:

Is that what you do?

Our office and other offices in the

4

Department of Health collect data.

5

try and clean data to make sure that the data that's being

6

used is, is appropriate and, you know, placed in the right

7

locations and so forth.

8

does.

9

THE COURT:

We do analyze data.

We do

So, yes, that is what our office

And in establishing the zones, is it

10

your office that established these zones when they became

11

necessary when the positive test results reached a certain

12

level of positivity, of testing?

13

THE WITNESS:

No, Your Honor, my office was not

14

involved in the creation of a threshold for a particular zone

15

if that's what you're asking.

16

THE COURT:

Well, then, if not your office, who's

17

office calculates the level of positivity and what needs to be

18

done with a zone a community needs to be placed in?

19
20
21
22

THE WITNESS:

creation of the zones were done by the executive office.
THE COURT:

I know what we're talking about.

You

mean, the Governor's office, the defendant's office, right?

23

THE WITNESS:

24

THE COURT:

25

These, as I understand it, the

Correct.

And Mr. Farber, the question is, and I'm

sure that you'll asking it eventually on cross-examination,

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 63 of 127 PageID #: 805
Backenson - direct - Farber

62

1

but my question is you're not, you're not providing any

2

witness to elucidate that a certain level of positivity

3

requires a certain level of limiting community activity;

4

that's not why, why this witness is here, I take it?

5

MR. FARBER:

That's correct, Your Honor.

This

6

witness is going to, you know, testify about the general

7

policy, its reasonableness as a matter of sound

8

epidemiological and public health practice, but he did not,

9

you know, create the specific policy of, you know, X percent

10

do this, X minus Y percent do that.

11

THE COURT:

That's not this witness.

And he's not an epidemiologist.

In

12

other words, he's not the person or group of persons who are

13

being consulted by the Governor as to establishing these,

14

these standards or cutoffs for red zones and orange zones and

15

the yellow zones, correct?

16
17

MR. FARBER:

He's in the group that is.

I can't say

that he personally is part of that.

18

THE COURT:

Well, let me cut to the chase here for a

19

minute.

20

and correct me if I'm wrong, Mr. Farber, a representation that

21

the red zone consists of a positivity rate of at least

22

8 percent.

I think that in Dr. Blog's declaration, there was,

23

Is that your understanding?
MR. FARBER:

That is, that is my understanding.

24

think that, I think that's an approximation and I think

25

that's --

CMH

OCR

RMR

CRR

FCRR

I

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 64 of 127 PageID #: 806
Backenson - direct - Farber
1

THE COURT:

2

MR. FARBER:

3
4

correct.

63

Okay.
-- that's an average but I think that's

I think that's correct.
THE COURT:

Well, it was brought to my attention

5

this afternoon that the Governor held a press conference at

6

11:30 this morning at which he indicated that the numbers show

7

that there are, the positivity rate in the red zone is

8

4.84 percent at present.

9

Are you are of this?

Do you have a witness who can talk about what's

10

going on with the positivity rate and how that might affect

11

this litigation?

12

MR. FARBER:

I, you know, I am not, I am not aware

13

of that, Your Honor.

14

I have today is, you know, can address it if he knows.

15

And the witness I, you know, the witness

I can tell the Court that Dr. Blog herself

16

unfortunately had a medical issue.

17

her availability, for example, for tomorrow but, you know,

18

that's what I have.

19

difficult circumstances, you know, as we indicated in our

20

letter so, you know, we're, we're all, you know, in a

21

difficult position.

Unfortunately, Your Honor, we're in

You know, we are dealing with this.

22

THE COURT:

23

MR. FARBER:

24

THE COURT:

25

Mr. Farber.

Mr. Farber.

Yes.
This was scheduled -- this hearing was

scheduled over the weekend.

CMH

I don't know, you know,

OCR

All right.

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 65 of 127 PageID #: 807
Backenson - direct - Farber
1

MR. FARBER:

2

THE COURT:

64

Yes, Your Honor.
And the Governor is giving, is giving a

3

press conference this morning and the numbers that he

4

apparently, you can correct it, I'm not saying this is, this

5

is just hearsay on my part, but it's valuable here since we're

6

trying to figure out what to do here.

7

the red zone is now under 5 percent and that's what I'm,

8

that's what I'm understanding from this press conference that

9

he had.

10

This is a court.

He's now saying that

I don't go to press conferences.

11

So, you know, I think it is important for your client to be

12

able to tell you what the latest move is so that we can have

13

an up to date understanding of what's going on with regard to

14

this COVID outbreak which I do not minimize in any way, shape

15

or form, you understand.

16

picture that is available so that if it is useful, if it is

17

useful in what we are doing, at least we will have it and be

18

able to consider it.

I'm just trying to get the latest

19

So I'm going to let you go ahead.

20

MR. FARBER:

21

THE COURT:

Okay.
I just point that out to you and ask you

22

to provide any additional information by tomorrow morning at

23

9 o'clock --

24

MR. FARBER:

25

THE COURT:

CMH

Yes, Your Honor.
-- on this subject and possibly some

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 66 of 127 PageID #: 808
Backenson - direct - Farber

65

1

sort of declaration by someone who is crunching the numbers as

2

to how this might affect all these zones that have been

3

created and affect the rights of the plaintiff in this case

4

and the parishioners of the Roman Catholic Diocese of

5

Brooklyn.

6
7

So having said all that, you can go back to your
questioning of the witness.

8
9

MR. FARBER:
Q

Thank you.

Thank you, Your Honor.

Backenson, are you familiar with the term "nonessential

10

gatherings"?

11

A

Yes.

12

Q

Okay.

13

202.68 treats nonessential gatherings in the red and orange

14

zones?

15

A

Yes.

16

Q

How does it treat them?

17

A

Gatherings are -- there are no nonessential gatherings in

18

the red zone and gatherings are limited to ten or less in the

19

orange zone.

20

Q

21

business"?

22

A

Yes.

23

Q

All right.

24

context of Executive Order 202.68?

25

A

Okay.

And are you familiar with how Executive Order

And are you familiar with the term "essential

And can you please describe that term in the

Essential businesses have been defined earlier, in

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 67 of 127 PageID #: 809
Backenson - direct - Farber

66

1

earlier executive orders as businesses that are, that are

2

allowed to remain open because they provide essential services

3

to the State and to New Yorkers.

4

and this particular executive order, essential businesses are

5

allowed to stay open when in the red zone, other businesses

6

must close; in the orange zone, they are open, there are

7

personal care and other high risk businesses that are, that

8

should be closed; and in the yellow zone, there's no

9

restrictions.

And with regards to those,

10

Q

11

offered evidence that the church officials are not aware of

12

COVID outbreaks from its churches in red and yellow zones and

13

that the church has imposed its own hygiene, social

14

distancing, masking mitigation measures.

Okay.

15

The plaintiff has offered us, the plaintiff

In your view as a epidemiologist with New York

16

State, is that, in your view, an adequate public health

17

measure?

18
19

MR. MASTRO:

Objection, Your Honor.

And it's

also --

20

THE COURT:

No.

I'm allowing it.

Go ahead.

21

A

22

certainly appropriate with regards to the phased entry that

23

has happened starting in mid May.

24

is trying to have a targeted approach to try and address areas

25

that have extraordinarily high rates of positivity.

So the measures that have been undertaken were, are

CMH

OCR

RMR

What we're trying to do now

CRR

FCRR

It may --

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 68 of 127 PageID #: 810
Backenson - direct - Farber

67

1

in situations like this, taking additional steps in order to

2

try and minimize spread and minimize risk to other individuals

3

and potentially trying to stop spread from catching hold in

4

certain areas is appropriate.

5

Q

6

actually has lower capacity than the State requires in its

7

churches.

8

in cases, the State permits 33 or even higher.

All right.

9

And plaintiff, plaintiff argues that it

It's at a maximum of 25 percent capacity and when

Why, again, as an epidemiologist with the State of

10

New York, would it be of concern if the churches in the red

11

and orange zone continue to operate at 25 percent capacity?

12

MR. MASTRO:

13

THE COURT:

14

You may answer.

Same objection, Your Honor.
Your objection is noted.

15

A

16

what actions the church has taken, but the actions that are

17

around the church and the individual, the increasing rate of

18

positivity in the communities surrounding it.

19

about then potential spread inside, inside this particular

20

church, potential spread to other people outside the

21

community.

22

It is -- I mean, I think the main concern again is not

It's a concern

The goal of COVID mitigation is to try and keep

23

COVID numbers as small as possible because as we've seen in a

24

number of situations in New York and nationally and

25

internationally for that matter, this is a disease that can

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 69 of 127 PageID #: 811
Backenson - direct - Farber

68

1

spread very, very quickly both in terms of time and a place.

2

Q

3

mitigation where there are high positive, positivity COVID

4

rates in a given area?

5

A

Yes.

6

Q

And can you describe what the CDC's guidance is for such

7

community mitigation?

8

A

9

increasing rates of number of cases and of incidence rates in

Are you familiar with the CDC's guidance for community

In short, the CDC takes escalating steps as they're

10

particular areas.

11

or a combination of both as we're doing here increases in a

12

particular area, CDC would recommend that additional steps get

13

taken in order to try and prevent future spread, particularly

14

in areas of high density.

15

Q

Okay.

16

So if incidence rates or positivity rates

And I'm nearly, nearly done here.
Can you explain what you meant concerning density?

17

A

18

the spread, transmission of COVID involves density.

19

concern that we have is when there are a number of people

20

present, that it's much easier for one person to infect more

21

than one individual.

22

Sure.

So density is a -- one of the main concerns about
The main

What we want to do as epidemiologists, as public

23

health professionals is try and, whenever there is a case, we

24

want to have fewer than one case, have that person transmit to

25

fewer than one individual.

CMH

OCR

That's a term called the

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 70 of 127 PageID #: 812
Backenson - direct - Farber

69

1

reproductive rate.

2

the best ways to do that is to limit the number of people that

3

a positive individual is --

And so one of the things that we -- one of

4

THE COURT:

5

There is someone who's on a telephone call in the

Hold on.

Hold on a minute.

6

middle of this proceeding and it's very distracting.

7

either hang up the phone or terminate your involvement in this

8

proceeding.

9
10

THE CLERK:

Judge, I can mute everybody but I was

just going to wait.

11

THE COURT:

12

I'm sorry to interrupt, sir.

13

So

Thank you very much.
Please complete your

statement.

14

THE WITNESS:

Certainly.

15

A

16

the number of people that one individual can potentially

17

transmit to.

18

why we are, we recommend masking and social distancing.

19

why we have certain limits for gatherings, why we have

20

staggered workplaces, why we have staggered school settings,

21

why we have no fans in stadiums.

22

prevent events where one or two positive individuals who may

23

or may not know that they are ill or positive can potentially

24

give this to many, many other people at once.

25

Q

So density is important, basically, in trying to limit

Okay.

It's why we went on pause back in March.

OCR

RMR

It's

It basically is trying to

Thank you, Mr. Backenson.

CMH

It is

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 71 of 127 PageID #: 813
Backenson - cross - Mastro
1

MR. FARBER:

2

THE COURT:

3

Cross-examination?

4

MR. MASTRO:

5

70

That actually concludes my direct.
All right.

Thank you, Mr. Farber.

Yes, Your Honor.

Thank you,

Your Honor.

6

THE COURT:

7

MR. MASTRO:

8

CROSS-EXAMINATION

9

BY MR. MASTRO:

Introduce yourself to the witness.
Yes.

10

Q

11

doing this as quickly as possible.

Mr. Backenson, I have a few questions.

12

THE COURT:

13

MR. MASTRO:

14

THE COURT:

15

introduced you to the witness.

16

I look forward to

First --

This is Mr. Mastro.
Yes.
All right.

MR. MASTRO:

Thank you.

Go ahead, Mr. Mastro.

I'm sorry.

17

Q

18

hope you took my father's course, Dr. Julius Mastro?

19

A

20

I am familiar with your father, yes.

21

Q

22

and a great father.

23

I

Mr. Backenson, I did see you went to Drew University.

I

Unfortunately, I spent all my time in biology classes but

Well, God rest his soul.

He was a great, great professor

So, Mr. Backenson, just to clarify, you didn't speak

24

to the Governor about the executive order that's at issue in

25

this litigation, did you, sir?

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 72 of 127 PageID #: 814
Backenson - cross - Mastro

71

1

A

I did not.

2

Q

You didn't speak to the Executive Office about what that

3

particular executive order should say, did you, sir?

4

A

Before it was created?

5

Q

Yes.

6

A

I wasn't.

7

Q

So you were not consulted in any way on what that

8

executive order should say, the parameters that were defined;

9

you had nothing to do with that, correct?

10

A

I did not.

11

Q

You had nothing to do with what geographic areas

12

qualified as red zones, did you, sir?

13

A

I did not.

14

Q

Or orange zones or yellow zones for that matter, correct?

15

A

No, sir.

16

Q

And you had no role in defining how this executive order

17

restricted houses of worship in those zones, correct, sir?

18

A

Correct.

19

Q

And you said the, those decisions about which areas

20

qualified for which zones, they were made in the Governor's

21

office, correct?

22

A

To my knowledge.

23

Q

And, sir, who in the Governor's office, the Governor's

24

office specifically, is, in fact, an epidemiologist?

25

is any?

CMH

OCR

RMR

CRR

FCRR

Is there

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 73 of 127 PageID #: 815
Backenson - cross - Mastro

72

1

A

I do not know, sir.

2

Q

Who in the Governor's office is a doctor or a scientist

3

who specializes in infectious disease, do you know, sir?

4

A

I do not know, sir.

5

Q

Is it typical in your experience that -- strike that.

6

Strike that.

7

Are you aware that the Governor announced today that

8

the test results as of yesterday for red zones are down to

9

4.84 percent positivity?

Are you aware of that, sir?

10

A

I heard it earlier in this, here.

11

Q

But you said your job is tracking trends and rates,

12

right?

13

A

The role of our unit is, yes.

14

Q

So are you aware that the test results reported yesterday

15

for red zones are down to 4.84 percent positivity?

16

aware of that?

17

A

18

of the specific number for this specific region in, in -- I'm

19

unsure if the term you're talking about is for all the red

20

zones or just one in particular.

21

Q

Didn't you say that earlier?

I'm aware that the rates have lowered.

You're

I was not aware

Sir, I want to ask you a few questions.

22

You said this executive order, they put this

23

together in the Governor's office, right?

24

A

That is my, that's my, that is my understanding.

25

Q

Yes.

Thank you.

CMH

I want to ask you the following

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 74 of 127 PageID #: 816
Backenson - cross - Mastro
1

73

questions.

2

Are you aware that the Governor has said publicly

3

that his latest, that as to his latest executive order, "The

4

issue is with the ultra-Orthodox community"?

5

the Governor said that publicly, sir?

6

A

I am not.

7

Q

Do you agree with the Governor that "the issue is with

8

the ultra-Orthodox community"?

9

issue?

Are you aware

Sir, do you agree that's the

Yes or no.

10

A

The, the issue, I believe, is more so with a --

11

Q

Yes or no, sir.

Yes or no, please.

12

THE COURT:

13

MR. FARBER:

14

THE COURT:

15

We'll take your answer on that, please, sir.

I'll allow him to answer.
I'm going to object -- okay.
I'm going to allow him to answer.

16

A

No.

17

Q

Am I correct that the cluster that you're referring to in

18

these red zones is, as the Governor has said, predominantly an

19

ultra-Orthodox cluster"?

20

A

21

population.

22

Q

So you agree with that, correct?

23

A

These zones are --

These are areas that have a high population of Orthodox

24
25

Do you agree with that?

THE COURT:

I'm sorry.

You can finish your answer.

Go ahead.

CMH

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 75 of 127 PageID #: 817
Backenson - cross - Mastro

74

1

A

2

the Orthodox population.

3

Q

4

in these neighborhoods is an insular community?

These areas are areas that do have a high proportion of

And do you agree, sir, that the ultra-Orthodox community

5

MR. FARBER:

6

THE COURT:

Objection.
Sustained.

7

Q

8

these neighborhoods tends not to interact with its neighbors?

9

Do you agree, sir, that the ultra-Orthodox community in

MR. FARBER:

10

THE COURT:

Objection.
Sustained.

11

Q

12

that you do is contact tracing, right?

13

A

Correct.

14

Q

Have you attempted to do any contact -- contract -- have

15

you attempted to do any contact tracing work in connection

16

with these clusters in these red zones in Brooklyn?

17

A

18

jurisdiction of the New York City Health Department.

19

Q

20

Department has jurisdiction to enforce the government's

21

executive orders?

Sir, you said in your testimony that one of the things

I have not.

That's the jurisdiction, that's the

Am I correct, sir, that the New York State Health

22

MR. FARBER:

23

THE COURT:

24

MR. FARBER:

25

THE COURT:

CMH

Objection.
No, whether he knows.

If he knows.

Okay.
Do you know?

OCR

RMR

CRR

FCRR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 76 of 127 PageID #: 818
Backenson - cross - Mastro
1

THE WITNESS:

75

Yes.

2

A

Yes.

3

Q

Sir, do you know whether the Department of Health, the

4

State Department of Health has taken any steps to enforce the

5

Governor's executive order at issue here in relation to COVID

6

cluster in the ultra-Orthodox community in these Brooklyn red

7

zone neighborhoods?

8

has done that?

9

A

I do not.

10

Q

Now, sir, I want to also ask you the following.

11

Do you know whether the Health Department

You were here listening to the testimony of

12

Bishop Chappetto and Commissioner Esposito, correct?

13

A

Correct.

14

Q

And you heard Commissioner Esposito say that to his

15

knowledge, there have not been any outbreaks of COVID-19

16

stemming from any Catholic church or congregation in New York

17

City including Brooklyn or Queens.

18

Did you hear his testimony on that score, sir?

19

A

I did.

20

Q

And as far as you know, that's true and correct

21

testimony, right, sir?

22

A

23

jurisdiction of the New York City Department of Health.

24

may be ones that I am not privy to.

25

Clusters in, outbreaks in New York City are the

(Continued on the following page.)

CMH

OCR

RMR

CRR

FCRR

There

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 77 of 127 PageID #: 819
Backenson - cross - Mastro
1

CROSS EXAMINATION

2

BY MR. MASTRO:

3

Q

4

testimony; right, sir?

5

A

6

jurisdiction of the New York City Department of Health.

76

(Continuing.)

And as far as you know, that's true and correct

Clusters in -- outbreaks in New York City are the

7

There may be ones that I'm not privy to.

8

Q

9

to his knowledge there hasn't been any outbreak or spread of

Sir, a simple question.

Commissioner Esposito said that

10

COVID 19 in any of these catholic churches in Brooklyn or

11

Queens.

12

any spread or outbreak of COVID-19 in any of the diocese's

13

churches; correct?

14

A

15

specifically originating in a church in this particular

16

diocese, however, that is the jurisdiction of New York City

17

Department of Health for investigation.

18

Q

19

executive order; right, sir?

20

A

Correct.

21

Q

Now, sir, you mentioned the CDC --

22

As far as you know, he's correct, there hasn't been

To the best of my knowledge, there have been no outbreaks

But it's the State, the Governor who imposed this

MR. MASTRO:

Your Honor, I'm having such a good

23

time.

24

to help me make sure I get it plugged in and that's my wife.

25

Can I please have a very brief break so I make sure she plugs

I see my battery is running low and I need my experts

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 78 of 127 PageID #: 820
Backenson - cross - Mastro
1

in the batteries so I do not lose power here.

2
3

THE COURT:

All right.

MR. MASTRO:
appreciated.

Thank you, Your Honor, much

My technical skills are lacking.

6

THE COURT:

7

(Brief recess.)

8

MR. SHAPIRO:

9

THE COURT:

That's apparent.

Mr. Mastro just called me.

I'm sorry.

10

MR. SHAPIRO:

11

THE COURT:

12

Let's take a two-minute

break to plug in Mr. Mastro's battery.

4
5

He is trying to get back on.

I don't know what we are getting right

now.

13

MR. SHAPIRO:

Your Honor, Mr. Mastro called me and

14

his computer had died, so he is trying to get back on as

15

quickly as possible.

16

apologize.

17
18

THE COURT:

He said in a few more minutes, I

That's all right.

We will know when he

is back.

19

Everyone should remain muted except the speaker.

20

Is there any word from Mr. Mastro?

21

MR. SHAPIRO:

22

25

I'll try calling him again, Your

Honor.

23
24

77

THE COURT:
it?

Mr. Farber, you are still there, I take

Mr. Farber?
MR. SHAPIRO:

MDL

If there is a way for Mr. Mastro to

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 79 of 127 PageID #: 821
Backenson - cross - Mastro
1

continue the cross by phone, he would do that.

2
3

THE COURT:

MR. SHAPIRO:

I will be happy

Is there a number that he should use,

Mr. Reccoppa, for calling so that he can speak?

6
7

That would be fine.

take his cross by phone, but I'm also looking for Mr. Farber.

4
5

THE COURTROOM DEPUTY:
798200928.

571-353-2300.

MR. FARBER:

9

THE COURT:

10

MR. FARBER:

11

THE COURT:

Can you hear me?
Mr. Farber?
Yes, Your Honor.
I'm glad you are back.

12

waiting.

13

trouble with his computer.
MR. FARBER:

He has my sympathies.

15

THE COURT:

Yes, I understand that.

Thank you for

your patience, everyone.

17

MR. MASTRO:

Am I back?

18

THE COURT:

You are back.

19

MR. MASTRO:

21

We are still

Mr. Mastro is going to call in because he is having

14

20

Then he enters

That's the dial in number.

8

16

78

Please sit down.

My perfuse apologies to the witness

and, Your Honor.
THE COURT:

All right.

You have to promise me you

22

will have a heart-to-heart conversation with the IT department

23

at Gibson Dunn before you do another one of these.

24
25

MR. MASTRO:

I promise, Your Honor.

a Blackberry.

MDL

RPR

CRR

CSR

I'm still using

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 80 of 127 PageID #: 822
Backenson - cross - Mastro
1
2

THE COURT:

Some people say that's the way to go.

Okay.

3

MR. MASTRO:

4

THE COURT:

5

please.

Thank you, Your Honor.
Let's finish up with this witness,

Try to get it done.

6

MR. MASTRO:

I will, Your Honor.

7

much longer, Your Honor.

8

BY MR. MASTRO:

9

Q

THE COURT:

I hate to do this, but I see the sun

light coming through.

12

THE WITNESS:

13

THE COURT:

14

Wrong window.

I don't know if that's the sunlight or

someone up speaking to you, sir.

15
16

I don't have that

Sir, you were asked questions about CDC policies --

10
11

79

That's better.

Thank you very much, sir.

Go ahead,

Mr. Mastro.

17

MR. MASTRO:

Thank you.

Thank you, Your Honor.

18

Q

19

familiarity with the CDC's recommendations.

20

that testimony?

21

A

I do.

22

Q

And, sir, you know that the CDC recommends keeping,

23

quote, at least six feet away from other people, end quote, as

24

one of their recommendations in connection with COVID;

25

correct?

Sir, you were asked some questions earlier about your

MDL

RPR

CRR

CSR

Do you remember

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 81 of 127 PageID #: 823
Backenson - cross - Mastro

80

1

A

Correct.

2

Q

And the diocese's churches are doing just that; correct?

3

A

From their testimony, it appears that way.

4

Q

Thank you.

5

And you're aware that the CDC recommends that social

6

distancing, quote, is one of the best tools we have to avoid

7

being exposed to the virus and slowing its spread locally, end

8

quote?

9

A

Yes.

10

Q

And that's exactly what the diocese's churches are doing,

11

social distancing?

You are aware of that, sir?

12

MR. FARBER:

13

THE COURT:

Objection.
Sustained.

Let's move on.

It's been

14

asked and answered.

15

Q

16

guidance as to considerations in connection with communities

17

of faith?

18

A

Yes.

19

Q

And that's attached as Exhibit BB to the Blog

20

declaration; correct?

21

A

Yes.

22

Q

You are aware that the CDC expressly says that, quote,

23

its guidance is not intended to infringe upon rights protected

24

by the First Amendment to the U.S. Constitution; correct?

25

Sir, are you also aware that the CDC put out expressed

MR. FARBER:

MDL

Objection.

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 82 of 127 PageID #: 824
Backenson - cross - Mastro
1

THE COURT:

81

You may answer.

2

A

3

says.

4

Q

5

adopt any mitigation strategies that are more stringent than

6

the mitigation strategies as to similarly-situated entities or

7

activities, end quote, you are aware of that; correct?

8

A

That is what it says.

9

Q

Now, sir, I want to ask you about some of the other

I believe that is -- I believe that's what the guidance

And that, quote, No faith community should be asked to

Correct.

10

activities from the other businesses and services that are in

11

red and orange zones that aren't restricted in any way.

12

Mr. Farber asked you about what has been categorized

13

as essential businesses or services, and you said you were

14

familiar with those; correct, sir?

15

A

Correct.

16

Q

And I'm referring you specifically to Mastro declaration,

17

Exhibit 5, and from the State entitled "Guidance for

18

determining whether a business enterprise is subject to

19

workforce reduction under recent executive orders."

20

Sir, you'll see there on the first page it describe

21

essential businesses or entities; correct?

22

A

23

five?

24

Q

25

Exhibit No. 5.

I'm actually trying to find it.

Supplemental declaration

No, my first declaration, declaration of Randy Mastro,

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 83 of 127 PageID #: 825
Backenson - cross - Mastro

82

1

A

Okay.

2

Q

I'm referring you specifically, sir, to page 4, essential

3

retail.

4

I'm sorry.

Now, essential retail, that means even in the red

5

zones, they're not subject to any restrictions at all;

6

correct?

7

A

8

masking and social distancing is part of that.

9

subject to --

10

Q

They are.

They are subject to restrictions.

They are --

They are not

There is no --

11

THE COURT:

12

Go ahead, sir.

Do not over speak the witness.

13

A

They are not subject to -- to density restrictions, yes.

14

Q

So among those essential retail businesses are grocery

15

stores, including all food and beverage stores; correct, sir?

16

A

Correct.

17

Q

Does that mean liquor stores too, sir?

18

A

Liquor stores have been considered to be essential,

19

correct.

20

Q

21

Liquor stores.
How about convenience stores?

They're also

22

considered essential?

23

A

Correct.

24

Q

Hardware, appliance, and building material stores;

25

correct, sir?

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 84 of 127 PageID #: 826
Backenson - cross - Mastro

83

1

A

Correct.

2

Q

Pet food; correct?

3

A

Correct.

4

Q

Sir, you are aware that there is a Target store in one of

5

these red zones in Brooklyn; correct?

6

A

Correct.

7

Q

And that's an essential business?

8

other related items?

9

correct?

They sell food and

Target is an essential business;

10

A

Correct.

11

Q

And Target is a big box store, very large; correct?

12

A

Correct.

13

this particular one, but I know compared to other Targets,

14

yes.

15

Q

16

people shopping there on any given day, there's no capacity

17

restriction; correct?

18

A

Correct.

19

Q

Staples, Staples is a hardware store; right?

20

A

No.

21

Q

Staples also has hardware materials, appliances, things

22

like that.

23

correct?

24

A

25

trying to remember if the Staples by me was closed during the

I'm not familiar with the square footage of

So that Target store can literally have hundreds of

Staples is a stationery store.

Staples would be considered an essential business;

To be honest, I believe it would.

MDL

RPR

CRR

But to be honest, I'm

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 85 of 127 PageID #: 827
Backenson - cross - Mastro

84

1

unessential business period.

2

Q

3

Staples in one of these Brooklyn red zone neighborhood is open

4

today for business; right?

5

A

I would not.

6

Q

And operating without any capacity restriction; correct?

So, sir, you wouldn't be surprised to learn that the

7

MR. FARBER:

8

THE COURT:

I'm going to object to this line.
Overruled.

You may continue.

9

A

Correct.

10

Q

Staples is a big box store with hundreds of customers at

11

a time; correct?

12

A

Correct.

13

Q

Now, sir, I want to ask you, flip to the next page,

14

because it describes financial institutions as essential, and

15

listed there are banks, insurance, payroll, accounting, even

16

services related to financial markets, like your broker,

17

right?

18

A

Correct.

19

Q

And they've stayed open; correct?

20

capacity?

21

A

Correct.

22

Q

And there you have staff working in close quarters,

23

sometimes even confined spaces, members of the public going

24

there for those services in confined spaces; correct?

25

A

They are considered essential businesses?

No restriction on

Depending on the institution.

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 86 of 127 PageID #: 828
Backenson - cross - Mastro

85

1

Q

Correct, right?

2

A

Correct.

3

Q

Now, sir, once again I am going to ask you about

4

something the Governor said.

5

executive order restricting services in all houses of worship

6

in these red and orange zones is, quote, Not a highly nuanced,

7

sophisticated response, end quote?

8

A

So -- I'm sorry, can you repeat the question.

9

Q

Sure.

Would you agree that this

Do you agree with that?

Do you agree with the statement that the

10

Governor's executive order restricting services of all houses

11

of worships in certain geographic zones is, quote, Not a

12

highly nuanced, sophisticated response, end quote?

13

A

14

quote is?

15

Q

16

2020.

17

A

Okay.

18

Q

Pardon?

19

A

Was there an objection made or something like that?

20

sorry?

I'm sorry, do I -- do I need to know who the -- who the

It's a quota attributed to the Governor on October 6,

21
22

25

Please, go ahead.

THE COURT:
objection.

23
24

I would argue that -- I'm sorry.

I'm

You can't ask your lawyer to make an

That's not.
THE WITNESS:

I wasn't sure.

I just heard cross

talking.
THE COURT:

MDL

Just answer the question, if you can.

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 87 of 127 PageID #: 829
Backenson - cross - Mastro
1

86

That's all.

2

THE WITNESS:

I just heard cross talk.

I wasn't

3

sure.

4

A

5

been a targeted approach to -- to areas that have had high

6

incidence rates.

7

to be temporary.

8

Q

9

Governor that this is not a policy being written by a scalpel,

So I think I would disagree.

I mean, I think this has

It is intended to be targeted and intended

Would you agree with the statement attributed to the

10

this is a policy being cut by a hatchet, end quote?

11

agree with that?

12

A

I would not.

13

Q

Would you agree with the statement attributed to the

14

Governor that if we can get the numbers down in the zip codes,

15

the anxiety comes down and we can have a smarter, more

16

tailored approach"?

17

A

18

Would you

Do you agree with that?

There's a lot to unpack there.
In general, I mean, I think the goal here is to

19

reduce the rates, the incidence rates, the percent positive

20

test rates in the zones that have been identified so that we

21

can remain open.

22

The point here is I think that this is a targeted

23

temporary action that is being put into place in order to try

24

and prevent spread before this -- before the infection kind of

25

takes hold again in certain areas of the state.

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 88 of 127 PageID #: 830
Backenson - cross - Mastro
1

Q

87

And, sir, it's your testimony that -- strike that.

2

You would agree that what the diocese has done

3

voluntarily, limiting its church masses to 25 percent of

4

capacity, wearing masks, social distancing at least six feet

5

apart, having extra precautions taken around the holy

6

communion, extra steps taken about entering and exiting to

7

promote social distancing during -- before and after the mass,

8

you would agree that all of those things are things that those

9

catholic churches should be doing; correct?

10

A

Correct.

11

Q

You would also agree, would you not, that the offer, in

12

the context of this preliminary injunction application, to not

13

have congregations singing and to make sure that the cantor is

14

always 12 feet away from anyone else, that that also is

15

something that promotes safety in the catholic churches;

16

correct?

17

A

Eliminating risky behaviors always helps, correct.

18

Q

And, again, you personally are not aware of any evidence

19

of any spread of COVID in any of the catholic churches in this

20

diocese; correct, sir?

21

A

In this diocese, in catholic churches, correct.

22

Q

And would it be fair to say based on the things that this

23

diocese has been doing in its churches and has offered to do

24

going forward, that its doing all the right things to prevent

25

the spread of COVID in its churches?

MDL

RPR

CRR

Would that be fair to

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 89 of 127 PageID #: 831
Backenson - cross - Mastro

88

1

say?

2

A

3

among congregants who come to the churches, yes.

4

Q

5

incidents of COVID; correct?

6

A

7

outbreak, but it certainly does not mean that there may not be

8

people who have tested positive.

9

Q

I think they are doing things to try to prevent spread

And they're succeeding, for the past three months, no

I don't know of no incidents of COVID.

We know of no

Since there has been no outbreak or spread, even if there

10

had been a congregant who tested positive that necessarily

11

means that the measures that have been taken protected the

12

rest of the congregation from outbreak or spread; correct,

13

sir?

14

MR. FARBER:

15

THE COURT:

16

MR. MASTRO:

17

I'm going to object.
Sustained.
Your Honor, I don't have any further

questions of this witness at this time.

18

THE COURT:

19

MR. FARBER:

20

THE COURT:

21

MR. FARBER:

22

THE COURT:

23

MR. FARBER:

24

I forgot where I am.

25

THE COURT:

MDL

Thank you.

Mr. Farber, anything else from you?
I have a brief recross, Your Honor.
Please go forward.
Thank you, Your Honor.
I'm sorry.
Yes.

That's a redirect, right?

Redirect.

I'm sorry, Your Honor.

Okay, go ahead.

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 90 of 127 PageID #: 832
Backenson - redirect - Farber
1

MR. FARBER:

A few redirect questions.

89
My

2

apologies.

3

REDIRECT EXAMINATION

4

BY MR. FARBER:

5

Q

6

for you a number of measures taken by churches in the diocese,

7

social distancing, masking, reduced singing, changes to the

8

service.

Mr. Backenson, Mr. Mastro just asked you -- he described

9

In the context of an area undergoing an increase in

10

COVID cases, are the measures Mr. Mastro described sufficient

11

in your view as an epidemiologist?

12

A

The measures described are the measures -- I'm sorry.

13

MR. MASTRO:

14

THE COURT:

Your Honor, I object.
He may answer.

15

A

16

recommended to churches throughout New York State and many, if

17

not all churches, are -- many of them are implementing them.

The measures described are measures that have been

18

Having -- in an area of increased risk, the same --

19

you know, additional measures may be needed in order to try to

20

minimize spread from the community, throughout the community.

21

Q

22

stores.

23

Okay.

Now, Mr. Mastro asked you about a variety of

He has Target, Staples, and some other ones in there.
As an epidemiological matter, are those situations

24

the same as a church service in your view?

25

A

In many cases --

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 91 of 127 PageID #: 833
Backenson - redirect - Farber
1
2

MR. MASTRO:

Objection, Your Honor.

90
Objection this

is not even --

3

THE COURT:

Overruled.

You can ask on recross.

Go

4

ahead.

5

A

6

establishments are often go in, pick something up, leave.

7

Being in, you know, one of these establishments for a very

8

short period of time, oftentimes with -- where people are not

9

doing things like, you know, talking, singing, chanting,

In many instances, they may not be.

10

things of that nature.

11

different.

12
13

THE COURT:

The retail

So in some ways they are very

Sir, have you ever been in a Trader

Joe's?

14

THE WITNESS:

15

THE COURT:

16

THE WITNESS:

I have.
Go ahead.
Right.

I can't -- I will not say that

17

all of them will be.

18

is certainly different than going into, you know, my local

19

Staples or my local hardware store.

20

definitely -- the Trader Joe's where I live still has a line

21

around the block because they are restricting entry and

22

limiting the number of people that are inside at any given

23

time.

24
25

THE COURT:

But, you know, going in a Trader Joe's

You know, they're

But for Trader Joe's the State isn't

doing an inspection as to the circulation of air in the Trader

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 92 of 127 PageID #: 834
Backenson - redirect - Farber

91

1

Joe's, with lots of people coming and going even if there is a

2

certain restriction of the number, there is not a restriction

3

on how long they can stay inside and how many aisles they can

4

go in, and so forth.

5

that's not about a big supermarket -- will have a certain

6

amount of activity over a long period of time by any given

7

individual and there are the epidemiological issues having to

8

do with the circulation of air and the circulation of people,

9

and there's no regulation of that in the state, right?

10
11
12
13
14

The Trader Joe's, for instance -- and

THE WITNESS:
essential business.

Correct, because it's been deemed an

Risk and -- I'm sorry?

THE COURT:

Right.

And so you enter one of these

facilities at your own risk, basically?
THE WITNESS:

Correct.

And risk is typically a

15

function of distance and time.

16

distance to somebody who is positive to be able to be exposed

17

to that air and/or how long you are exposed to that particular

18

individual as well.

19

particular case.

20

THE COURT:

So it's a function of your

It's how we define contact through a

Does the State have any rules regarding

21

providing early shopping for senior citizens in some of these

22

more crowded venues that are not subject to other rules?

23

other words, from just to 7:00 a.m., if you are a senior

24

citizen, you can go in and do your shopping to the exclusion

25

of other people so that you maintain social distancing and

MDL

RPR

CRR

CSR

In

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 93 of 127 PageID #: 835
Backenson - redirect - Farber
1

limit the number of people in the facility, does the State

2

have rules about that?

3

THE WITNESS:

92

To the best of my knowledge that is

4

something that is voluntarily being implemented by stores

5

themselves as opposed to there being a specific suggestion or

6

regulation from the State.

7

And the other thing, with grocery stores it's -- my

8

particular grocery store that I go to, for example, has all

9

sorts of arrows on the ground and they say that put it in a

10

layout of how people are supposed to flow through the store,

11

but they clearly do not.

12

being done in order to try, you know, prevent spread may not

13

necessarily be followed by their customers no matter what the

14

business or industry may be.

15

THE COURT:

So sometimes what businesses say is

These are steps that are implemented by

16

the store voluntarily to help maintain social distancing, but

17

it's not something that the State has mandated?

18

THE WITNESS:

There definitely are suggestions that

19

are put in in terms of the right way in terms of people flow,

20

and so forth.

21

mandate, enforcement of any of that.

But it's not -- I don't think there's a

22

THE COURT:

23

Do you have more, Mr. Farber?

24

MR. FARBER:

25

THE COURT:

MDL

All right.

Thank you.

Very brief, Your Honor.
Go ahead.

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 94 of 127 PageID #: 836
Backenson - redirect - Farber

93

1

BY MR. FARBER:

2

Q

3

prior infections at the churches in the diocese.

4

this concerned the three or four months prior to the discovery

5

of the COVID clusters.

6

A

7

most recent clusters of the zones, is that what you're getting

8

at?

9

Q

Mr. Mastro asked you about alleged prior outbreaks or

I believe so.

Yes.

I believe

Are you aware of that?

I think the -- the identification of the

When was the most recent timing of the most recent

10

clusters?

11

A

I'm sorry.

I'm not understanding your question.

12

Q

I'm sorry.

My fault.

13

Do you recall when the clusters that resulted in the

14

cluster initiative were identified?

15

A

16

believe it's seven days of data.

17

increasing rate -- of increasing incidents and rates of

18

positive test results.

19

Q

20

discovered?

21

A

September.

22

Q

What were the State's overall positivity rates in the

23

three months before that, in June, July, August?

24

A

25

.6 or .7 percent.

Yeah.

These were based on rolling averages of -- I
So, seven previous days of

Do you recall in what month these clusters were

Approximately one percent.

MDL

RPR

On some days it was as low as

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 95 of 127 PageID #: 837
Backenson - redirect - Farber

94

1

Q

2

would not be particularly surprising to you if a number of

3

churches or a great number of churches did not report

4

outbreaks of COVID-19?

5

A

6

in the community at that point in time as well.

7

Q

8

outbreaks relevant with respect to a situation where clusters

9

do develop in these given areas?

So, in fact, it would be -- so during that period, it

Correct.

It seemed that there was less virus circulating

And, in fact, is the fact that there were no prior

10

A

11

outbreak or a cluster if there's less virus circulating in the

12

community.

13

Q

14

community, there is more likelihood of an outbreak?

15

fair to say?

16

A

Correct.

17

Q

Okay.

18

orange, yellow, do, to the best of your knowledge, reflect

19

data points showing higher incidents of COVID-19; is that

20

correct?

It is more difficult to -- it's less likely to have an

So in your view, if there's more virus circulating in the

21
22

Is that

And as far as you know, the areas designated red,

MR. MASTRO:

Objection to form.

Leading his own

witness.

23

THE COURT:

You may answer.

24

A

25

geographic distribution of higher incidence rates.

From the data I've seen, the clusters reflect the

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 96 of 127 PageID #: 838
Backenson - redirect - Farber
1
2

THE COURT:

95

Have you ever heard of micro clusters,

sir?

3

THE WITNESS:

4

THE COURT:

Sure.
Now, apparently, the Governor takes the

5

position that the orthodox community is not following red zone

6

rules, and that, for the most part, they never followed

7

general rules, even though the orthodox community is trying to

8

be cooperative according to the Governor.

9
10
11

Is that your understanding of what's going on in the
orthodox community?
THE WITNESS:

I've had experience with the orthodox

12

community in the past and they can be a very difficult

13

community to deal with.

14

trying to prevent, you know -- if there is illness circulating

15

in a portion of a community, I think our concern is trying to

16

prevent it from spreading into other areas of the community.

17

THE COURT:

18

THE WITNESS:

I think our main concern here is

I see.
We've seen this in other parts of the

19

State where we have had, you know -- I'm working on outbreaks

20

now in the southern tier of New York where we had clusters

21

associated one with a church, one with a bar and that have

22

basically led to broad non-cluster community outbreaks across

23

the entirety of three counties.

24

prevent here.

25

that are all connected to one another to turning into a large

That's what we're trying to

We're trying to prevent a small group of people

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 97 of 127 PageID #: 839
Backenson - redirect - Farber

96

1

group of people that may be not as connected with one another.

2

That's where the virus sort of gets a foothold in a particular

3

area and it's sort of difficult to sort of squash it back out

4

again.

5

I'm a little concerned that that has happened in

6

some cases in parts of the southern tier already, and part of

7

these rules are to try and see if there is a way to minimize

8

that here in portions of New York State.

9

THE COURT:

I see.

Well, take these numbers and

10

tell me what you think, according to the information that I

11

have from the Governor's press conference today, as I

12

mentioned earlier, it is recorded that 4.84 percent positivity

13

rate in the red zone overall, .99 outside the red zone, and an

14

overall aggregate of 1.09 percent, if that's the case, would

15

you be recommending an adjustment of the limitation based upon

16

what appear to be a reduction from eight percent of positivity

17

in the red zone?

18

or might recommend to your superiors to recommend to the

19

Governor?

20

Is this something that you would recommend

THE WITNESS:

I think -- so hearing that data, it

21

makes me think that some of -- since this has gone on for

22

approximately 10 days or so now, it makes me think that some

23

of the targeted steps in red zones areas may be having an

24

impact and that the steps that were taken to reduce density,

25

to try and keep people from being in as much contact with one

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 98 of 127 PageID #: 840
Backenson - redirect - Farber

97

1

another as they were maybe 15 days ago is supposed to

2

potentially having an impact.

3

It does show that there still remains a problem in

4

this particular area.

5

particular area and see that, you know, roughly one percent

6

rate that we've seen pretty consistently for the past several

7

months, what we would like is we would like this community to

8

go back to that one percent rate that we're seeing in areas

9

sort of outside the red zone.

10

The fact that we can look outside this

So I think the goal of all this was to try to have

11

it be something targeted so that it disrupted the least amount

12

of people but large enough so that you can actually make an

13

important impact to try and reduce that incidence rate.

14

THE COURT:

I had one other question.

You said at

15

the beginning of your testimony that the first time you

16

learned about -- I didn't write it down, but let me ask you

17

about it.

18

learned about someone who was positive for COVID had come from

19

China to New York; is that right?

20

THE WITNESS:

You said something about the first time that you

That was in January?

Yeah, what happens is we have a system

21

in place where physicians can call us any time day or night if

22

they suspect an urgent emerging disease, I'm at the top of

23

that list to get those phone calls.

24

January 22nd, and I got five of them that night because that

25

was Washington State had reported their first positive case

MDL

RPR

CRR

The first call I got was

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 99 of 127 PageID #: 841
Backenson - redirect - Farber
1

98

that day.

2

So we obviously had a number of physicians seeing

3

people from China in emergency rooms in New York State making

4

phone calls and saying hey, might this be that particular

5

disease, how can I get a person tested.

6

referring to.

So that's what I am

7

The first real case that we wound up seeing in New

8

York, I think as we all know, was just about March -- it was

9

like February 29, March 1 or so.

10
11

THE COURT:

Was there any contact tracing to

indicate where that person had come from?

12

THE WITNESS:

So the very first case that we saw in

13

New York State was somebody from New York City who had

14

traveled to -- I want to say it was Iran.

15

case, which was the one in New Rochelle, which led to the

16

much, much larger outbreak, there was a lot of contact tracing

17

there.

18

in association with what appeared to be a religious

19

celebration, you know, there were people who were not part of

20

the community but were there doing things like catering, so

21

forth and so on, all tested positive.

22

But the second

We know that was a superspreader event that happened

THE COURT:

But the contact tracing didn't indicate

23

where that originated, whether it was Iran or China, or

24

somewhere else?

25

THE WITNESS:

MDL

Correct.

RPR

Right.

At that point in

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 100 of 127 PageID #:
842
Backenson - redirect - Farber
1

time I don't know -- I'm sorry?

2

THE COURT:

3

THE WITNESS:

99

Go ahead.
So I don't believe that there --

4

sometimes it feels like forever ago at this point.

5

recall that we have been able to, you know, identify where

6

that very first case in New Rochelle -- you know -- what their

7

link was or how they were exposed.

8
9
10
11

THE COURT:

So I don't

And when was the time that you had a

case that was reported to you that originated in Europe, if
you remember?
THE WITNESS:

Oh, boy.

I can't tell you that it

12

would be the very first one, but I definitely remember a

13

person from Ulster County who had recently returned to the

14

United States.

15

the wrong way to say it.

16

spending two weeks in France.

17

before that, but that was -- that's the first recollection I

18

have of one that I personally worked on with the individual.

We found him -- we didn't find him.

He presented symptomatic after
I'm sure there were others

19

THE COURT:

20

Anything else, Mr. Farber?

21

MR. FARBER:

22

THE COURT:

23
24
25

That's

Thank you very much.

Not from me, Your Honor.
Okay.

Thank you.

I hate to ask, Mr. Mastro, do you

have anything else?
MR. MASTRO:

Well, if Your Honor would indulge me

for just a few minutes, I promise to be very brief.

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 101 of 127 PageID #:
843
Backenson - cross - Mastro
1

THE COURT:

2

MR. MASTRO:

100

Go ahead.
Thank you.

3

RECROSS-EXAMINATION

4

BY MR. MASTRO:

5

Q

6

within the ultra orthodox community in Brooklyn; correct?

7

A

That's been well reported, yes.

8

Q

But you are not aware of any evidence of the spread of

9

COVID from the ultra orthodox community to the diocese's

Sir, am I correct that you are aware of spread of COVID

10

churches in Brooklyn and Queens; correct?

11

A

12

done by the New York City Health Department, so I don't know

13

if there are New York City residents who may go to these

14

churches who may have, you know, worked with someone in the

15

orthodox community or something like that, so I can't answer

16

that.

17

Q

18

of spread of COVID from the ultra orthodox community to the

19

diocese's churches in Brooklyn; correct?

I am not privy to the contact tracing that's been being

Sir, a simple question:

20

MR. FARBER:

21

THE COURT:

You're not aware of any evidence

Objection.
He may answer.

Go ahead.

22

A

I'm not aware, but it doesn't mean it doesn't exist.

23

Q

Now, sir, you said -- you talked about some important

24

factors in connection with enterprises, businesses, essential

25

businesses that are allowed to stay open without any capacity

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 102 of 127 PageID #:
844
Backenson - cross - Mastro

101

1

restriction.

2

a store.

3

A

I do.

4

Q

And I respectfully suggest to you that in forming the

5

question, but my wife is going to be part of these

6

proceedings, that there are people who go to Target and spend

7

hours, they shop, they clothes shop, they food shop, they do

8

all sorts of stuff at Target, and they spend hours?

9

You talked about the time that someone spends in

Do you remember that, sir?
Yes.

MR. FARBER:

10

THE COURT:

Objection.
I'm sorry, the Court will take judicial

11

notice of the fact that people who go shopping at big box

12

stores sometimes browse through the store for a long period of

13

time.

14

don't even buy anything.

15

Q

16

limited the time of the mass so that parishioners spend less

17

time in the churches.

18

A

From earlier testimony.

19

Q

And you talked about your concern about singing and

20

chanting.

21

eliminate choirs and parishioners singing and having the

22

cantor removed at least 12 feet from anyone else in the

23

cathedral?

24

A

25

catholic as well.

It's a form of recreation for some people and sometimes
So let's move on.

Sir, the catholic churches and the dioceses have actually

You are aware of that; right?

Are you aware that the diocese is prepared to

You heard that testimony; right, sir?

I heard that about singing.

I was born and raised a

I mean, I know that there are many times in

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 103 of 127 PageID #:
845
Backenson - cross - Mastro

102

1

the mass where the -- where parishioners are reciting prayers

2

out loud.

3

Q

4

according to the testimony you heard earlier; correct, sir?

5

A

Correct.

6

Q

You talked about arrows on the ground at certain of these

7

big box stores.

8

that to make sure of social distancing, sitting every other

9

row, and sitting at least six feet apart in a row, and arrows

I don't know if that has been changed or not.

And then they have been limiting the time in church,

You know that the catholic church is doing

10

on the ground?

11

A

I did.

12

Q

And, sir, isn't it the case that you know in the catholic

13

churches they are rigorously enforcing the mask requirement

14

and social distancing?

15

people have to leave if they don't?

16

testimony; correct?

17

A

I did hear that testimony.

18

Q

Now, sir, you talked about how long somebody is in a

19

place.

20

accounting firms and the brokers, the employees in confined

21

spaces are going to work 8:00, 9:00 in the morning until 5

22

o'clock in the afternoon, and customers are coming out and

23

into their offices in that confined space over the course of

24

that eight-or nine-hour day; isn't that right, sir?

25

A

You heard that testimony earlier; right, sir?

And you heard the testimony that
And you heard that

Well, all of those businesses, likes the banks and the

It is.

I mean, to the -- you know -- I'm sure there are

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 104 of 127 PageID #:
846
Backenson - cross - Mastro

103

1

some working virtually.

2

the office working full shifts.

3

Q

4

places; right?

5

A

Correct.

6

Q

And they are essential services; right?

7

A

Correct.

8

Q

Are you aware any COVID spike or outbreak in any house of

9

worship in a red zone in Brooklyn besides the ultra orthodox

I'm sure there are some who may be in

And there is no restriction on capacity in any of those

10

community, yes or no?

11

A

12

New York City may have additional information.

I'm not aware of any at this particular point in time.

13
14

MR. MASTRO:

Thank you.

I have no further

questions, Your Honor.

15

THE COURT:

Anything else from you, Mr. Farber?

16

MR. FARBER:

I'm sorry, I'm getting some weird

17

sound.

No, Your Honor, nothing further from me.

18
19

THE COURT:
you very much.

All right.

Mr. Backenson, thank

You are excused.

20

THE WITNESS:

21

THE COURT:

22

Okay.

Thank you.
Does the defense have any other

witnesses?

23

MR. FARBER:

I do not at this time, Your Honor.

24

Your Honor has asked for a declaration to be filed by tomorrow

25

morning.

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 105 of 127 PageID #:
847
Backenson - cross - Mastro

104

1

THE COURT:

2

I don't want to take comments that are attributed to

Yes, please.

3

the Governor at a press conference as accurate and without

4

some further delineation in a declaration and I would not want

5

to rely on it without clarification.

6

for a declaration as to current state of the positivity rate

7

in the red zone and in the yellow zones.

8

that we're just trying to be careful not to assume or conclude

9

anything that may not be current evidence.

10

MR. FARBER:

11

THE COURT:

That is why I have asked

So you understand

Yes, Your Honor.
Now, the next step, Mr. Mastro has asked

12

to make a brief closing, and I'm really not sure whether Mr.

13

Mastro wants to do that or make a submission between now and

14

tomorrow morning, but I'm happy to take your comments now.

15

We've had a substantial amount of written

16

submissions and some of these issues depend on the state of

17

the law at the present time.

18

Let me just say this, it's not clear to me what the

19

state of the law will be this month because it is all subject

20

to consideration by the appellate courts, consideration by the

21

appellate courts as to whether a situation like the

22

plaintiff's situation is subject to strict scrutiny analysis.

23

And at present, it would seem that the Supreme Court has

24

basically indicated in South Bay by a five to four vote that

25

that a strict scrutiny should not be applied to a free

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 106 of 127 PageID #:
848
Backenson - cross - Mastro

105

1

exercise claim here.

2

if this case -- whatever I decide -- goes up to the Second

3

Circuit, and potentially some case goes to the Supreme Court

4

in the next month or two.

5

whatever I do is going to be the subject of appellate review

6

and the rules may change depending on the composition of a

7

panel on the Circuit Court or the composition of the Supreme

8

Court.

9

But I don't know what will be the case

So I'm just a little concerned that

So, Mr. Mastro, I would want to hear from you

10

whatever you have to say now briefly.

11

the State that if the circumstances have improved, I would ask

12

to know whether the State is planning to revise the parameters

13

of the limitations that it has placed on religious worship in

14

the zones, the red, the orange, and yellow zones.

15

like to know that as well from the State.

16

position is it's going to continue with those restrictions,

17

you can put that in your declaration tomorrow morning as well,

18

so at least we know where we are as of now.

19

But I would also say to

I would

If the State's

The defense witness indicated that the current rules

20

for these hot zones, if you will, were predicated on what

21

happened last month.

22

improved, but whether it has improved sufficiently to permit a

23

revision of the rules is something that I would like the State

24

to opine on between now and tomorrow morning.

25

Do you understand that, Mr. Farber?

MDL

It appears that the situation has

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 107 of 127 PageID #:
849
Backenson - cross - Mastro
1

Mr. Farber?

2

THE COURTROOM DEPUTY:

3

THE COURT:

4

THE COURTROOM DEPUTY:

5

THE COURT:

10
11

We lost him, Judge.

When did we lose him?
We lost him a couple of

At what point in my statement and to the

parties did we lose him?

8
9

Mr. Farber?

minutes ago.

6
7

106

THE COURTROOM DEPUTY:
Judge.

It was right at the end,

I saw him.
THE COURT:

Let's wait for him to come back and then

I will repeat the request.

12
13

(Pause in proceedings.)

14

(Continued on the following page.)

15
16
17
18
19
20
21
22
23
24
25

MDL

RPR

CRR

CSR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 108 of 127 PageID #:
850
Proceedings
1

(Continuing)

2

MR. FARBER:

3

THE COURT:

4

MR. FARBER:

5
6

107

muted.

Your Honor?
Yes, Mr. Farber, how are you?
I apologize.

For some reason, I am

I still hear the Court but the Court doesn't hear me.
THE COURT:

Did you hear my request regarding any

7

changes that might be under consideration for the rules

8

regarding these three zones?

9
10
11
12

MR. FARBER:

I did, your Honor, and we will include

that in our submission.
THE COURT:

All right.

Could you give me that by

10 a.m. tomorrow morning?

13

MR. FARBER:

14

THE COURT:

10 a.m.
10 a.m. would be fine.

And, of course,

15

upon receiving that, the Plaintiff can make a submission, a

16

brief submission, if it wishes, by 1 p.m. tomorrow.

17

I'm sorry, I didn't hear you, Mr. Mastro.

18

THE COURTROOM DEPUTY:

19

THE COURT:

20

(Pause in proceedings.)

21

MR. MASTRO:

22

THE COURT:

23

MR. MASTRO:

You're on mute.

I'm reading lips.

I think he said yes.

Can you hear me now, your Honor?
Yes, indeed, sir.
Thank you so much.

Thank you, your

24

Honor, we appreciate that opportunity to comment on what the

25

State submits.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 109 of 127 PageID #:
851
Proceedings
1
2

I will be really brief now, but I really wanted to
address two points your Honor made.

3

THE COURT:

4

MR. MASTRO:

5
6

108

Please.

Go ahead.

First, your Honor's observation about

South Bay.
Respectfully, I don't think South Bay affects the

7

issues that exist at this time at all.

8

into the period where states have gone through litigation

9

measures and the like.

We are seven months

South Bay concerned an issue of an

10

extraordinary writ of injunction.

11

Court grants sparingly and only in the most critical and

12

exigent circumstances when rights are indisputably clear.

13

That's what the Supreme

And it was at the beginning of the pandemic, a

14

five-to-four decision, and Justice Roberts explained some of

15

the rationale of his concurrence.

16

how the Court would break down on these issues today with a

17

track record in place.

18

you have to base these decisions when you're infringing upon

19

religious rights on the circumstances as they exist and

20

subsequently develop.

21

But I don't have any idea

In fact, many courts have said that

Early on in the pandemic, the Court was not willing

22

to take up an extraordinary writ of injunction, which is

23

something the Court only does when a TRO has been denied and

24

it's trying to decide whether it's so exigent a circumstance

25

that it should under those circumstances and the Court simply

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 110 of 127 PageID #:
852
Proceedings
1

does not do it absent clear error.

2

mandamus situation.

3

to four ruled the way it did.

4

109

It's almost like a

Early on in the pandemic, the Court five

But that case and subsequent cases, including the

5

Elrod case in the Seventh Circuit, said circumstances change

6

over time.

7

of the pandemic isn't necessarily what a Court should do

8

today, religious infringement, particularly in a case like

9

this.

10

So, what a Court is willing to do at the beginning

I refer your Honor specifically to the Sixth

11

Circuit's decision in Roberts v. Neace, in which they ruled on

12

more of a record.

13

take periodic naps during a pandemic, Courts will not let it

14

sleep through one."

15

They ruled that, quote, "While the law may

And they ruled that the Baptist church there could

16

reopen; with social distancing and mitigation measures, should

17

be allowed to reopen and that its First Amendment free

18

expression rights were being violated.

19

The Soos case in the Northern District of New York

20

as well supports this motion.

21

finding strict scrutiny applies in those cases.

22

recently the Capitol Hill Baptist case, decided just last week

23

by a District Court in D.C., found strict scrutiny applied and

24

that that Baptist church should be allowed to reopen by

25

implementing the social distancing measures.

LAM

And most recently -- their

OCR

RPR

And most

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 111 of 127 PageID #:
853
Proceedings
1

110

I respectfully submit to your Honor this testimony

2

today has been elucidating because whether you apply strict

3

scrutiny or rational basis, there is no rational basis for

4

restricting the religious exercise of the Catholic churches in

5

the Diocese as this record is bereft of any evidence, any

6

evidence, that there has been any spread, surge, outbreak of

7

COVID in any of the Catholic churches in the Diocese.

8
9

The only evidence is of spread and outbreak in a
certain community, the ultra-Orthodox Jewish community, and

10

there's no evidence of any spread beyond that community into

11

the Catholic churches.

12

plus months and includes September and early October, before

13

the Governor imposed this order.

And that's a track record over three

14

Your Honor, whether you're applying strict scrutiny

15

or rational basis, what is the rational basis for restricting

16

the Catholic churches who have done everything right and had

17

no outbreak and had no surge in COVID from their free

18

exercise?

19

They have been doing everything right.

And even the

20

State's witness said that all the things they're doing are the

21

right things for them to do and candidly admitted he and the

22

State is not aware of any evidence, any evidence, of spread

23

into any of the Catholic churches.

24
25

And your Honor, what is the height of irrationality?
The health department didn't write this executive order.

LAM

OCR

RPR

The

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 112 of 127 PageID #:
854
Proceedings

111

1

health department didn't decide the cutoffs.

2

department didn't decide the hatchet that was put to all

3

houses of worship.

4

where there isn't any epidemiologist, scientist, or M.D.

5

involved in the drafting.

6

The health

It was done in the Governor's office,

That's the height of irrationality.

First Amendment requires more, your Honor.

It

7

requires strict scrutiny.

8

that that's an open question, I respectfully submit there's no

9

rational basis for this.

10

And even if your Honor were to find

The Governor's own admissions about the origins of

11

things, who is responsible, and how he approached the problem,

12

writing the executive order himself, no epidemiologist, he

13

took a blunt instrument when you're not allowed to do such a

14

blunderbuss approach when it comes to restricting religious

15

exercise.

16

So, I respectfully submit the hearing has

17

established the record that Judge Komitee said we should have

18

at a preliminary injunction.

19

record.

20

has no evidence to support the restrictions on the Catholic

21

Church.

22

Catholic Church is doing everything right and hasn't had any

23

outbreak of COVID in these red and orange zones.

24
25

We have more fully developed the

We have heard from the State's witness.

The State

We've heard admissions that it's conceded the

And we have heard the words of the Governor himself.
There's nothing tailored about this.

LAM

OCR

This is a problem in one

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 113 of 127 PageID #:
855
Proceedings

112

1

community and he's sweeping too broad a brush.

2

heard the Governor in quite graphic terms basically admit a

3

First Amendment violation.

4

And we have

So, I respectfully submit, your Honor, and I'll

5

close with this, I know the Attorney General answers to the

6

Governor, and I'm answering to a higher authority.

7

referring to you, your Honor, and referring to a higher

8

religious authority.

9

And I am

I am reminded of the immortal words of John Belushi

10

in the Blues Brothers movie, "We're on a mission from God."

11

These people, these Catholics in the Diocese, have done

12

everything right.

The City admits that they've done

13

everything right.

And the State admits they have had no COVID

14

outbreaks or spread.

15

under such circumstances under the First Amendment.

16

They simply cannot sweep so broadly

And even if your Honor thought it was a close

17

question on whether ultimately strict scrutiny were likely to

18

succeed or we met and we have stated a substantial question, I

19

respectfully submit to you that irreparable harm is presumed

20

for the constitutional law, the Elrod case, on whether you are

21

infringing on religious freedoms.

22

And on balance of equities, I respectfully submit to

23

you my clients, the Diocese, supported by the Archdiocese and

24

these Catholic churches and parishioners, your Honor, this is

25

vital to their life, their spirit, their soul, to be able to

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 114 of 127 PageID #:
856
Proceedings
1

113

go to Mass.

2

And the government doesn't have an interest in doing

3

something that's unconstitutional.

4

to infringe on religious liberties, it better have a

5

compelling interest and evidence to show that anything that is

6

happening in those Catholic churches needs to be addressed

7

because of that compelling interest.

And when it does something

8

I respectfully submit this hearing established

9

beyond question that the State cannot possibly meet that

10

burden.

11

preliminary injunction, our burden, the balance of equities is

12

decidedly in our favor.

And it is ultimately the State's burden.

13

I will end with this:

But on a

The Bishop -- I know the

14

Governor cares about people, but nobody cares more about the

15

safety of his parishioners in his Diocese than this bishop and

16

the bishop who testified here today.

17

everything to protect their parishioners; they closed down

18

before the State required them to, they imposed stricter

19

restrictions on themselves than the State required of them.

20

They have done

But this is a bridge too far.

The Governor has gone

21

too far by not recognizing that he should be enforcing and

22

using the health department's enforcement mechanism that this

23

witness admitted they have to go after the real problem.

24

painted with too broad a brush.

25

churches.

He's

Can't do that to these

You can't do that to all houses of worship when

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 115 of 127 PageID #:
857
Proceedings

114

1

there's no evidence of a problem there and they're doing all

2

the things the right way.

3

rational basis, there was none for what the Governor did here.

4
5

Whether it's strict scrutiny or

And we implore you, we pray, that our clients will
be able to go back to Mass this Sunday.

6

Thank you, your Honor.

7

THE COURT:

8

Mr. Farber?

9

MR. FARBER:

10

Thank you.

Thank you, your Honor.

Your Honor, this very proceeding that we are

11

proceeding, you know, by Zoom demonstrates that we are in very

12

fraught times.

13

responders, emergency service personnel, medical personnel,

14

government officials, and, most importantly, the people of the

15

State, have successfully brought down COVID-19 infections in

16

the State to a low level, hovering around one percent or less

17

most of the time.

18

New York, through the heroic measures of first

The price of liberty and the price of maintaining

19

COVID is eternal vigilance.

20

geographic regions.

21

attributed as a fault matter to a given community is

22

irrelevant here.

23

The virus cares that there are people around capable of

24

spreading the virus.

25

There are outbreaks in particular

Whether or not those outbreaks can be

The virus doesn't care whose fault it is.

And if Catholic churches are in a neighborhood with

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 116 of 127 PageID #:
858
Proceedings

115

1

a high incidence of virus, basically what the Plaintiff is

2

asking here is to be permitted to bring -- I think their

3

evidence is some of their churches hold well over a thousand

4

people -- hundreds of people together, whether or not they are

5

spread out with masks, whether or not there are other

6

measures.

7

This is risk mitigation.

And, so, the question from

8

the community standpoint is, is a temporary measure -- the

9

executive order itself runs to November 2, there's language in

10

there it will be reconsidered within a couple of weeks -- is a

11

temporary measure under these circumstances appropriate here?

12

Under the Jacobsen standard, there is no question.

13

As the Supreme Court said, the community has the right to

14

protect itself against an epidemic of disease which threatens

15

its members.

16

for measure that has no real or substantial relation to the

17

object of protecting the public or is beyond question of

18

plain, palpable invasion of rights secured by the fundamental

19

law.

20

And in such times, judicial scrutiny is reserved

There is no question that the objective of Executive

21

Order 202.68 is to protect the public, to hopefully stop this

22

cluster and spread, to get the statewide cases down again.

23

That's what this is about.

24
25

It simply does not matter that some people are
behaving in riskier manners than others.

LAM

OCR

RPR

Basically, this is a

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 117 of 127 PageID #:
859
Proceedings

116

1

legislative judgment and the State is imposing a reasonable

2

health measure.

3

confined to limited areas; as the witness testified to, that

4

he recognized as those areas containing the higher COVID

5

rates.

6

The fact is, the measure is temporary, it's

So, you know, this law has been the law of the land

7

between Jacobsen in 2020 through South Bay at the end of May

8

of this year.

9

weeks after the Roberts case that Mr. Mastro was referring to.

I might add that South Bay was decided several

10

I might add also that the Capitol Hill case he was referring

11

to was an RFRA case, not applicable here.

12

But, in any event, that long line of cases, all the

13

way through a case called Agudath Israel, in which Judge

14

Matsumoto, of this court, applied the Jacobsen standard to the

15

very executive order here because we understand no one is

16

disputing the importance of the right -- the First Amendment

17

rights and the free exercise rights here.

18

the risk to the community of permitting the size of the

19

gathering that the Plaintiff is seeking presents a risk that

20

the State is undertaking mitigation.

But in this case,

21

As we argued in our papers -- I'm not going to

22

belabor that point, but in this case, comparable secular

23

conduct is not treated more harshly.

24

zones, all other gatherings except in the essential businesses

25

are banned.

In fact, in the red

So, admittedly, 10 or 25 people is a small

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 118 of 127 PageID #:
860
Proceedings

117

1

gathering, but religion and religious activities are not being

2

discriminated against.

3

Further, the lines were drawn narrowly to reflect

4

where the outbreaks are.

5

papers -- again, I'm not going to belabor that -- even if

6

strict scrutiny applies, Plaintiff's claims would still fail.

7

We would argue, as we argued in

But, again, this is an injunction application by

8

Plaintiff.

9

government.

It's a mandatory injunction against the
They have to prove probability of success on the

10

merits, they have to prove irreparable harm, they have to

11

prove balance of the equities, and that the public interest

12

favors this release all by a heightened standard.

13

fact of the matter is they haven't.

14

And the

The fact is what they are proposing, to reopen

15

churches in the middle of hot spots in a pandemic zone, taking

16

hundreds of people, presents an unreasonable risk in the view

17

of the government as a matter of public health and safety.

18

The government is acting here.

19

So, the question, as I understand, there will be a

20

disruption in people's religious practices.

21

counterbalance to that is the health and safety of the

22

community.

23

from earlier this year, this disease, if it gets a foothold,

24

can spread rapidly and throughout the state.

25

we're trying to avoid.

The

And, you know, as we've learned too tragically

That's what

That is the Governor's interest here.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 119 of 127 PageID #:
861
Proceedings

118

1

Thank you, your Honor.

2

THE COURT:

3

Apparently, the Governor said today that the

Thank you.

4

Orthodox community is not following the red zone rules.

5

I'm wondering at what point the balance will shift from the

6

general rule that you articulate regarding the responsibility

7

of the government to protect the public health to a situation

8

where if a particular part of the community doesn't follow the

9

rules, whether -- I'm going to say a victim of another's

And

10

negligence or misconduct is forced to have their

11

constitutional right of free exercise of religion restricted

12

by the fact that there's another part of the community that is

13

not following the rules and apparently the government is not

14

able to force that part of the community to follow the rules.

15

There has to be a tipping point here where you can

16

enter a church under these restrictive procedures in a

17

neighborhood where others are not following the rules.

18

wondering when that point is reached and who is going to

19

enforce the rules in such a way that the Plaintiff here can

20

restore activities in these churches if the Court finds for

21

the State.

22

an opportunity to talk about here today.

I'm

And that's a problem that I don't think we've had

23

Mr. Mastro would like to say something, then I'll

24

get one more comment from Mr. Farber, and we'll wind it up.

25

Mr. Mastro, briefly.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 120 of 127 PageID #:
862
Proceedings

119

1

MR. MASTRO:

2

You went right to the heart of it.

Thank you, your Honor.
The State's

3

witness testified that the State has the authority to enforce,

4

it knows where the problem is in the ultra-Orthodox community,

5

and, yet, he said he's not aware of any efforts to have

6

enforced in that community.

7

should be focusing its attention.

That's where the government

8

And, of course, under strict scrutiny, its

9

blunderbuss approach of all houses of worship is the

10
11

antithesis of a narrowly tailored approach in enforcement.
But your Honor, I have to address this because

12

Mr. Farber keeps misstating the holding in Jacobsen.

13

holding in Jacobsen was that a state has discretion to protect

14

public health and safety but, but, quote, "subject, of course,

15

to the condition that no rule prescribed by a state shall

16

contravene the Constitution of the United States nor infringe

17

any right granted or secured by that instrument," end quote.

18

That's on Page 25 of Jacobsen.

19

This is that case.

The

He always leaves that out.
This is that case where the

20

State isn't enforcing where it should be and painted with too

21

broad a brush.

22

religious liberties of the Catholic Church.

23

And it's entirely irrational to invade the

And this isn't -- and I have to correct Mr.

24

Farber -- this isn't a mandatory injunction, this isn't a

25

heightened standard.

It's a prohibitory injunction.

LAM

OCR

RPR

The

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 121 of 127 PageID #:
863
Proceedings

120

1

Governor and the State shouldn't be enforcing those twelve

2

words that go too far.

3

Yes, the Catholic Church will do the 25 percent it

4

has been doing.

5

zones.

6

substantially more.

It's that it is only 10 and only 25 in a

7

red and orange zone.

In a Catholic church, that's basically

8

shutting the door.

9

after the ninth parishioner, "No one else can come in and

10

We'll do that even in orange and yellow

That's what it's been doing even though it could be

What's the priest supposed to do, say

enjoy the Holy Sacrament and the Mass"?

11

Your Honor, without any evidence of any problem in

12

any of those churches in all this time and the churches doing

13

everything right, as the State admits, I come back to where I

14

started, which is it doesn't help them.

15

the circumstance where the State hasn't exercised its

16

authority properly and it hasn't enforced where it should be

17

enforcing.

18

about the real problem as the Orthodox community.

19
20
21
22

And this is already

And the Governor is still to this day talking

Well, where's the enforcement there?
enforcement?

Where's the

Where are the fines?

On the face of the executive order, it says $15,000
an offense.

Go in there with your --

23

THE COURT:

24

MR. MASTRO:

25

THE COURT:

I hate to do this, Mr. Mastro.
Sorry, your Honor.
There's an article in today's Wall

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 122 of 127 PageID #:
864
Proceedings

121

1

Street Journal entitled, "Cuomo threatens to withhold funds

2

from New York City, other COVID-19 hot spots," and there is a

3

paragraph in here that indicates that, quote, "Last weekend,

4

New York City authorities gave out more than 100 summonses in

5

State-designated restricted zones for a variety of violations,

6

including holding mass gatherings.

7

more than $150,000 in fines," end quote.

8
9
10

Officials said they issued

So, efforts are being made according to this
article, which I take notice of just in connection with what
you just said.

11

MR. MASTRO:

12

THE COURT:

Yes.
But the question is, my question is,

13

whether a $15,000 fine is going to cause people to change

14

their behavior in large groups.

15

I appreciate you're mentioning that.

16
17

MR. MASTRO:

That remains to be seen.

I appreciate that, your Honor.

But

And I

wasn't suggesting there hasn't been any enforcement at all.

18

It happens to have happened after this latest

19

executive order for the first time.

20

State.

21

and it's what should have been done repeatedly in weeks of

22

September leading into October if they're trying to address

23

the problem where it really occurs.

By the City, not by the

It should have happened before this executive order

24

It doesn't change, your Honor --

25

THE COURT:

I understand your point.

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 123 of 127 PageID #:
865
Proceedings
1

MR. MASTRO:

122

The Catholic churches have done

2

everything right and they don't have any outbreak or spread.

3

They don't.

4

And they didn't into early October.

Zero.

So, how do you punish them for what's happening in

5

another community when there's no evidence of spread from that

6

one community into these other churches?

7

It's not right.

The First Amendment says you

8

shouldn't do it, whether it's strict scrutiny or rational

9

basis.

10

Thank you, your Honor.

11

THE COURT:

12

Mr. Farber, anything to close this out?

13

MR. FARBER:

Thank you.

Your Honor, this is not about

14

punishment, this is not about fault finding.

15

relentless little virus who really doesn't care whose fault it

16

is.

17

19 million people in the State of New York, many of whom are

18

parishioners of the Diocese.

19

This is about a

This is about protecting the entire public, the over

The fact is this is a public health measure.

It is

20

temporary, it is narrowly drawn, it will be revisited by its

21

own terms based on the data.

22

crushing this cluster, then it will be modified sooner.

23

things develop the other way, then other methods will be taken

24

by the government to protect the public health.

25

long line of authority that the State can do that.

LAM

If the State is successful in

OCR

RPR

If

There's a

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 124 of 127 PageID #:
866
Proceedings
1

Thank you, your Honor.

2

THE COURT:

123

You will concede, sir, that if the

3

Orthodox community had followed the same protocols as the

4

Diocese of Brooklyn followed in terms of holding its services

5

and following the protocols that have been described by the

6

two witnesses for Plaintiff that we wouldn't be here having

7

this discussion probably, would we?

8
9
10

MR. FARBER:

Probably, your Honor?

You know, again,

I don't know.
It is well established that these are where the

11

clusters are.

12

engaging in riskier behaviors in large numbers in these

13

communities.

14

say, regardless of fault or not fault or just happenstance,

15

whether it is or not, the Government's interest is in

16

protecting the entire community.

17

this, maybe it has to protect them as a result of some

18

people's actions.

19

the government is doing here.

20

You know, we assume that some people are

But, again, whether -- regardless, again, as I

Sometimes in a case like

That's not unprecedented.

But that's what

So, you know, with respect to the long line of

21

Jacobsen cases, the government is entitled to a rational basis

22

review, and what the government is doing here is rational.

23

Thank you, your Honor.

24

THE COURT:

25

much for your attention today.

All right, everybody, thank you very

LAM

The Court reserves decision

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 125 of 127 PageID #:
867
124
1

and will await the additional materials that it has requested

2

for tomorrow.

3

Have a good evening, everyone.

4

(A chorus of thank yous.)

5

MR. MASTRO:

6

I really, really appreciate all the

time and consideration.

7

MR. FARBER:

8

THE COURT:

Good to see you all.

Thank you, thank you, thank you.
Good night.

Thank you.

Good night, everybody.

Stay safe.

9
10

(Matter concluded.)

11
12
13
14
15

We

c e r t i f y
t h e

t h a t

r e c o r d
/ s /

o f

t h e

L i n d a

L INDA

f o r e g o i n g

p r o c e e d i n g s

A.

A.

i s

i n

a

t h e

M a r i n o

c o r r e c t

O c t o b e r

MARINO

1 6 ,

D a t e

16
17
18
19
20
21
22
23
24
25

LAM

t r a n s c r i p t

a b o v e- e n t i t l e d

OCR

RPR

f r o m

m a t t e r .
2 0 2 0

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 126 of 127 PageID #:
868
125
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

LAM

OCR

RPR

Case 1:20-cv-04844-NGG-CLP Document 31-1 Filed 10/16/20 Page 127 of 127 PageID #:
869
126
1

I N D E X

2
3

WITNESS

PAGE

4
5

RAYMOND F. CHAPPETTO

6

DIRECT EXAMINATION BY MR. MOCCIA

7

7

CROSS-EXAMINATION BY MR. FARBER

26

8

REDIRECT EXAMINATION BY MR. MOCCIA

27

9

JOSEPH J. ESPOSITO

10

DIRECT EXAMINATION BY MR. SHAPIRO

31

11

CROSS-EXAMINATION BY MR. FARBER

45

12

REDIRECT EXAMINATION BY MR. SHAPIRO

46

13

BRYON BACKENSON

14

DIRECT EXAMINATION BY MR. FARBER

49

15

CROSS-EXAMINATION BY MR. MASTRO

70

16

REDIRECT EXAMINATION BY MR. FARBER

89

17

RECROSS-EXAMINATION BY MR. MASTRO

18
19
20
21
22
23
24
25

LAM

OCR

RPR

100

EXHIBIT E
(Dist. Ct. Dkt. No. 15)

Case 1:20-cv-04844-NGG-CLP Document 15 Filed 10/09/20 Page 1 of 6 PageID #: 208

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
------------------------------------x
THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK,
MEMORANDUM & ORDER
20-cv-4844(NGG)(CLP)

Plaintiff,
-againstGOVERNOR ANDREW M. CUOMO in his
official capacity,
Defendant.
------------------------------------x
ERIC KOMITEE, United States District Judge:

The Plaintiff in this case, the Roman Catholic Diocese
of Brooklyn, seeks a temporary restraining order and preliminary
injunction against Governor Cuomo’s Executive Order No. 202.68
(“Continuing Temporary Suspension and Modification of Laws
Relating to the Disaster Emergency”) (hereinafter the “Emergency
Order”).

The Emergency Order significantly restricts attendance

at “houses of worship” in certain parts of New York, in response
to a large uptick in COVID-19 infection rates. 1

Plaintiff

contends that the Order, as applied to it, violates the Free
Exercise Clause of the First Amendment.

1 This case is assigned to the Honorable Nicholas G. Garaufis.
Because
Judge Garaufis was unavailable to hear the case on an expedited basis, the
undersigned (as the assigned Miscellaneous Judge) heard oral argument, and
issued this Order shortly thereafter. The case will revert to Judge Garaufis
for all purposes going forward.

1

Case 1:20-cv-04844-NGG-CLP Document 15 Filed 10/09/20 Page 2 of 6 PageID #: 209

Under Supreme Court precedent, the right to freely
exercise one’s religion does not exempt worshippers from
compliance with “neutral, generally applicable regulatory
law[s].”

Emp. Div., Dep’t of Human Res. v. Smith, 494 U.S.

872, 880 (1990).

But where laws single out acts of worship for

“distinctive treatment,” courts must apply the “most rigorous of
scrutiny.”

Church of Lukumi Babalu Aye, Inc. v. City of

Hialeah, 508 U.S. 520, 534 (1993).

“When the government makes a

value judgment in favor of secular motivations but not religious
motivations, the government’s actions must survive heightened
scrutiny.”

Fraternal Order of Police Newark Lodge No. 12 v.

City of Newark, 170 F.3d 359, 366 (3d Cir. 1999).

The challenge

here is to determine whether this case is more like Smith — that
is, a neutral law that incidentally burdens religion — or more
like Lukumi and Fraternal Order, where religious worship was
being singled out for disfavored treatment.
On its face, the Executive Order applies differently
to religious exercise:

it regulates houses of worship

explicitly, and applies a capacity limit unique to them.

See

Emergency Order at 2 (“[H]ouses of worship shall be subject to a
capacity limit of 25% of maximum occupancy or 10 people,
whichever is fewer . . . .”).

There are entities treated better

than religious institutions in the “red zone” — namely, entities
deemed “Essential Businesses” — but other entities treated more
2

Case 1:20-cv-04844-NGG-CLP Document 15 Filed 10/09/20 Page 3 of 6 PageID #: 210

restrictively, such as restaurants and even schools, which are
closed entirely (for in-person activities).

Id. at 2.

This is a difficult decision for two reasons.

First,

this case is different from previous COVID-related Free Exercise
challenges in this Circuit, which involved the application of
facially neutral executive orders that nonetheless burdened
religion.

See Ass’n of Jewish Camp Operators v. Cuomo, No. 20-

CV-0687, 2020 WL 3766496 (N.D.N.Y. July 6, 2020) (Free Exercise
challenge to executive order regarding summer camp attendance);
Soos v. Cuomo, No. 20-CV-0651, 2020 WL 3488742 (N.D.N.Y. June
26, 2020) (Free Exercise challenge to executive order banning
gatherings of fifty people or more).

This Emergency Order, as

noted above, contains provisions made expressly applicable to
houses of worship.

Second, the Governor of New York made

remarkably clear that this Order was intended to target a
different set of religious institutions.

See “Governor Cuomo Is

a Guest on CNN Newsroom with Poppy Harlow and Jimmy Sciutto,”
October 9, 2020, https://www.governor.ny.gov/news/audio-rushtranscript-governor-cuomo-guest-cnn-newsroom-poppy-harlow-andjim-sciutto (“[T]he cluster is a predominantly ultra-Orthodox
[Hasidic] community. . . . . [T]he issue is with that ultraOrthodox community.”).

Plaintiff appears to have been swept up

in that effort despite having been mostly spared, so far at
least, from the problem at hand.
3

Case 1:20-cv-04844-NGG-CLP Document 15 Filed 10/09/20 Page 4 of 6 PageID #: 211

Nevertheless, the government is afforded wide latitude
in managing the spread of deadly diseases under the Supreme
Court’s precedent.

See Jacobson v. Massachusetts, 197 U.S. 11,

27, 31 (1905) (“[A] community has the right to protect itself
against an epidemic of disease which threatens its members,” and
judicial scrutiny should be limited to laws that have “no real
or substantial relation to” that purpose).

For this reason,

courts have rejected similar claims under the Free Exercise
Clause.

In Elim Romanian Pentecostal Church v. Pritzker, 962

F.3d 341, 344 (7th Cir. 2020), for example, the Court of Appeals
denied a similar injunction, holding that “[w]orship services do
not seem comparable to secular activities permitted under the
Executive Order, such as shopping, in which people do not
congregate or remain for extended periods.”

Likewise, in South

Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613 (2020),
a majority of the justices declined to enjoin a California
Executive Order limiting attendance at religious institutions in
light of COVID-19.

Relying on Jacobson, Chief Justice Roberts

noted that the “Constitution principally entrusts the safety and
health of the people to the politically accountable officials of
the States to guard and protect.”

Id. at 1614 (cleaned up).

that basis, he concluded that it was “quite improbable” that
restrictions like the one at issue here would be found
unconstitutional.

Id.
4

On

Case 1:20-cv-04844-NGG-CLP Document 15 Filed 10/09/20 Page 5 of 6 PageID #: 212

Relying on these cases, among others, another judge in
this District today upheld the Executive Order at issue here.
See Agudath Israel of America v. Cuomo, No. 20-cv-4834
(E.D.N.Y.) (Order of Judge Kiyo Matsumoto dated October 9,
2020).

There are cases that have gone the other way in response

to similar provisions.

See, e.g., Roberts v. Neace, 958 F.3d

409 (6th Cir. 2020); Maryville Baptist Church, Inc. v. Beshear,
957 F.3d 610 (6th Cir. 2020); Soos v. Cuomo, 2020 WL 3488742
(N.D.N.Y. June 26, 2020).

But in light of Jacobson and the

Supreme Court’s recent decision in South Bay, it cannot be said
that the Plaintiff has established a likelihood of success on
the merits.

See, e.g., Able v. United States, 44 F.3d 128, 130

(2d Cir. 1995).

And given the severity and complexity of the

pandemic, it cannot be said, on this record, that the balance of
equities favors the Plaintiff.

Winter v. Nat. Res. Def. Coun.,

Inc., 555 U.S. 7, 20 (2008) (2008).
Accordingly, Plaintiff’s motion for a temporary
restraining order is denied.

Plaintiff may apply to Judge

5

Case 1:20-cv-04844-NGG-CLP Document 15 Filed 10/09/20 Page 6 of 6 PageID #: 213

Garaufis for a preliminary injunction, as the record may be
developed more fully.

SO ORDERED.
/s Eric Komitee___________________
ERIC KOMITEE
United States District Judge
Dated:

October 9, 2020
Brooklyn, New York

6

EXHIBIT F
(Dist. Ct. Dkt. No. 12-1)

Case 1:20-cv-04844-NGG-CLP Document 12-1 Filed 10/09/20 Page 1 of 3 PageID #: 200

(;+,%,7

Case 1:20-cv-04844-NGG-CLP Document 12-1 Filed 10/09/20 Page 2 of 3 PageID #: 201

Case 1:20-cv-04844-NGG-CLP Document 12-1 Filed 10/09/20 Page 3 of 3 PageID #: 202

EXHIBIT G
(Dist. Ct. Dkt. No. 7-5)

Case 1:20-cv-04844-NGG-CLP Document 7-5 Filed 10/08/20 Page 1 of 10 PageID #: 162

(;+,%,7

Case 1:20-cv-04844-NGG-CLP Document 7-5 Filed 10/08/20 Page 2 of 10 PageID #: 163

October 7, 2020 | 2:16 pm

Information on Novel Coronavirus
Coronavirus is still active in New York. We have to be smart. Wear a mask, maintain six feet distance in public and download the oﬃcial New York State
exposure notification app, COVID Alert NY.
GET THE FACTS 

(https://coronavirus.health.ny.gov/home)

Empire State
Development
(https://esd.ny.gov)

GUIDANCE FOR DETERMINING WHETHER A BUSINESS
ENTERPRISE IS SUBJECT TO A WORKFORCE REDUCTION
UNDER RECENT EXECUTIVE ORDERS
(enacted to address the COVID-19 Outbreak)

FOR GUIDANCE RELATED TO DETERMINING WHETHER A BUSINESS ENTERPRISE IS SUBJECT TO A WORKFORCE REDUCTION UNDER
EXECUTIVE ORDER 202. 68, RELATED TO NEW YORK’S CLUSTER ACTION INITIATIVE TO ADDRESS COVID-19 HOTSPOTS, CLICK HERE
(https://esd.ny.gov/ny-cluster-action-intiative-guidance).
Please review ourcFrequently Asked
Asked Questionschere
Questions here (/sites/default/files/ESD-EssentialEmployerFAQ-070720.pdf).c
UPDA
UPD
ATED: September 25,c2020 at 3:16 PM
ESSENTIAL BUSINESSES OR ENTITIES,
ENTITIES including any for-profit or non-profit, regardless of the nature of the service, the function they
Why New York State?
perform, or its corporate or entity structure, are not subject to the in-person restriction.c Essential Businesses must continue to comply



Doing
in NY
with Business
the guidance
and directives for maintaining a clean and safe work environment issued by the Department of Health (DOH) and every 

business, even if essential, is strongly urged to maintain social distancing measures to the extent possible.
Industries (/industries)
This guidance
is issued by the New York State Department of Economic Development d/b/a Empire State Development (ESD) and applies
Regions
(/regions)
to each business location individually and is intended to assist businesses in determining whether they are an essential business. With
About
Us to business or entities that operate or provide both essential and non-essential services, supplies or support, only those lines
respect



and/or business operations that are necessary to support the essential services, supplies, or support are exempt from the workforce
ESD Media Center
reduction restrictions.c



State and local governments, including municipalities, authorities, and school districts, are exempt from these essential business
reductions, but are subject to other provisions that restrict non-essential, in-person workforce and other operations under Executive
Order 202 (https://www.governor.ny.gov/executiveorders).
On April 26, 2020, Governor Cuomocannounced (https://www.governor.ny.gov/news/amid-ongoing-covid-19-pandemic-governor-cuomooutlines-phased-plan-re-open-new-york-starting)ca phased approach to reopen industries and businesses in New York in phases based
upon a data-driven, regional analysis.c On May 4, 2020, the Governorcprovided (https://www.governor.ny.gov/news/amid-ongoing-covid19-pandemic-governor-cuomo-outlines-additional-guidelines-when-regions-can)cthat the regional analysis would consider several public
health factors, including new COVID-19 infections, as well as health care system, diagnostic testing, and contact tracing capacity.c On May
11, 2020, Governor Cuomocannounced (https://www.governor.ny.gov/news/amid-ongoing-covid-19-pandemic-governor-cuomo-

/

Case 1:20-cv-04844-NGG-CLP thatDocument
7-5
Filed 10/08/20
Page
3 of
10inPageID
#: 164
announces-three-regions-new-york-state-ready)
the first phase
of reopening
would begin on
May 15,
2020
several regions
of New
York, based upon available regional metrics and indicators. This essential business guidance shall remain in eﬀect for the regions and
industries that are not yet within the reopening phases.
For purposes of Executive Order 202.6, “Essential Business,” shall mean businesses operating in or as:
1. Essential health care operations including
research and laboratory services
hospitals
walk-in-care health clinics and facilities
veterinary and livestock medical services
senior/elder care
medical wholesale and distribution
home health care workers or aides for the elderly
doctors and doctors’ oﬃces
dentists and dental practices
nursing homes, residential health care facilities, or congregate care facilities
medical supplies and equipment manufacturers and providers
licensed mental health providers
licensed substance abuse treatment providers
medical billing support personnel
speech pathologists and speech therapy
chiropractic services
acupuncture
physical therapy
Why New
York State?
occupational
therapy



Doing Business in NY



Industries (/industries)
2.. Essential
sse t a infrastructure
ast uctu e including
c ud g
Regions (/regions)
public and private utilities including but not limited to power generation, fuel supply, and transmission
About Us
public water and wastewater



telecommunications
and data centers
ESD Media
Center



airlines/airports
commercial shipping vessels/ports and seaports
transportation infrastructure such as bus, rail, for-hire vehicles, garages
hotels, and other places of accommodation, including campgrounds. Campgrounds must take precautions to ensure campers maintain
appropriate social distancing and adhere to proper cleaning and disinfecting protocols, including but not limited to maintaining six feet
of distance between campers, unless wearing an acceptable face covering, excluding persons from the same household who are
camping together.

3. Essential manufacturing including
/

Case
1:20-cv-04844-NGG-CLP
Filed
food
processing,
manufacturing agents includingDocument
all foods and 7-5
beverages

10/08/20 Page 4 of 10 PageID #: 165

chemicals
medical equipment/instruments
pharmaceuticals
sanitary products including personal care products regulated by the Food and Drug Administration (FDA)
telecommunications
microelectronics/semi-conductor
food-producing agriculture/farms
household paper products
defense industry and the transportation infrastructure
automobiles
any parts or components necessary for essential products that are referenced within this guidance
c
4. Essential retail including
grocery stores including all food and beverage stores
pharmacies
convenience stores
farmer’s markets
gas stations
restaurants/bars (but only for take-out/delivery)
hardware, appliance, and building material stores
pet food
telecommunications to service existing customers and accounts
Why New York State?
in regions that are not yet within the first phase of the state's regional reopening plan,cdelivery for orders placed remotely via phone or 
at non-essential
retail establishments; provided, however, that only one employee is physically present at the business location
Doingonline
Business
in NY

to fulfill orders
Industries (/industries)
c
Regions (/regions)
5. Essential services including
About Us



2020 Census
ESD Media
Centeroperations and activities



trash and recycling collection, processing, and disposal
mail and shipping services
laundromats and other clothing/fabric cleaning services
building cleaning and maintenance
child care services
bicycle repair
auto repair and maintenance
automotive sales conducted remotely or electronically, with in-person vehicle showing, return, and delivery by appointment only
warehouse/distribution and fulfillment
funeral homes, crematoriums and cemeteries
/

Case
storage
for1:20-cv-04844-NGG-CLP
essential businesses

Document 7-5 Filed 10/08/20 Page 5 of 10 PageID #: 166

maintenance for the infrastructure of the facility or to maintain or safeguard materials or products therein
animal shelters and animal care including dog walking, animal boarding and pet grooming but only to the extent necessary to ensure
animal health
landscaping, gardening and horticulture
designing, printing, publishing and signage companies to the extent that they support essential businesses or services
remote instruction or streaming of classes from public or private schools or health/fitness centers; provided, however, that no in-person
congregate classes are permitted

6. News media

7. Financial Institutions including
banks or lending institution
insurance
payroll
accounting
services related to financial markets, except debt collection

8. Providers
id
off b
basic
i necessities
iti tto economically
i ll di
disadvantaged
d
t
d populations
l ti
iincluding
l di
homeless shelters and congregate care facilities
Why New York State?
food banks



Doinghuman
Business
in NY
services
providers whose function includes the direct care of patients in state-licensed or funded voluntary programs; the care, 
protection, custody and oversight of individuals both in the community and in state-licensed residential facilities; those operating
Industries (/industries)
community shelters and other critical human services agencies providing direct care or support
Regions (/regions)
About Us



9. C
Construction
Constructio
ESD Media Center
All non-essential construction is limited to only staging activities in regions that are not yet within the first phase of the state’s reopening



plan, except emergency construction, (e.g. a project necessary to protect health and safety of the occupants, or to continue a project if it
would be unsafe to allow to remain undone, but only to the point that it is safe to suspend work).
Essential construction includes:
construction for, or your business provides necessary support for construction projects involving, roads, bridges, transit facilities,
utilities, hospitals or healthcare facilities, homeless shelters, or public or private schools;
construction for aﬀordable housing, as defined as construction work where either (i) a minimum of 20% of the residential units are or
will be deemed aﬀordable and are or will be subject to a regulatory agreement and/or a declaration from a local, state, or federal
government agency or (ii) where the project is being undertaken by, or on behalf of, a public housing authority;
construction necessary to protect the health and safety of occupants of a structure;

/

Case 1:20-cv-04844-NGG-CLP
Document
7-5to Filed
6 ofprovided
10 PageID
167
construction
necessary to continue a project if allowing
the project
remain 10/08/20
undone wouldPage
be unsafe,
that the #:
construction
must be shut down when it is safe to do so;
construction for existing (i.e. currently underway) projects of an essential business; or
construction work that is being completed by a single worker who is the sole employee/worker on the job site.
At every site, it is required that the personnel working on the site maintain an appropriate social distance, including for purposes of
elevators/meals/entry and exits. Sites that cannot maintain appropriate social distancing, as well as cleaning/disinfecting protocols must
close. Enforcement will be conducted by state and local governments, including fines up to $10,000 per violation.
Construction may continue solely with respect to those employees that must be present at the business location/construction site in
support of essential business activities. No other employees/personnel shall be permitted to work in-person at the business
location/construction site. For staging activities, an in-person workforce may be present on-site to:
Clean, sanitize, and/or disinfect common and work areas;
Test run hoists, elevators, cranes, and other equipment;
Establish new and multiple entrances/exists to control the movement of personnel and allow for health screening, including
temperature taking;
Install hand hygiene/wash stations or retrofit existing ones with touchless faucets and dispensers;
Install health screening stations or devices at entrances;
Aﬃx social distancing, hygiene, and cleaning/disinfection signage, including posters, markers, and directional arrows;
Deliver and stockpile personal protective equipment (e.g. face coverings, face shields, gloves); and
Order, unload, and rough set materials that specialty contractors or subcontractors need to perform work (e.g. structural supports,
piping, conduits, drywall).
As noted above, local governments, including municipalities and school districts, are allowed to continue construction projects at this time
as government entities are exempt from these essential business restrictions. However, to the greatest extent possible, local
governments should postpone any non-essential projects and only proceed with essential projects when they can implement appropriate
Why New York State?

social distancing and cleaning/disinfecting protocols. Essential projects should be considered those that have a nexus to health and
safety
of the building
Doing
Business
in NY occupants or to support the broader essential services that are required to fulfill the critical operations of



government or the emergency response to the COVID-19 public health crisis.
Industries (/industries)
Regions (/regions)
10. Defense
10
Defen
fense
About
Us



ESD Media
defenseCenter
and national security-related operations supporting the U.S. Government or a contractor to the US government



11. Essential services necessary to maintain the safety,
safety, sanitation
it ti and essential ope
operations of residences or other businesses including
law enforcement, including corrections and community supervision
fire prevention and response
building code enforcement
security
emergency management and response, EMS and 911 dispatch
building cleaners or janitors
/

Case
Document
Page 7but
ofnot
10limited
PageID
#: 168
general
and1:20-cv-04844-NGG-CLP
specialized maintenance whether employed
by the7-5
entityFiled
directly10/08/20
or a vendor, including
to heating,
ventilation, and air conditioning (HVAC) and pool maintenance
automotive repair
cleaning, disinfection, and sanitation services
occupational safety and health professionals
residential and commercial moving services

12. V
Vendors
endors that provide essential services or products, including logistics and technology support, child care and services including
includin but
b
not limited to:
logistics
technology support for online services
child care programs and services
government owned or leased buildings
essential government services
any personnel necessary for online or distance learning or classes delivered via remote means

13. Recreation
Recreation
Parks and other open public spaces, including playgrounds and other areas of congregation within the discretion of the state or local
government so long as appropriate social distancing of at least six feet among individuals can be abided, acceptable face coverings
are worn by individuals who are over the age of two and able to medically tolerate such coverings, and frequent cleaning/disinfection
measures are in place for hard surfaces and objects frequently touched by multiple people (e.g., handrails, benches)
Why New
Yorklow-risk
State?recreational activities are permitted so long as social distancing and cleaning/disinfecting measures are in place:
Outdoor,



tennis;
Doing Business in NY
non-motorized boat use and rentals, such as row boats, kayaks, canoes;



Industries
golf(/industries)
and driving ranges, except miniature (mini) golf, with food and retail services subject to the restrictions that are currently in
eﬀect within the region;
Regions (/regions)
racket games, such as badminton, pickleball, racquetball;
About Us
toss/bowl games, such horseshoes, bocce, bean bag toss, croquet;



flying disc games, such as disc golf and frisbee;
ESD Media Center
shuﬄeboard;



aerial rope courses or zip lining;
rope courses including aerial rope courses;
batting cages;
shooting ranges; and
swim classes and swim instruction.
Drive-in movie theaters so long as social distancing and cleaning/disinfecting measures are in place
Marinas, boatyards, and recreational marine manufacturers, for ongoing marina operations and boat repair/maintenance, where such
facilities adhere to strict social distancing and sanitization protocols. In regions that are not within the first phase of the state's regional
reopening plan, use of such sites for the purposes of personal use or operation of boats or other watercraft is permissible, provided
/

1:20-cv-04844-NGG-CLP
7-5 orFiled
10/08/20
Page
8 of 10
PageID
169
thatCase
no establishment
oﬀer chartered motorized Document
watercraft services
motorized
boat rentals.
Restaurant
activity
at such #:
sites
are
limited to take-out or delivery only.

14. Professional services with extensive restrictions
Lawyers may continue to perform all work necessary for any service so long as it is performed remotely. Any in-person work presence
shall be limited to work only in support of essential businesses or services; however, even work in support of an essential business or
service should be conducted as remotely as possible.
Real estate services shall be conducted remotely for all transactions, including but not limited to title searches, appraisals, permitting,
inspections, and the recordation, legal, financial and other services necessary to complete a transfer of real property; provided,
however, that any services and parts therein may be conducted in-person only to the extent legally necessary and in accordance with
appropriate social distancing and cleaning/disinfecting protocols; and nothing within this provision should be construed to allow
brokerage and branch oﬃces to remain open to the general public (i.e. not clients).

Pursuant to Executive Order 202.42 (https://www.governor.ny.gov/news/no-20242-continuing-temporary-suspension-and-modificationlaws-relating-disasteremergency#:~:text=No.-,202.42%3A%20Continuing%20Temporary%20Suspension%20and%20Modification%20of,Relating%20to%20the%20Dis
and 202.45 (https://www.governor.ny.gov/news/no-20245-continuing-temporary-suspension-and-modification-laws-relating-disasteremergency), all non-essential gatherings of individuals of any size for any reasons (e.g., parties, celebrations, or other social events) are
limited to no more than twenty-five (25) or fewer people in regions that have reached Phase Three of reopening, and no more than fifty
(50) people in regions that have reached Phase Four of reopening, so long as appropriate social distancing and face covering
requirements are followed. Under Executive Order 202.41, any region that has not yet entered Phase Three of reopening, non-essential
gatherings cannot exceed ten (10) people, and social distancing and face covering requirements must be adhered to.
Why New York State?



If theBusiness
function ofinyour
Doing
NY business is listed above, you do not need to request any special designation or approval to operate.



Industries
(/industries)
If you have
reviewed this guidance and require additional assistance in determining whether or not your business is permitted to operate
on-site, you may consult the New York Forward Business Reopening Lookup Tool here
Regions (/regions)
(https://www.businessexpress.ny.gov/app/nyforward).
About Us



ESD Media Center



Restrictions on requesting d
designation as an essentiall b
business
business:
Pursuant to the Governor’s Executive Orders, the following businesses are specifically enumerated as non-essential and are, therefore,
unable to request a designation, but should continue to monitor the New York Forward website (https://forward.ny.gov/) for additional
developments:
Any large gathering or event venues, including but not limited to establishments that host concerts, conferences, or other in-person
performances or presentations in front of an in-person audience, except as otherwise permitted below;
Any movie theater, except drive-ins; and
All places of public amusement, whether indoors or outdoors, including but not limited to, locations with amusement rides, carnivals,
amusement parks, water parks, arcades, fairs, children’s play centers, funplexes, theme parks, bowling alleys, family and children’s
/

Case 1:20-cv-04844-NGG-CLP
attractions;c

Document 7-5 Filed 10/08/20 Page 9 of 10 PageID #: 170

Certain businesses and places of arts and entertainment, including but not limited to multi-disciplinary event venues and theater spaces,
may reopen to the public only for the limited purpose of conducting activities and operations that have been permitted as a part of the
State’s phased reopening (e.g., low-risk indoor arts and entertainment, media production).c Please consult the specificcNew York Forward
(https://forward.ny.gov/)cguidance as it applies tocthe currently permittedcactivities and operations.
For more information on New York’s response to COVID-19 and guidance on cleaning and disinfection of facilities, please refer to the
New York State Department of Health’s webpage at: https://coronavirus.health.ny.gov/home (https://coronavirus.health.ny.gov/home).
Additional information from the United States Centers for Disease Control and Prevention can be found at:
https://www.cdc.gov/coronavirus/2019-ncov/ (https://www.cdc.gov/coronavirus/2019-ncov/).
c

Frequently Asked Questions
CLICK HERE (HTTPS://ESD.NY.GOV/SITES/DEFAULT/FILES/ESD_ESSENTIALEMPLOYERFAQ_033120.PDF)

Why New York State?

Business Reopening Lookup Tool

Doing
Business
in NY
The
NY Forward
Business Reopening Lookup tool will help determine whether your business is able to reopen and the public health and
safety standards with which your business must comply.
Industries (/industries)
Regions (/regions)




LEARN MORE (HTTPS://WWW.BUSINESSEXPRESS.NY.GOV/APP/NYFORWARD)

About Us



ESD Media Center



CONNECT

(http://www.linkedin.com/company/empire Twitter(https://twitter.com/EmpireStateDev
state-development)



Linkedin



Facebook

(https://www.facebook.com/EmpireStateDevelopment)
/

Case 1:20-cv-04844-NGG-CLP Document 7-5 Filed 10/08/20 Page 10 of 10 PageID #: 171





(https://www.youtube.com/user/Em
)

YouTube

(https://visitor.r20.constantcontact
v=001ckb9oAtDPLM239IDMzogDyDRQ5U8nB_KJ2FQqWTQx7pB66EC6

Newsletter

ABOUT ESD
Economic Indicators Dashboard (https://esd.ny.gov/sites/default/files/Dashboard-August2020.pdf)
Reports (https://esd.ny.gov/esd-media-center/reports)
Careers (/about-us/careers)
Requests for Proposals (/doing-business-ny/requests-proposals)

PUBLIC INFO
Board Meetings (https://esd.ny.gov/esd-media-center/board-meetings)
Board Meeting Archives (https://esd.ny.gov/publicmeetings_notices/publicmeetings_archives.html)
FOIL Requests (http://esd.ny.gov/FOIL.html)

HELP
Accessibility (http://esd.ny.gov/about-us/corporate-info#accessibility)
Privacy Policy (http://esd.ny.gov/PrivacyPolicy.html)
Contact Us (https://esd.ny.gov/about-us/contact-us)
Language Assistance Services (https://esd.ny.gov/language-assistance-services)

AFFILIATES
I LOVE NY (http://www.iloveny.com/)

Whyy New Yo
Y
York
rk S
State?
t ate?



Doing
Do
o i n g Business in NY



IIndustries
n d u s t r i e s ((/industries)
/industries)
Regions (/regions)
(/)About Us

ESD Media Center




/

EXHIBIT H
(Dist. Ct. Dkt. No. 22-4)

Case 1:20-cv-04844-NGG-CLP Document 22-4 Filed 10/14/20 Page 1 of 11 PageID #: 673

EXHIBIT 4

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed 10/14/20
10/08/20
Page
2 of |11
PageID
#:M.674
98

OCTOBER 6, 2020 Albany, NY

Video, Audio, Photos & Rush Transcript: Governor
Cuomo Announces New Cluster Action Initiative
Initiative Developed in Consultation with Leading National Public
Health Experts—Dr. Noam Ross of EcoHealth Alliance, Dr. Michael
Osterholm of the University of Minnesota and Former CDC
Director Dr. Tom Frieden
New Initiative Maps Clusters by Density of Cases to Address
COVID Hot Spots in Brooklyn, Queens, and Broome, Orange and
Rockland Counties
Fines for Sponsors of Mass Gatherings Increased to $15,000
New Rules and Restrictions in Eﬀect for Minimum of 14 Days
Governor Cuomo: "First, identify the cluster. You can identify the
cluster because we do so much testing and we have so much
data. We can tell you where there is a cluster by the actual
number of cases. We have the addresses of people who are
COVID-positive. So we have mapping software where you can
see exactly where the cluster is. That's the highest density of
cases. That's where you have to take the most dramatic action."
Cuomo: "We're increasing the fines for sponsors of mass
gatherings to $15,000. We are going to be providing the local
governments with the maps that we did in their areas. We'll be
1
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

1/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed 10/14/20
10/08/20
Page
3 of |11
PageID
#:M.675
99

consulting with them. These were done specifically from the
actual case numbers themselves. If there's some peculiarity, local
governments have a comment, we'll do that today. The rules can
go into eﬀect as soon as tomorrow, that's up to the local
government, but no later than Friday. If local government says we
want time to get adjusted, fine. Today is Tuesday, get adjusted no
later than Friday."
Earlier today, Governor Andrew M. Cuomo announced a new cluster action initiative to
address COVID-19 hot spots that have cropped up in Brooklyn, Queens, and Broome, Orange
and Rockland Counties. Working with the top public health experts, New York State
developed a science-based approach to attack these clusters and stop any further spread of
the virus, including new rules and restrictions directly targeted to areas with the highest
concentration of COVID cases and the surrounding communities. The new rules will be in
eﬀect for a minimum of 14 days.
The plan was developed in consultation with national public health experts including Dr. Noam
Ross of EcoHealth Alliance, Dr. Michael Osterholm of the University of Minnesota and former
CDC Director Dr. Tom Frieden.
VID
DEO of the Governor's remarks is available on YouTube here and in TV quality (h.264, mp4)
format here.
AU
UDIO
O of today's remarks is available here.
PHOTOS are available on the Governor's Flickr page.

A rush transcript of the Governor's remarks is available below:
Good afternoon. To my right, we have the esteemed secretary to the governor Melissa
DeRosa. To her left, the esteemed budget director Robert Mujica. Thank you all for being here.
Appropriately social distanced.
Today is day 220, believe it or not. The fall is here. What happens in the fall? Leaves come
down, Jimmy Vielkind spends a lot of time with the foliage up north. What else happens in the

2
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

2/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
|11
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed
Filed10/08/20
10/14/20
Page
Page
44of
of11
PageID
PageID
#:
#:M.100
676

fall? The virus goes up. The leaves come down, the virus goes up. They've been talking about
this for a long time. They predicted this and on this prediction they happen to be right. You
see the virus increasing across the country, you see it increasing across the globe, you see
countries that had it under control are now struggling again.
In New York, statewide, we are doing very well on the numbers. We have what I call a COVID
cluster problem. But a cluster problem is serious because a cluster problem can grow. The
virus spreads in mass gatherings. We know this from our own experience, from what we've
seen, and from what every expert tells us, right. The outbreaks, which is when the virus is
spreading out of control, it starts with a mass gathering and then it expands from there,
especially indoors. We've seen it in colleges, state colleges, private colleges, you have that
congregate mass gathering indoors or frequenting a bar in the case of colleges, and it take
oﬀ. We've seen it in factory settings around the country, we've seen it in produce plants, apple
plants, in New York. We've seen it in a single restaurant, can be a mass gathering. We've seen
it at July 4th parties, we've seen it at Labor Day parties. We've seen it in the Rose Garden.
That was a mass gathering, outdoor, by the way, and we've seen it. You see that growing list
of all the people who were infected from that mass gathering.
We see it in places of worship. We've seen one church infect people, we've seen synagogues
infect people, we've seen mosques infect people. We had the first hot spot cluster in the
United States of America. New Rochelle, a super spreader who attended a temple service and
then attended a wedding, and that was it. We were oﬀ to the races. So, it's to be taken very
seriously. A mass gathering causes infections. Infections cause a cluster. A cluster causes
community spread. That is the natural evolution of things unless we intervene and we stop the
cycle. If you just let the cycle run, that is what's going to happen.
We see clusters now across the state, colleges upstate. We have a cluster in Binghamton,
Orange Rockland, Queens, Brooklyn, Nassau. The cluster is just that, it's a cluster of cases, a
high density of cases. And it seeps, it grows from that cluster almost in concentric circles.
Drop a pebble into the pond, pebble goes in, then there's one ring, two rings, three rings, and
the rings continue across the pond. That's how the virus spreads. When you see the cluster,
you have to stop it at that point. What's our strategy? Crush the cluster and stop the spread.

3
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

3/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
|11
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed
Filed10/08/20
10/14/20
Page
Page
55of
of11
PageID
PageID
#:
#:M.101
677

And we're announcing a special initiative to do just that, the Cluster Action Initiative. Catchy
name.
Step one, you take the most dramatic action within the cluster itself, where you have the
highest density of cases. Understanding that the people in that cluster interface with the
surrounding communities, take additional action in the communities surrounding the cluster,
and then on a precautionary measure, take action in the communities that are out line that
area, so three steps.
First, identify the cluster. You can identify the cluster because we do so much testing and we
have so much data. We can tell you where there is a cluster by the actual number of cases.
We have the addresses of people who are COVID-positive. So we have mapping software
where you can see exactly where the cluster is. That's the highest density of cases. That's
where you have to take the most dramatic action. The surrounding area is where that cluster
is going to seep. Why? Because that's where people interact in the grocery store. That's
where they interact at the bus stop. That's where they interact in the local recreational areas.
So cluster, the area around the cluster, and then as a precautionary measure, the area around
that's. That's how you attack a cluster. Most intense action on the cluster itself and then
precautionary action as you pull back.
Clusters, all of these areas, you can look at them exactly by the cases. It's not by zip code, it's
not by census tract, it's not by any political metric, it's only by the number of cases. So for
example, Brooklyn New York - we have one area. This is an actual map of Brooklyn. The
cluster is the red area. That is the area in, this is basically south Brooklyn, that has the highest
number of cases by actual data. The surrounding area, orange, that is the second ring. That's
the warning area because the people who are in that cluster, they're going to the same store,
they're going to the same church, they're going to the same bus stop as people in that
surrounding area. These are there are no walls here. The third area is the yellowish area
around the perimeter from that line straight line down. That we call a precautionary area
because they may very well also be coming in contact with the people in the cluster. Or, the
people in the middle of that cluster may have infected somebody in the orange zone who may
be in contact with someone in the yellow zone. It goes red is the cluster, orange is
surrounding the cluster, yellow is the periphery. So that's the actual south Brooklyn map.
4
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

4/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
|11
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed
Filed10/08/20
10/14/20
Page
Page
66of
of11
PageID
PageID
#:
#:M.102
678

Queens, there are two areas that will be mapped just the way Brooklyn is mapped but same
concept. There's a central cluster, there's a surrounding area and there's a precautionary area
surrounding that. Two smaller areas in Queens. The Brooklyn area is larger than either of the
two Queens areas. Binghamton we have a cluster.
Binghamton we're declaring a yellow zone which is the precautionary zone which is a less
intense action plan than in a red zone. Why? Because there's just fewer number of cases in
Binghamton. The density is less, the cluster is less, but it still requires precaution.
Orange County, we have an intense cluster and then what we call a precautionary zone
around that cluster.
Rockland County, same thing. We have an intense cluster and then we're establishing a
precautionary zone around that cluster.
These are relatively small areas geographically. Maybe a cluster is one mile in diameter.
Maybe with the orange warning area it's a mile and a half. Maybe with the precaution area it's
about 2 miles. These are geographically circumscribed, relatively small but that's why they're
clusters. The trick is to keep it small. Keep the infection from spreading. Small, but intense
targeted eﬀorts in that area. We have new rules for red, orange or yellow communities.
The red, which is the most impacted area, houses of worship will be 25 percent capacity up to
10 people maximum. If it's a church or a mosque or a temple, there will be a maximum of 25
percent capacity or 10 people. No mass gatherings, only essential businesses open, only take
out dining and schools are closed.
In the orange areas - that's the second ring - houses of worship 33 percent capacity, 25
people maximum. Mass gatherings, ten people maximum, indoor or outdoor. Businesses, we
closed high-risk, non-essential businesses. High risk are defined businesses like gyms,
personal care, et cetera. Dining, no indoor dining, outdoor dining only. Four people to a table.
Yellow, which is the precautionary zone, 50 percent capacity in a house of worship. Mass
gatherings, 25 people. Businesses are open; dining indoor and outdoor, but 4 people
maximum per table. Also, the schools in yellow areas, public or private, must do mandatory
weekly testing.
5
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

5/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
|11
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed
Filed10/08/20
10/14/20
Page
Page
77of
of11
PageID
PageID
#:
#:M.103
679

The students are people who are very likely to interact with people within that community. We
saw this in New Rochelle. All the kids go to diﬀerent schools, I know, but they meet at the
playground or they're on the little league team or they're on the hockey team or they went to
somebody's birthday party and they interacted. The schools are important because you will
very often see the schools be a place of transmission. If two students interact at a birthday
party on a Friday night and then go to school, they then bring it home to their parents and
now we're oﬀ to the races again.
We're increasing the fines for sponsors of mass gatherings to $15,000. We are going to be
providing the local governments with the maps that we did in their areas. We'll be consulting
with them. These were done specifically from the actual case numbers themselves. If there's
some peculiarity, local governments have a comment, we'll do that today. The rules can go
into eﬀect as soon as tomorrow, that's up to the local government, but no later than Friday. If
local government says we want time to get adjusted, fine. Today is Tuesday, get adjusted no
later than Friday.
Testing for schools in the yellow zones starts next week. I am more and more concerned
about schools with the more experience we have. The more we get into this the more
important I think it is that schools do random testing. Well, students are young and they're
resilient. First of all, we don't really know that. What do we know about this virus? And not only
do you have young people in schools, you have teachers. We all think we're young, I think I'm
young, you have teachers and I want to make sure we're protecting all lives. So the schools in
those yellow zones must do weekly testing. The Department of Health will set a sample
number. We want to make sure it's statistically representative and they'll set that sample by
Friday. If a school needs additional testing equipment, they should contact us - we can to help
them. If they want to do pool testing, they should contact us, we can help them. These rules
will be in eﬀect for 14 days, and then we'll see where we are and we'll see the numbers and
we'll adjust from there.
We've gone through this evolving situation with some of the best people on the globe who
have been advising us and I want to thank them very much for their help. Local governments
most enforce the law. I know I've said this several times. But we can sit here all day long and
come up with laws and rules - they are only as good as their enforcement. And a lack of
6
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

6/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
|11
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed
Filed10/08/20
10/14/20
Page
Page
88of
of11
PageID
PageID
#:
#:M.104
680

enforcement has contributed to this problem. There is no one who say they didn't see this
coming. We've had concerts in the Hamptons that should have never happened. We've had
bars that have attracted crowds over and over again that should have never happened. We've
had college parties that have happened oﬀsite that should have never happened. We have
had religious gatherings that have been circulated on social media for weeks and action was
not taken. There can be no surprise - the rules are only as good as their enforcement. "Well
we have COVID fatigue. We're tired of wearing masks." COVID isn't tired. The virus isn't tired.
The virus - still energetic to strong enough to kill you. It's no time to be fatigued. We don't
have the luxury of fatigue.
And I understand it's a politically diﬃcult situations - I've tried everything with local
governments. I said that I would fine local governments if failed to enforce the law because
these are laws that they're enforcing. A law doesn't work if you're too incompetent or too
politically frightened to enforce it, period, said A.J. Parkinson. I also said to local governments,
"Blame me." I understand these are diﬃcult acts to enforce. These are state laws. Blame me. I
have no problem with that.
Moving forward, I'm not going to pass more laws that are not enforced. This is a government
that is competent, this is a government that is capable, this is a government that has helped
the people of the state through this horrendous situation. We'll continue to do it - we do it
because we're eﬀective, that's why. Local governments need to assign people to a State
Enforcement Task Force, because I want to make sure that that is happening. New York City
must provide 400 personnel to the New York State Task Force. I want to thank our
government partners in this Cluster Initiative. I've spoken to many of them myself today. But
we have in Binghamton, Broome, Jason Garner has been very helpful, Steven Neuhaus in
Orange, Ed Day in Rockland County, we spoke through some issues today - I want to thank
him very much for his cooperation. New York City we've been working with, Laura Curran in
Nassau we've been working with. Together we're going to get this done - it's not easy. But we
know where the cases and we know what we have to do.
So, government has to do its job, but individuals have to do their job also. And organizations
have to do their job also. We're all citizens, and it's not government's job to catch you. It's
citizen's obligation to do the right thing, right? You don't speed on the road, not just because
7
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

7/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor 22-4
Cuomo
New Cluster Action
Initiative
|11
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9 Announces
Filed
Filed10/08/20
10/14/20
Page
Page
99of
of11
PageID
PageID
#:
#:M.105
681

you're afraid to get a ticket, because you don't want to kill anyone. Right? You act responsibly
with COVID because you want to protect yourself, you want to protect your family, you want to
protect other people. And organizations have to do the same thing. I am informing all houses
of worship today. Obviously these new rules are most impactful on houses of worship
because this virus is not coming from nonessential businesses. That's not what this is about. It
may be spread by nonessential business. It's not starting in schools; it may be spread by
schools. This is about mass gatherings. And one of the prime places of mass gatherings are
houses of worship. I understand it's a sensitive topic but that is the truth. You want to solve the
problem? Acknowledged the problem. Deny the problem, look at a red herring, and then the
problem gets worse. The problem is mass gatherings and houses of worship, colleges and
some miscellaneous foolish behavior in bars, outdoor venues, etc.
I spoke to members of the Orthodox Jewish community today. I spoke to the leaders myself
this morning. We had a very good conversation. These rules will apply to all houses of
worship. Many of these communities have a large Orthodox population. I have been very
close to the Orthodox community for many years. I understand the imposition this is going to
place on them, and I said to them I need their cooperation. I need their partnership. They're
very cohesive communities. And I asked for them to work with me to follow these guidelines
and that was positively received. I said to them that I'm doing this for a very simple reason
because I have such respect and love for the Orthodox community. I have been friends with
them all my life and my father before me by the way. We go way back and it's out of respect
and it's out of love and it's because I want to protect them. In Jewish teaching, one of the most
precious principles is saving a life. To save a life. The Torah speaks about how certain
religious obligations can be excused, if you are going to save a life. This is about saving a life.
That's what this is. No large gatherings in synagogues to save a life. You look at where the
infection rate is, you look at those clusters, people will die in those clusters and this is about
protecting people and saving lives. And I felt very good about my conversation with the
Orthodox community and I thank them for their help in their cooperation. Seasons change,
circumstances change, and we change with it. That's what we do. This is not a New York State
phenomenon. If you look at what's happening in our region of the country, New York is about
1.2 percent; Pennsylvania's up at about 8 percent; New Jersey is about 2.4 percent;
Connecticut - which God bless Governor Ned Lamont has always had a lower incident rate
than we have, but there are still facts in life: one plus one equals two; night follows day, the

8
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

8/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor22-4
Cuomo Filed
Announces
New ClusterPage
Action Initiative
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9
Filed10/08/20
10/14/20
Page
10
10of
of|11
11PageID
PageID
#:
#:M.106
682

world is round. These are facts, OK? There's another fact: if the rules are not complied with,
and enforcement is not done, then the infection rate will increase. If the infection rate
increases, we will be forced to close down. We know that. We've been here. This is déjà vu.
So, let's do what we have to do in these clusters, let's save lives, and let's continue the
economic advancement that we're making.
Today's specific numbers — top 20 zip codes — we're doing two types of testing now. We're
testing in the hotspots and then we're doing the normal testing statewide. In the testing just in
the hotspots, the infection rate is about 5.5. Statewide the testing is about 1.2. If you roll the
hotspots into the state numbers, which now oversamples the hotspots, you're at 1.4 percent.
Nine New Yorkers passed away. They're in our thoughts and prayers. 705 hospitalized, ICU
158, intubation 72.
We're going to do this the way we've done it all along because we are New York tough, smart
united, disciplined, loving.
Last point is I'd like to make a comment about the President, what he's been saying. We
wished him well when we heard about his diagnosis with COVID and we wished the First Lady
well. We sent them a great New York special care package, and I hope he's back to 100
percent as quickly as possible. I think the President has an opportunity that he is missing and I
think he has an opportunity to do a public service and I think he's right now doing the public a
disservice. To say to the people of this country, "Look at me! Don't worry about COVID. Look
how well I'm doing!" First of all, this is a funny disease. We hope you're doing well, but the
disease still has not run its course and it's a little premature to say "I'm doing great," right?
You're not really doing great until you test negative and then, by the way — there are people
who test negative and have consequences that continue for weeks and months and months.
This is a frightening virus. But the President is not analogous to the average person in this
country, right? The average person gets COVID, they don't get flown by helicopter to Walter
Reed Hospital, and have a team of 20 doctors, millions of dollars of medical talent attend to
their needs, receive experimental drugs that haven't been available to the public and are
administered just to the President under Compassionate Care, right? So, there's no analogy
there. From the public service point of view, 210,000 people died. More people die in this
country than countries around the world that were doing much worse than we were. From a
9
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

9/10

10/7/2020
Video, Audio, Photos & Rush Transcript:
Governor22-4
Cuomo Filed
Announces
New ClusterPage
Action Initiative
Governor
Andrew
Cuomo
Case
Case1:20-cv-04844-NGG-CLP
1:20-cv-04834-KAM-RML
Document
Document
2-9
Filed10/08/20
10/14/20
Page
11
11of
of|11
11PageID
PageID
#:
#:M.107
683

public service point of view, "Don't be afraid of COVID?" No. Be afraid of COVID. It can kill you.
Don't be cavalier. You This is just more denial. This is where it started and you know, the
President — God bless him — he tells you where he's going. We know that when COVID
started, he knew how bad it was going to be and he just lied about it. We know that he had
the White House memo done by Peter Navarro that said millions of people could get infected
and he just lied about it. Woodward's book, he actually has him on tape saying, "I know how
bad it's going to be, but I don't want to tell the American people." Yeah, that cost this nation,
and that confusion cost this nation, many unnecessary lives and expense and pain and
hardship. I was saying at that time, "Take it seriously." The President was saying when it
started, "It's a hoax. It will be gone by Easter. It's going to disappear like a miracle." Yeah, none
of that was true. None of it was true. He knew it wasn't true and it's not true now to say, "Don't
be afraid of COVID."
Denial doesn't works. It never does in life. It never does. "I don't have a drinking problem. I
don't have a substance abuse problem. I don't have a gambling problem." Denial never works.
Acknowledge the problem: it's a frightening virus. Be smart, be careful. Don't hide under your
bed. We're reopening, go about your business, but do it smartly and that's what the President
should be saying.

 Contact us
by phone:

Albany: (518) 474 - 8418
New York City: (212) 681 - 4640

 Contact us
by email:

Press.Oﬃce@exec.ny.gov

10
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-announces-new-cluster-action-initiative

10/10

EXHIBIT I
(Dist. Ct. Dkt. No. 12-2)

Case 1:20-cv-04844-NGG-CLP Document 12-2 Filed 10/09/20 Page 1 of 2 PageID #: 203

(;+,%,7

Case 1:20-cv-04844-NGG-CLP Document 12-2 Filed 10/09/20 Page 2 of 2 PageID #: 204

Transcription of Relevant Excerpts from Governor Andrew Cuomo’s October 9,
2020 Interview on “CNN Newsroom with Poppy Harlow and Jim Sciutto”1
Jim Sciutto: As you know, an Orthodox Jewish advocacy group and a Roman Catholic Diocese
of Brooklyn actually filed two separate federal lawsuits against you over these new restrictions
on religious gatherings. What is your response to those lawsuits?
Governor Cuomo: Yeah, the cluster is a predominantly ultra-Orthodox cluster. The Catholic
schools are closed because they happen to be in that cluster. But the issue is with that ultraOrthodox community. This is not a matter of religious freedom, right? I don't care if you’re a
Roman Catholic, you’re Jewish, you’re Muslim, you’re an atheist, you have to follow the rules
of the state, the laws of the state. And I understand the beliefs of the ultra-Orthodox. I’ve been
very close to them all my life. I’m a big supporter of theirs, but they have to follow the rules,
Jim. Because we’re seeing the truth. And the truth is, if you don’t follow the rules, the infection
rate spreads, people get sick, and then you make others sick. We’re talking about Brooklyn.
We’re not talking about a hermetically sealed community in a rural area. This is in the middle of
Brooklyn. They will make other people sick.

1

The underlying footage from Governor Cuomo’s interview is available at https://mms.tveyes.com/Transcript.
asp?StationID=100&DateTime=10%2F9%2F2020+10%3A37%3A03+AM&Term=Catholic+Diocese+of+
Brooklyn&PlayClip=TRUE.

EXHIBIT J
(Dist. Ct. Dkt. No. 22)

Case 1:20-cv-04844-NGG-CLP Document 22 Filed 10/14/20 Page 1 of 3 PageID #: 645

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK
Plaintiff,
v.
GOVERNOR ANDREW M. CUOMO, in his
official capacity,
Defendant.
-----------------------------------

x
:
:
:
:
: No. 1:20-CV-4844-NGG-CLP
:
:
:
:
:
x

SECOND SUPPLEMENTAL DECLARATION OF RANDY M. MASTRO IN FURTHER
SUPPORT OF THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NEW YORK’S
APPLICATION FOR A PRELIMINARY INJUNCTION
I, Randy M. Mastro, hereby declare under penalty of perjury pursuant to 28 U.S.C.
§ 1746, and state as follows:
1.

I am a member of the bar of this Court and a partner at the law firm Gibson Dunn

& Crutcher LLP (“Gibson Dunn”), counsel to The Roman Catholic Diocese of Brooklyn, New
York. I submit this supplemental declaration in further support of Plaintiff’s application for a
preliminary injunction.
2.

Attached hereto as Exhibit 1 is a true and correct copy of Executive Order No.

202.38 from Governor Cuomo, dated June 6, 2020.
3.

Attached hereto as Exhibit 2 is a true and correct copy of an article from New

York State titled “Governor Cuomo Announces Five Regions on Track to Enter Phase IV of
Reopening Friday” dated June 24, 2020.
4.

Attached hereto as Exhibit 3 is a true and correct copy of the transcript from

Governor Cuomo’s press conference on October 5, 2020.

Case 1:20-cv-04844-NGG-CLP Document 22 Filed 10/14/20 Page 2 of 3 PageID #: 646

5.

Attached hereto as Exhibit 4 is a true and correct copy of the transcript from

Governor Cuomo’s press conference on October 6, 2020.
6.

The Governor’s Executive Order does not apply to “essential” businesses in the

Red Zone. Based on a review of records and other research conducted by individuals under my
supervision, Target, located within the Red Zone at 1598 Flatbush Avenue, Brooklyn, New York
11210 is open and operating without capacity limits. Attached hereto as Exhibit 5 is a true and
correct copy of an article from The New York Times dated September 2, 2008 describing the
Target as 225,000 square feet in size. Staples, located within the Red Zone at 1800 Coney Island
Avenue, Brooklyn, New York 11230, is also open and operating without capacity limits. In
addition, the Dollar Tree, located at 1726 McDonald Ave, Brooklyn, New York 11230 is on the
border between the Red Zone and Orange Zone, and is open and operating without capacity
limits.
7.

Attached hereto as Exhibit 6 is a true and correct copy of a press release, dated

October 8, 2020, from the Archdiocese of New York in support of the Diocese of Brooklyn’s
lawsuit.
8.

Attached hereto as Exhibit 7 is a true and correct article from CNN titled “How

coronavirus spread to 87% of the singers at a Washington choiU practice,” dated May 13, 2020,
describing a COVID outbreak at a Washington choir practice where “most people were probably
not yet aware of” social distancing guidelines, chairs were spaced only 6 to 10 inches apart, and
choir members “congregated around a chair rack” and had a “snack break.”
9.

Attached hereto as Exhibit 8 is a true and correct copy of a public statement from

Cardinal Timothy Dolan, issued today, October 14, 2020, and entitled, “Why are Churches Being
Singled Out.”

2

Case 1:20-cv-04844-NGG-CLP Document 22 Filed 10/14/20 Page 3 of 3 PageID #: 647

10.

The following link is a true and correct video clip from Fox 5 News reporting on

the impact of church closures in the Diocese of Brooklyn.
https://mms.tveyes.com/MediaCenterPlayer.aspx?u=aHR0cDovL21lZGlhY2VudGVyLnR2ZXll
cy5jb20vZG93bmxvYWRnYXRld2F5LmFzcHg%2FVXNlcklEPTg0NjI3MSZNRElEPTEzOTE
5MTUxJk1EU2VlZD05NjAyJlR5cGU9TWVkaWE%3D
11.

The following link is a true and correct video clip from Fox 5 News of an

interview on October 14, 2020 with Governor Cuomo regarding the church closures in the
Diocese of Brooklyn. Governor Cuomo states,
“[The hot spots are] primarily in the ultra-Orthodox community, where you have
pictures of hundreds of people in a synagogue. It’s not even close. Our rule was
50% of capacity for a synagogue or church or any gathering place. 50% of the
seated capacity. They have hundreds of people packed into a synagogue, and you
know what’s going to happen. So yes, we’re enforcing those rules. The Catholic
Church is upset in those areas because the Diocese of Brooklyn says, ‘We are
following the rules. Why did you limit our capacity because we were already
following the rules.’ I understand that also. But it works -- the virus spreads in a
geographic area, right? The virus doesn’t say, ‘Oh, that’s a synagogue, I’m going
to go in there but that’s a church, I’m not going to go in there.’ The virus doesn’t
understand religious distinctions, so from a public health point of view you
operate on a geographic basis.”
https://mms.tveyes.com/MediaCenterPlayer.aspx?u=aHR0cDovL21lZGlhY2VudGVyLnR2ZXll
cy5jb20vZG93bmxvYWRnYXRld2F5LmFzcHg%2FVXNlcklEPTg0NjI3MSZNRElEPTEzOT
M1MDgzJk1EU2VlZD04OTA0JlR5cGU9TWVkaWE%3D
I declare under penalty of perjury, pursuant to 28 U.S.C. § 1746, that the foregoing is true
and correct.
Executed on October 14, 2020 in New York, New York.

/s/ Randy M. Mastro
Randy M. Mastro

3

EXHIBIT K
(Dist. Ct. Dkt. No. 28)

Case 1:20-cv-04844-NGG-CLP Document 28 Filed 10/15/20 Page 1 of 3 PageID #: 719

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK
Plaintiff,
v.
GOVERNOR ANDREW M. CUOMO, in his
official capacity,
Defendant.
-----------------------------------

x
:
:
:
:
: No. 1:20-CV-4844-NGG-CLP
:
:
:
:
:
x

THIRD SUPPLEMENTAL DECLARATION OF RANDY M. MASTRO IN FURTHER
SUPPORT OF THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NEW YORK’S
APPLICATION FOR A PRELIMINARY INJUNCTION
I, Randy M. Mastro, hereby declare under penalty of perjury pursuant to 28 U.S.C.
§ 1746, and state as follows:
1.

I submit this Third Supplemental Declaration to provide the Court with newly-

discovered and highly-relevant evidence that I first became aware of late last night when a civil
complaint was forwarded to me that was filed earlier in the day in the Southern District of New
York – Congregation Yesheos Yakov v. Cuomo, Case No. 7:20-cv-08580.
2.

Among the allegations in that complaint is a description of an October 6, 2020

phone call between the Governor and "Jewish Leaders," in which the Governor is quoted as
saying his Executive Order restricting services at all "Houses of Worship" in certain geographic
areas is "not a highly nuanced, sophisticated response. This is a fear driven response. . . [T]his
is not a policy being written by a scalpel, this is a policy being cut by a hatchet. . . . very blunt .
. . It's not the best way to do it, but . . . [if] we can get the numbers down in the zip codes, the

Case 1:20-cv-04844-NGG-CLP Document 28 Filed 10/15/20 Page 2 of 3 PageID #: 720

anxiety comes down, and we can have a smarter, more tailored approach, . . . and then we can
have a more intelligent, sophisticated policy."
3.

The complaint contains the following link to an audio clip of that conversation, in

which the Governor can be heard saying those words, entitled, “Exclusive Full Recording:
Jewish Leaders Say They Were ‘Stabbed in the Back’ by Cuomo, HaModia online, and dated
October 12, 2020:
https://hamodia.com/2020/10/12/exclusive-recording-jewish-leaders-say-stabbed-back-cuomo/.
4.

The complaint contains a transcription of certain of Governor Cuomo's remarks

that appears below here and the Governor can be heard saying on the audio clip:
I don’t disagree with you, uh, and look, I’m a hundred percent frank and
candid. Uh, this is not a highly nuanced, sophisticated response. This is a
fear driven response. You know, this is not a policy being written by a
scalpel, this is a policy being cut by a hatchet, it’s just a very blunt, uh, I
didn’t propose this, you know, it was proposed by the mayor [Blasio] uh in
the city. I’m trying to uh sharpen it and make it better, but it’s out of fear,
people see the numbers going up, uh close everything! Close everything!
It’s not the best way to do it, but it is a fear drive response, the virus scares
people, hopefully we get the numbers down in the zip codes, the anxiety
comes down, and then we can have a smarter, more tailored approach.
Your point is right, why close every school? Why don’t you test the schools
and close the ones that have a problem? I know, but, first, I don’t know that
we have the resources to do that now, but I can tell you honestly, uh, the [ ]
fear is too high, to do anything other than uh. Let’s do everything we can to
get the infection rate down now, close the doors, close the windows, that’s
where we are. Uh [Health] commissioner do you want add anything?
You could say there’s a better way to do this. I know. But we’re dealing
with emotion and fear as much as anything. And I’ll tell you, its New York
City, we have a real problem with fear and anxiety, and people losing
confidence in the City, and who’s moving out, uh and who’s afraid . . . so it
is a blunt policy, I agree with you, uh but at this point uh I don’t think that
we can do anything more sophisticated. Hopefully we get it under control,
it’s a few weeks, people take a deep breath, and then we can have a more
intelligent, sophisticated policy.

2

Case 1:20-cv-04844-NGG-CLP Document 28 Filed 10/15/20 Page 3 of 3 PageID #: 721

5.

One of my colleagues has listened to the full audio and confirmed (1) the

accuracy of the transcription and (2) recognizable voice of Governor Cuomo as the speaker.
I declare under penalty of perjury, pursuant to 28 U.S.C. § 1746, that the foregoing is true
and correct.
Executed on October 15, 2020 in New York, New York.

/s/ Randy M. Mastro

3

EXHIBIT L
(Dist. Ct. Dkt. No. 5)

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 1 of 10 PageID #: 61

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------------------------x
:
THE ROMAN CATHOLIC DIOCESE OF
:
BROOKLYN, NEW YORK,
:
:
Plaintiff,
:
:
v.
:
:
GOVERNOR ANDREW M. CUOMO in his
:
official capacity,
:
:
Defendant.
----------------------------------------------------------x

DECLARATION OF BISHOP RAYMOND F. CHAPPETTO IN SUPPORT OF
PLAINTIFF’S APPLICATION FOR A TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION
I, Bishop Raymond F. Chappetto, Vicar General for The Roman Catholic Diocese of
Brooklyn, New York, hereby declare under penalty of perjury pursuant to 28 U.S.C. § 1746, and
state as follows:
1.

I submit this declaration in support of Plaintiff’s application for a temporary

restraining order and preliminary injunction in order to explain how The Roman Catholic
Diocese of Brooklyn, New York has successfully implemented comprehensive protocols to
prevent the spread of COVID-19 in our churches, and to further explain how Governor Cuomo’s
COVID-19 order capping in-person attendance at houses of worship in designated “orange” and
“red” zones in Brooklyn and Queens to no more than 25 and 10 people, respectively, is wholly
unwarranted as applied to the Catholic churches in these zones. Indeed, all of these churches
have been operating safely for months now, and the strict attendance caps imposed by the
COVID-19 order would grossly infringe on the liberties of those in our faith community for no

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 2 of 10 PageID #: 62

legitimate reason, let alone the compelling interest necessary to justify violating our First
Amendment rights.
Background
2.

Since 2013, I have served as the Vicar General for The Roman Catholic Diocese

of Brooklyn, New York, which serves Brooklyn and Queens. The Vicar General is effectively
the Vice President—both legally and canonically—and assists with the governance of the 186
different parishes in the Diocese of Brooklyn. I routinely consult with and advise the Bishop of
Brooklyn, Nicholas DiMarzio, on decisions ranging from the clergy, to administrative concerns,
to church finances.
3.

I was initially ordained on May 29, 1971. After my Ordination, I completed

priestly assignments at various parishes throughout the Diocese of Brooklyn, including St.
Camillus, Rockaway Beach (1971-75), St. Pius V, Jamaica (1975-76), Incarnation, Queens
Village (1976- 81), and St. Helen, Howard Beach (1981-83). I have served as pastor at Our
Lady of Miracles in Canarsie, Our Lady of the Snows in Floral Park, and most recently at St.
Kevin in Flushing. I was ordained a Bishop on July 11, 2012.
4.

Before being named Vicar General, I was named Vicar for Clergy and

Consecrated Life in 2009, a position which I hold to this day. In that capacity, I serve as the
liaison between the Bishop of Brooklyn and all the priests in the Diocese.
5.

In all, I have spent nearly 50 years as a pastor and Bishop in Brooklyn and

Queens. As a result, I am intimately familiar with the spiritual and material needs and concerns
of the Catholic Diocese of Brooklyn and the faith community it serves.
The Diocese of Brooklyn Developed a Comprehensive Response to COVID-19
6.

The Diocese of Brooklyn has closely monitored the ongoing COVID-19

pandemic and has consistently taken responsible, affirmative actions to help limit the spread of
2

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 3 of 10 PageID #: 63

the virus and protect our parishioners. In the early days of the pandemic, we assisted parishes
throughout the Diocese by drafting and circulating memoranda with up-to-date safety protocols
and instructions.
7.

On March 16, 2020, we elected to cancel all public Masses in the Diocese until

further notice. This decision pre-dated the government-mandated closures that followed later
that month. Public Masses did not resume in the Diocese until the weekend of July 4, 2020.
During this period of closure, numerous weddings, funerals, and baptisms were either canceled
or, as the government-imposed restrictions eased in May and June, were limited to 10 people.
This was an extremely painful period for our faith community, not only because of the physical
and emotional toll that the pandemic took on parishioners, but also because in-person Mass is of
critical spiritual importance in our faith tradition, as is the opportunity to participate in lifecycle
events of religious significance—such as baptisms, weddings, and funerals—in church and
amidst a full complement of family, friends, clergy, and other members of the faith community.
Nevertheless, we imposed and abided by these severe restrictions because it was the right thing
to do for the health and welfare of our parishioners.
8.

During the roughly four-month period when churches in Brooklyn and Queens

were largely closed, the Diocese formed an internal commission to ensure that, when the time
came, we would be able to safely welcome members of our faith community back to church.
The commission was chaired by Joseph Esposito, the former Commissioner of New York City
Emergency Management and former Chief of Department of the New York City Police
Department, and included a mix of different stakeholders from our community. The commission
regularly consulted with a mental health expert.

3

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 4 of 10 PageID #: 64

9.

Over the course of numerous meetings in May and June, our commission

developed protocols to ensure the safe reopening of churches within the Diocese. These
protocols were updated weekly, and were memorialized in various memoranda that we circulated
to each of our parishes. Examples of these memoranda are attached to this Declaration. See
Exhibit A. We also engaged a media company to help distribute communications about these
protocols to the public, including on the Diocese’s public website and through social media. See
Diocese of Brooklyn, Coronavirus Updates, available at dioceseofbrooklyn.org/coronavirusupdates/.
10.

During the reopening process, the Diocese relied on the advice of its internal

commission and waited an extra week to resume services at the 25% capacity limit imposed by
the State. In other words, even though limited-capacity church services could have resumed in
Brooklyn and Queens in late June, we elected to wait another week to ensure all proper safety
protocols had been communicated to and implemented by each of our parishes. To that end, we
assisted our parishes in obtaining all of the supplies they needed to safely reopen, such as masks,
disinfectants, fogging machines, and hand sanitizer. We also elected to re-open over the July 4
holiday weekend, which we believed would allow for an even “softer” resumption of the services
that had been suspended for nearly four months, as many parishioners had left New York City
for the holiday weekend. For those parishes that needed additional time to implement the
various COVID-related protocols, their churches opened even later, after the July 4 soft
reopening.
11.

Prior to reopening, all churches were thoroughly sanitized, either by outside

companies or with equipment recommended by Rocklyn Assets Corp., the property office for the
Diocese. Parishes that chose to sanitize their churches without outside assistance received

4

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 5 of 10 PageID #: 65

guidance from a comprehensive video assembled by Rocklyn Assets that demonstrated the
proper techniques for sanitizing.
12.

The church services that resumed in early July and continue to this day bear little

resemblance to pre-pandemic church services. In addition to limiting attendance to 25% of each
church’s capacity, we have required that all parishioners wear masks and only sit in designated
areas that ensure proper social distancing. Hand sanitizer is readily available in all churches, and
parishioners are encouraged to sanitize whenever appropriate. Additionally, pastors throughout
the Diocese have been instructed on all relevant safety protocols, which they take seriously.
13.

Additionally, to ensure the safety of parishioners, the Diocese has altered certain

fundamental church practices, most notably the giving and receiving of the sacrament of Holy
Communion. Holy Communion is one of the most central and sacred acts in the Catholic
Church. Catholics believe that, upon consecration, the substance of the bread becomes the Body
of Christ and the substance of the wine becomes the Blood of Christ. Ordinarily, parishioners
are provided a wafer either in their hand or on their tongue, and at many churches those
parishioners are also provided with the option of receiving wine, all of which has spiritual
significance. However, in response to the pandemic and to ensure the safety of both parishioners
and the surrounding community, Holy Communion can no longer be taken on the tongue, and
wine is no longer distributed during Communion at all. These are significant restrictions of core
religious practices, but ones that our Diocese has adopted to ensure a proper balance between
religious exercise and public safety.
The Protocols Implemented By the Diocese of Brooklyn Have Ensured Safe Worship for
the Past Three Months Without Any COVID-19 Outbreak or Spread in Our Churches
14.

In the three months since the Diocese reopened its doors, pastors throughout

Brooklyn and Queens have informed me that they have seen a steady increase in the number of

5

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 6 of 10 PageID #: 66

people who seek to attend Mass or visit the church to pray. In fact, certain parishes have had to
rely on overflow rooms for parishioners attending Mass to ensure that attendance within the
church remains below the 25% threshold. These overflow rooms are subject to the same social
distancing protocols that apply to the actual churches.
15.

The safety protocols that we developed prior to reopening, and then implemented

upon reopening, have been successful. Since March, any pastor with a COVID-related question
or concern has been encouraged to raise such concerns directly with me, and been directed to
report any COVID-related incidents to me as well. Through this reporting structure, I would
know whether there have been any instances of COVID-19 spread in our churches. To my
knowledge, since our churches reopened in July for Mass and other religious ceremonies subject
to our safety protocols, there has not been any COVID-19 outbreak or spread in any of our
churches.
16.

As a result of this success, in recent weeks, I had been working with others to

develop plans to expand capacity at churches within the Diocese to 33% (as we were permitted
to do under the previously applicable government regulations). If not for our proven ability to
limit the spread of COVID-19 in our communities, I would not have felt confident planning and
preparing for an expansion of church capacity.
Governor Cuomo’s Order Would Devastate the Diocese of Brooklyn and
Our Community of Faith
17.

Pursuant to Governor Cuomo’s order, all houses of worship in a “red” zone would

be limited to the lesser of 25% capacity or a maximum of 10 congregants. The order also
requires that all houses of worship in an “orange” zone limit capacity to the lesser of 33% or a
maximum of 25 congregants.

6

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 7 of 10 PageID #: 67

18.

It is my understanding, based on a review of information promulgated by the

Governor’s Office, that there are 24 different churches in our Diocese that would fall into either
the red or the orange zone. There are 13 churches in the red zone, including St. Athanasius, Holy
Spirit, Our Lady Help of Christians, St. Francis de Chantal, St. Thomas Aquinas (Flatlands), St.
Edmund, Good Shepherd, St. Rose of Lima, St. Brendan, Our Lady of Grace, Queen of Peace,
Our Lady of the Angelus, and St. Mary Star of Sea. And there are 11 additional churches in the
orange zone: Our Lady of Refuge, Immaculate Heart of Mary, St. Vincent Ferrer, St. Rosalia –
Regina Pacis, St. Simon and Jude, Resurrection (Gerritsen Beach), Guardian Angel, St. Mark,
Our Lady Queen of Martyrs, St. Gertrude, and St. Nicholas of Tolentine.
19.

All of the churches in the red zone, and all but one of the churches in the orange

zone, can accommodate 500 or more people (the one other church in the orange zone seats 200).
Indeed, 12 of these churches—including four in the red zone—can accommodate 750 or more
people, and two churches in the orange zone seat over 1,000. Given the size of these churches,
the percentage caps are meaningless, because even the smallest church will be limited by the 10
or 25 person cap to well below 25% capacity.
20.

By capping capacity at either 10 or 25 parishioners, in churches with seating

capacities of between 500 and 1,200, the Governor’s order would effectively close these
churches: only a miniscule percentage of parishioners would be able to attend services, and it
would generally not be feasible to conduct public Mass for 10 or 25 people at a time. These
closures would be forced on us, notwithstanding the success of the Diocese’s measured and
carefully orchestrated reopening efforts to date.
21.

The cap on attendance and effective closure of these churches would be

excruciatingly painful for parishioners. As a community of faith, assembly in the Church is

7

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 8 of 10 PageID #: 68

extremely important. Physical attendance demonstrates that we belong to a single community:
when we gather in person, we show our support for each other and for our faith. For months, our
faith community had to sit at home and watch Mass on television, foregoing the sacrament of
Holy Communion and in-person worship. As noted above, this was devastating and spiritually
harmful, but necessary at the time due to the reality of the pandemic. The consistent but
controlled increase in church attendance since we reopened our doors in early July—even though
remote Mass is still available—reflects how our faith community needs in-person services for
their spiritual lives now more than ever.
22.

Yet it is not just Mass that would be affected and infringed upon by the

Governor’s order. Baptisms, weddings, and funerals are religiously and spiritually important
lifecycle ceremonies in which in-person, in-church participation is key to our faith and
community. The period of time during which these in-person services were not available to our
community members—when our priests had to preside over drive-by funerals—was extremely
difficult. We only recently began to reschedule many of the cancelled baptisms that had been
planned before the pandemic-related closure in March. The Governor’s latest reversal, going
back to the dark period in which gatherings in churches were effectively prohibited, would cause
irreparable harm to our parishioners and, without justification in our case, deny them their
constitution right to express their faith at Mass this Sunday.
23.

That the Governor’s order would allow for 10 in a “red” zone or 25 people in an

“orange” zone to enter a church is little consolation. There is simply no way for a priest to select
such a small group of parishioners from his congregation to attend Sunday Mass. Indeed, many
parishioners have only recently returned to their churches, and that many of the affected
churches could comfortably accommodate many more people while still adhering to strict social

8

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 9 of 10 PageID #: 69

distancing policies. In any event, we will continue to abide by the 25% capacity limitation that
the Governor previously imposed and which we have assiduously adhered to in the churches
within our Diocese.
24.

I want nothing more than for those in my religious community to be safe and well.

And I want the same for other religious communities as well. My heart goes out to those who
have seen spikes in the number of COVID-19 cases in their religious community. If there were a
spike in the number of COVID-19 cases in our community, I would be the first to call for
caution, just as the Diocese of Brooklyn voluntarily cancelled in-person services before the State
required us to do so in March. But that is not our community. Indeed, the Diocese of Brooklyn
has invested tremendous time and resources into ensuring that, once we received the go-ahead
this past July to reopen our church doors, those doors would remain open. And we have
succeeded in ensuring the safety of our parishioners ever since. It would therefore be a tragedy
to once again have to close those doors to our religious community when we have been doing
everything right, followed the Governor’s orders, made safety our priority, and succeeded in
keeping COVID-19 at bay within our churches.

9

Case 1:20-cv-04844-NGG-CLP Document 5 Filed 10/08/20 Page 10 of 10 PageID #: 70

EXHIBIT M
(Dist. Ct. Dkt. No. 5-1)

&9)*#*5"

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 1 of 59 PageID #: 71

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 2 of 59 PageID #: 72

3ULQWHGE\9LFDU*HQHUDOV2IILFH
7LWOH6XVSHQVLRQRIWKH'LVWULEXWLRQRI+RO\&RPPXQLRQ8QGHU%RWK)R

9LFDU*HQHUDO
)URP

9LFDU*HQHUDOV2IILFH

7R

9LFDU*HQHUDO

%FF

:HHNO\%XOOHWLQV

6XEMHFW

)ULGD\0DUFK$0
3DJHRI

)UL-DQ30

6XVSHQVLRQRIWKH'LVWULEXWLRQRI+RO\&RPPXQLRQ8QGHU%RWK)RUPV

'HDU3DVWRUVDQG$GPLQLVWUDWRUV
$ZDUHRIWKHLQWHQVHPHGLDFRYHUDJHFRQFHUQLQJWKHQHZVWUDQGRIWKHFRURQDYLUXVIURP&KLQDDQG
PLQGIXORIWKHHYHUZLGHQLQJH[WHQWRIWKH)OX6HDVRQKHUHLQWKH1HZ<RUN$UHDWKH%LVKRSRXWRI
DQDEXQGDQFHRIFDXWLRQLVVXVSHQGLQJWKHGLVWULEXWLRQRI+RO\&RPPXQLRQXQGHU%RWK)RUPV
ZLWKLQWKH'LRFHVHXQWLOIXUWKHUQRWLFH8SRQKLVGHFLVLRQRIIHULQJ+RO\&RPPXQLRQXQGHU%RWK
)RUPVLQWKH'LRFHVHZLOOUHVXPHZLWKKLVQRWLILFDWLRQ
7KHGLVWULEXWLRQRI+RO\&RPPXQLRQLQWKHKDQGZKLOHQRWEHLQJPDQGDWHGLVKLJKO\UHFRPPHQGHG
DWWKLVWLPH3DVWRUVDUHDVNHGWRKDYHSDULVKLRQHUVFRQVLGHUWKLVRSWLRQZLWKSURSHUH[SODQDWLRQ
DQGFDWHFKHVLVDJDLQUHPLQGLQJHYHU\RQHWKDWWKHVHPHDVXUHVDQGUHFRPPHQGDWLRQVDUHWDNHQ
RXWRIDQDEXQGDQFHRIFDXWLRQ
7KDQN\RX
6LQFHUHO\
2IILFHRIWKH9LFDU*HQHUDO
'LRFHVHRI%URRNO\Q
3URVSHFW3DUN:HVW
%URRNO\Q1<
7HO
)D[


1

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 3 of 59 PageID #: 73

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West ● Brooklyn, New York 11215 ● 718.399.5995 ● FAX: 718.399.5965

To:

Pastors & Administrators

From:

Most Reverend Raymond F. Chappetto

Re:

Cautions and Preventative Measures Regarding Coronavirus

Date:

March 4, 2020

In light of the increasing threat of the spread of the coronavirus, as well as the continuing flu
season, Bishop DiMarzio would like to reaffirm the cautions and preventative measures that should
be taken at liturgies in the Diocese of Brooklyn.
There is no place for fear or division in the celebration of a liturgy and so, desiring to keep our
communities together and united, these directives, previously issued, are now being reissued with
a greater urgency.
-It is VERY STRONGLY suggested that Holy Communion be received in the hand as long as
this threat continues. Pastors should advise the faithful that this is for the protection of all the
faithful who receive (not just the communicant) and the priest, deacon or extraordinary minister
who is distributing Holy Communion. Pastors could take the opportunity to instruct the faithful on
the correct and reverent way to receive the Eucharist in the hand.
-The distribution of the Precious Blood to the faithful has been suspended during this time.
-Extraordinary ministers of Holy Communion and indeed all involved in the liturgy should
disinfect their hands before the distribution of Holy Communion.
-The Roman Missal’s rubrics state that the priest or deacon should ask the faithful to exchange the
sign of peace “if appropriate.” Prudence suggests that this time is not, in fact, an appropriate time
to do so. Therefore, for the time being, after the general greeting “The peace of the Lord be with
you,” the liturgy should continue with the “Agnus Dei.”
-Holy water fonts should be emptied and cleaned on a regular basis. No one should feel obligated
to use holy water upon entering or leaving church nor should anyone feel obligated to greet the
celebrant (or one another) before or after Mass with a handshake.
Pastors are asked to inform their parishioners of these safety practices and explain why they are
being taken at this time in an over abundance of caution perhaps through the bulletin or
announcements at Mass.

2

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 4 of 59 PageID #: 74

OFFICIAL STATEMENT FROM THE DIOCESE OF BROOKLYN
CHURCHES & LITURGY
In an effort to be proactive in our response to the spread of the Covid 19 Virus, Bishop DiMarzio has
dispensed the faithful from the obligation to attend Sunday Mass until further notice.
Public Masses will be celebrated; however the faithful are urged to exercise caution and try to limit the
numbers of persons gathered. This is in an effort to be in compliance with the State’s regulations about
large public gatherings. This dispensation remains in effect until further notice.
Weekday Masses, too, will continue as usual with the normal precautions people should take when
gathering in public places. Other celebrations (such as weddings and funerals) may take place but
attendance should be limited. Celebrations such as Confirmations, First Penance, etc. may take place but
attendance should be strictly limited, perhaps including only family members. There is an option for an
Order for Confirmation without Mass, if this is desired. In these extremely difficult and challenging times,
our primary duty is to keep the faithful safe and healthy.
When gathering, the faithful are urged to take the necessary precautions including hand washing, remaining
at a safe distance from others and other safe practices, such as the reception of Holy Communion in the
hand.
SCHOOLS
The elementary Catholic Academies and Parish Schools in the Diocese of Brooklyn will close next week,
Monday, March 16 to Friday, March 20. Monday will be used as a professional day for teachers to develop
their distance learning plans. We anticipate that beginning Tuesday, children in the Diocese of Brooklyn’s
Academies and Schools will have access to online learning.
In addition, the leadership of all Catholic Academies and Parish Schools are committed to following CDC
guidelines regarding deep cleaning and sanitization of buildings.
This decision is being made out of an abundance of caution due to the rapidly changing situation and after
consultation with city and state agencies. Please continue to monitor your Catholic Academy and Parish
School websites next week for further updates.
RELIGIOUS EDUCATION PROGRAMS
All in-person parish religious education classes, all youth ministry classes and group meetings (including
all CYO activities) and all adult faith formation sessions (including RENEW and other small faith sharing
groups) will be cancelled until further notice. As previously stated, all Secretariat for Evangelization and
Catechesis classes, events, workshops, and other gatherings are also canceled during this period.
The health of all the faithful of the Diocese is of utmost concern, so let us continue to pray to the Lord Who
is a healer to protect us and bring about quickly an end to this present crisis.

3

ARRIVING AT CHURCH
1. The smell of disinfectant might be more prevalent
especially by the doors of the church. Parishes
have been asked to be more attentive to cleaning the

BEFORE LEAVING HOME
1. Ask yourself how are you feeling? Use common
sense, if you are not feeling well you should not
come to Mass. If you are genuinely sick you are not
obligated to participate in the Sunday Celebration of
Mass. You should stay home and rest so as not to
risk getting yourself even sicker or spreading germs
to others in the church. If you are sick you also
should not go out to a mall or movie theatre.
2. Wash your hands. Health care professionals are
insistent that washing one’s hands is the best
practice during flu season as well as this period of
concern about the Novel Coronavirus.
Wash your hands often with soap and water
for at least 20 seconds, especially after going to the
bathroom; before eating; and after blowing your
nose, coughing, or sneezing.
If soap and water are not readily available,
use an alcohol-based hand sanitizer with at least
60% alcohol. Always wash hands with soap and
water if hands are visibly dirty.

should be aware of or you might notice are a little different
these days at church.

Praying at Mass While Being Smart about the
Novel Coronavirus (COVID-19). Some things you

AT MASS
1. Pay attention to where you place your hands.
Many people place their folded hands on their face
or cover their eyes while praying in church. The
Centers for Disease Control and Prevention instructs
that you should avoid touching your eyes, nose, and
mouth. This holds true at church as well as in other
public spaces.
2. The exchange of the Sign of Peace among the
faithful is being discontinued. The rubric of the
Mass states that the priest or deacon should invite
the faithful to exchange the sign of peace “if
appropriate.” At this time, in light of the Novel
Coronavirus, the Diocesan Bishop has determined it
is not an appropriate time to do so. Therefore, for the
time being, after the general greeting “The peace of

doors and door handles of the parish buildings.
Some doors might even be left open that normally
are closed to diminish hand contact.
2. The Holy Water fonts might be empty. Parishes
have been instructed that Holy Water fonts should be
emptied and cleaned on a regular basis. No one
should feel obligated to use Holy Water upon
entering or leaving church. A mindful recognition of
entering the Lord’s Eucharistic Presence is most
important.
3. People might not extend their hands in greeting.
No one should feel obligated to greet the celebrant
(or one another) before or after Mass with a
handshake. Eye contact and a simple smile can be
even more welcoming than a hurried handshake.

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 5 of 59 PageID #: 75

4

6.

5.

4.

3.

the Lord be with you always,” and response “And
with your spirit” the liturgy should continue with the
Breaking of Bread and the “Lamb of God (Agnus
Dei).”
Before Holy Communion the ministers might
leave the church. All ministers involved in the
distribution of Holy Communion should disinfect
their hands before the distribution of Holy
Communion with vigorous handwashing with soap
for 20 seconds or by using an alcohol-based hand
sanitizer with at least 60% alcohol.
The Precious Blood is not being offered. The
distribution of the Precious Blood from the chalice
to the faithful has been suspended within the
Diocese during this time.
Everyone is receiving the Host at Holy
Communion in the Hand. It is very strongly
encouraged at this time that Holy Communion be
received in the hand. Please do not ask the minister
to place it directly onto the tongue. This commonsense adoption is to prevent the minister from
coming into contact with the individual's mouth and
then potentially contaminating the other Communion
Hosts. Reverence of the Sacrament is still
maintained as the Communicant approaches the
Sacrament and bows before receiving the Host.
After Holy Communion the ministers might leave
the church. All ministers involved in the
distribution of Holy Communion should disinfect
their hands after the distribution of Holy
Communion with vigorous handwashing with soap
for 20 seconds or by using an alcohol-based hand
sanitizer with at least 60% alcohol.
VIEWING MASS ON NET-TV
1. For those who are not attending Mass at this
time, you can watch Mass from the Diocese of
Brooklyn on NET-TV.
2. The Mass schedule on NET-TV is as follows:
Saturday – 6pm Vigil Pre-recorded from
Immaculate Conception Church in Jamaica
(English)
Sunday – 11am Live from St. James Cathedral in
Downtown Brooklyn (English)
Sunday – 1:30pm Pre-recorded from Co-Cathedral
of St. Joseph in Prospect Heights (Spanish)
NET-TV can be seen in the New York City area on
Spectrum (Channel 97), Optimum (Channel 30), and
FIOS (Channel 48). Viewers can also tune in online
at www.netny.tv.

AFTER MASS
1. The Celebrant and others might not extend their
hands in greeting. Mindful of yours and his wellbeing, the celebrant might not extend his hand in
saying good bye as you leave church. No one
should feel obligated to greet the celebrant (or one
another) before or after Mass with a handshake. Eye
contact and a simple smile can be even more
beneficial than a hurried handshake.

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 6 of 59 PageID #: 76

5

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 7 of 59 PageID #: 77

URGENT UPDATE FROM THE DIOCESE OF BROOKLYN
Given the continuing and growing concern about the spread of the COVID-19 virus, Bishop
DiMarzio has determined that all public masses be cancelled in the Diocese of Brooklyn
beginning Monday, March 16th, until further notice. This includes weekday masses as well as
Sunday. Funerals and Weddings will be permitted but should be limited to family members only.
Parish baptism celebrations should be limited to family only, if they cannot be postponed.
Confirmations should be celebrated with the Rite of Confirmation without Mass, if need be, and
in consultation with the Bishop scheduled to celebrate the Confirmation.
The faithful of the diocese are reminded that the Bishop has already issued a dispensation from
the obligation to attend Mass on Sunday. The obligation to keep the Lord’s Day holy can be
fulfilled by maintaining a prayerful attitude and through personal and family prayer.
The faithful are urged to watch the celebration of the Eucharist on TV, as well.
The celebrations are scheduled as follows:
Saturday at 6 pm: Vigil pre-recorded from Immaculate Conception in Jamaica (English)
Sunday at 11 am: Live from St. James Cathedral in Downtown Brooklyn (English)
Sunday at 1:30 pm: Pre-recorded from Co-Cathedral of St. Joseph in Prospect Heights (Spanish)
NET-TV can be seen in the New York City are on Spectrum (Channel 97), Optimum (Channel
30) and FIOS (Channel 48). Viewers can also tune in online at www.netny.tv.
In light of the continuing crisis, the situation is being monitored carefully and updates will follow.
Let us continue to pray, especially through the intercession of Our Lady of Guadalupe, for those
who are sick, for medical personnel and for all people as we confront this challenge.

6

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 8 of 59 PageID #: 78

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

CORONAVIRUS UPDATE FOR PASTORS
March 17, 2020
Bishop DiMarzio has requested that the following be provided to all Pastors and Administrators for your
information and for the benefit and safety of your parishioners.
OUTREACH TO PARISHIONERS
During this unprecedent time in the life our Diocese, where all public Masses are suspended, it is critical that
we continue to pray for the faithful and stay in contact with them where possible. The Church is concerned
for their physical and spiritual well-being. Pastors should actively call parishioners during the week to see
how they are, especially those with needs or those who may be isolated. Our Churches are open so that
parishioners can spend time with the Lord, but they may wish to speak with a priest, and priests should be
available to speak with individuals. Parishes might also email and use social media to stay in contact with the
faithful perhaps with reflections on the daily readings. Parishioners should be encouraged to call their priests
for spiritual guidance.
FINANCIAL CONSIDERATIONS
In order to assist Pastors and Administrators in managing their parish finances, and to provide temporary relief,
the Diocese will be delaying the St. John Vianney and the Good Shepherd invoices that are normally sent to
parishes at Easter. Parishes must continue to pay the invoices for the Group Medical Insurance Trust and all
other invoices.
The Catholic Foundation is available to assist with on-line giving and if parishes should request assistance. In
addition, Pastors and Administrators can contact the Catholic Foundation to request distribution of excess
funds that were raised above the parish goal. Parishes should look at ways to responsibly reduce and/or limit
expenses. The Human Resource Department is available to provide options and provide guidance. In addition,
the Office of Fiscal Management continues to be available to provide assistance. Lastly, Pastors and
Administrators should keep all receipts, invoices, and paid checks for any expenses that they incur for cleaning
of church and/or school buildings in case funds become available.
FUTURE UPDATES
More information will be forthcoming in the near future regarding parishes. Please know that we are aware of
your many concerns during this unprecedented time. Pastors are encouraged to be in regular contact with their
local Dean, and they are always able to contact the Vicar General at 718.965.7300 ext.1070.
The Diocesan Offices will be closed as of Wednesday, March 18, 2020 but employees will be available to you
for questions and concerns. All are working remotely, so we thank you for your understanding and patience as
we travel these uncharted waters together. A listing of Diocesan departments will be sent to parishes.
Let us continue to pray for healing, strength and courage as we continue to serve God’s people in Brooklyn
and Queens during this crisis. May Our Lady intercede for us.

7

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 9 of 59 PageID #: 79

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

CORONAVIRUS UPDATE FOR PASTORS
March 19, 2020
The situation is changing rapidly and daily, if not more quickly, please continue to be attentive to all the memos
that are sent. Each memo contains information which may be new. Please share this information with all the
priests in your rectory, as well.
Bishop DiMarzio has requested that the following be provided to all Pastors and Administrators for your
information and for the benefit and safety of your parishioners. Please read it carefully and know that we are
monitoring the situation closely and will present updates and clarifications as needed.
Today, Bishop DiMarzio had conference calls with all the deans in the Dioceses. The following information
is a result of discussion with the deans.
CHURCHES: NEW MANDATES!
x

Because of the ongoing danger of groups gathering and the possibility of the virus spreading in this
way, we are MANDATING churches to remain closed. Some parishes have already found it necessary
to do this and, in light of the proximity of our parishes to each other, it is thought best to have a
consistent policy in the entire diocese. THIS IS EFFECTIVE AS OF MARCH 20, 2020 at NOON.

x

At this time, too, we are MANDATING parish offices to close for business in an attempt to keep
people in their homes as much as possible for their own health and wellbeing. Most parish office
business can be conducted by telephone. Those who can work from home should do so. THIS IS
EFFECTIVE AS OF MARCH 20, 2020 at NOON.
PASTORAL CONCERNS

x

Bishop DiMarzio has granted all the faithful of the Diocese of Brooklyn a dispensation from the law
of abstinence for the Fridays of Lent for this year. This is being done to assist people who may have
difficulties in shopping for food or other reasons which would make this practice difficult at this time.
Please remind parishioners that the Fridays of Lent (and indeed all year) remain days of penance and
prayer and that this is needed now more than ever.

x

Out of an abundance of caution especially the most vulnerable, Funerals and weddings will not be
permitted in church. This is because limiting the funerals and weddings to 10 people is proving not to
be feasible. If absolutely necessary, a graveside service, maintaining the recommendations of the CDC
regarding social distancing, could be done, at the discretion of the cemetery administration. A memorial
Mass for the deceased should be celebrated later. Weddings should be postponed.

x

We are attaching a flyer which you can adapt for your needs with the suggestion that they can be
attached to your church doors. The first page is for your own personalization and there are choices for
a second page. Both pages could be posted side by side.
1

8

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 10 of 59 PageID #: 80

x

We must also remind pastors and administrators of the precautions that should be taken when hearing
confessions. These should be limited to emergencies only and while it is necessary for the confession to
be one-on-one and in person, social distancing measures should be observed. A suggestion might be to
hear a confession outdoors where the priest and penitent can be at some distance from each other. We also
remind priests that spiritual counseling should be given over the phone only. In general we encourage
priests to be in contact with their parishioners over the phone or by social media while respecting safeenvironment protocols.
CATHOLIC CHARITIES

x

Catholic Charities is available for assistance, if needed. The Call Center number is 718-722-6001,
Monday through Friday from 9 am to 6 pm. Information is available about food pantries and about
mental health services. The mental health centers have the capacity to offer counseling over the phone.
COMMUNICATIONS

x

Every pastor, priest, and pastoral staff member in the diocese will be migrating from First Class to
Microsoft Outlook 365 for our email needs. You will receive information on how to make the change
tomorrow. Everyone must make this change. It is essential now in order for us to update our email and
cell phone number list. Please follow the instructions you will receive from the Office of Information
Systems.

x

Attached you will also receive a memo of all the extension numbers for all diocesan offices so that you
may remain in communication with diocesan personnel as needed.

x

Please read your emails daily for updates.
FINANCES

x

It is suggested that pastors and administrators arrange a conference call with the members of their Finance
Councils in order to explain the steps that are being taken to assure the financial health of the parish as
well as to obtain their advice.

x

There is also the possibility of setting up “Robo-calls” to provide parishioners with information. For
assistance please contact the Catholic Foundation of Brooklyn and Queens at 718-965-7375.

We are all committed to serving the Faithful of the Diocese of Brooklyn during this difficult time.
Saint Joseph, Patron of the Universal Church, pray for us!

2

9

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 11 of 59 PageID #: 81

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West ● Brooklyn, New York 11215 ● 718.399.5995 ● FAX: 718.399.5965

To:

Pastors & Administrators

From:

Most Reverend Raymond F. Chappetto

Re:

Official Statements from the Diocese of Brooklyn (March 20 to March 26)

Date:

March 26, 2020

Please see enclosed for official diocesan statements from March 20 to March 26 regarding the
Coronavirus.
Thank you.

10

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 12 of 59 PageID #: 82

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

CORONAVIRUS UPDATE FOR PASTORS
March 20, 2020
The following is the information which Bishop DiMarzio has requested be provided today to all Pastors
and Administrators for your information and for the benefit and safety of your parishioners. Please read it
carefully and know that we are monitoring the situation closely and will present updates and clarifications
as needed.
Please know that beginning with this communication, you will also be receiving attachments to these
updates from various diocesan agencies. This is in an effort to consolidate information and to present it
in a unified and manageable way.
EMPLOYMENT ISSUES
Please see the attached communication from the Office of Human Resources for recommendations about
various issues concerning parish staffing during the corona virus crisis. For more information about these
issues, please contact the Office of Human Resources at 718-965-7362.
PARISH AND SCHOOL BUILDINGS
Please see the attached memo from Rocklyn Assets Corp. regarding the care of parish and school buildings
and the possibility of shutting down heating systems for the season as a cost saving measure.
COMMUNICATIONS FROM ROME
The Vatican issued three documents today. This is a summary:
The Congregation of Divine Worship and Discipline of the Sacraments published a decree in the time
of Covid-19 concerning Holy Week. In addition to enumerating how the rites would be carried out, it gives
priests the faculty to celebrate the Triduum without the participation of the people. Those bound to pray
the Divine Office who do not take part in the various celebrations of the Triduum are reminded that they
are to celebrate the Liturgy of the Hours that are usually replaced by the Triduum Liturgies: Vespers on
Holy Thursday and Good Friday, and the Office of Readings on Easter.

The Apostolic Penitentiary published a decree about special indulgences to the faithful in the current
pandemic.

The Apostolic Penitentiary also published a note on the Sacrament of Reconciliation in the current
pandemic that affirms “it is always up to the diocesan bishop to determine, in the territory of his own
ecclesiastical circumscription and with regard to the level of pandemic contagion, the cases of grave
necessity in which it is lawful to impart collective absolution.” In the near future, more guidance will be
given. 
1

11

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 13 of 59 PageID #: 83

CATHOLIC SCHOOLS AND ACADEMIES
Please know that the Office of the Superintendent has sent memos to the Principals and the Board Chairs
regarding School Building Closures and School and Academy Finances. School Buildings have been closed,
without exception, as of 5 PM this evening. You will find attached a memo that was sent to Principals and
Board Chairs.
POSSIBLE LEGISLATION TO ASSIST PARISHES AND SCHOOLS
There is the possibility of legislation being passed in Washington which will be beneficial to parishes and
school with regard to financial difficulties. This is pending and in development. We will update you as more
information becomes available.
IMPORTANT REMINDER CONCERNING OVERNIGHT GUESTS IN RECTORIES
At this time, there should be no overnight guests in rectories. This policy is especially critical during this
pandemic event. Under extreme necessity, if a guest must stay in the rectory, you must contact Monsignor
Anthony Hernandez for permission prior to the arrival. Violation of this policy may result in canonical
sanctions.
Let us continue to pray for healing, strength and courage as we continue to serve God’s people in Brooklyn
and Queens during this crisis. May Our Lady intercede for us.

2

12

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 14 of 59 PageID #: 84

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

CORONAVIRUS UPDATE FOR PASTORS
MARCH 24, 2020
Bishop DiMarzio has requested that the following information be provided today to all Pastors
and Administrators so that it may be communicated to parishioners:

Our Holy Father, Pope Francis, has asked all Christians worldwide “to unite their voices toward
heaven.”
In order to do this, he has asked all Christians and the heads of all Christian Churches and
leaders of all Christian communities the world over to unite in prayer.
To do this, he invited all Christians to join in praying the Lord’s Prayer (the Our Father)
at noon in Rome on WEDNESDAY, MARCH 25 th , 2020. This is 7 AM (Eastern Daylight
Time).
This is the feast of the Annunciation of the Lord. The Holy Father stated, “On the day in which
many Christians recall the annunciation to the Virgin Mary of the Incarnation of the Word,
may the Lord hear the unanimous prayer of all his disciples who are preparing to celebrate the
victory of the Risen Christ.”
On Friday, March 27 at 1 PM (Eastern Daylight Time) the Holy Father will offer prayers
and an extraordinary “Urbi et Orbi” Blessing. The Holy Father stated, “I invite everyone
to participate spiritually through the means of communication.”
Information and broadcast can be found at www.vaticannews.va

13

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 15 of 59 PageID #: 85

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

Extraordinary Urbi et orbi Blessing
Please communicate the following information to your parishioners.
On Friday, March 27, 2020, the Holy Father, Pope Francis, will impart an extraordinary Urbi et
orbi blessing (“Blessing to the ‘City’ and to the World). This blessing is normally given at
Christmas and Easter.
The Blessing carries with it the possibility of the Faithful who are suffering from the Coronavirus
and their Caregivers to obtain a plenary indulgence, under the usual conditions, if they listen live
to the broadcast by whatever means.
The decree issued by the Apostolic Penitentiary states, in part:
“The Plenary Indulgence is granted to the faithful suffering from Coronavirus, who are subject to
quarantine by order of the health authority in hospitals or in their own homes if, with a spirit
detached from any sin, they unite spiritually through the media to the celebration of Holy Mass,
the recitation of the Holy Rosary, to the pious practice of the Way of the Cross or other forms of
devotion, or if at least they will recite the Creed, the Lord's Prayer and a pious invocation to the
Blessed Virgin Mary, offering this trial in a spirit of faith in God and charity towards their brothers
and sisters, with the will to fulfill the usual conditions (sacramental confession, Eucharistic
communion and prayer according to the Holy Father's intentions), as soon as possible.”
As a reminder, an indulgence is not forgiveness from sin but a remission of the temporal
punishment due to sin. The Catechism defines it as follows: An indulgence is
a remission before God of the temporal punishment due to sins whose guilt has already
been forgiven, which the faithful Christian who is duly disposed gains
under certain prescribed conditions through the action of the Church which, as
the minister of redemption, dispenses and applies with authority the treasury of
the satisfactions of Christ and the saints.
An indulgence is partial or plenary according as it removes either part or all of
the temporal punishment due to sin. Indulgences may be applied to the living or the dead.
(Catechism 1471)
With regard to sacramental confession, it is important to remember that there should only be
emergency confessions, which take place maintaining the safeguards recommended by the civic
authorities concerning social distancing. The conditions for General Absolution do not exist in the
Diocese except in cases such as emergency rooms or hospital wards where priest chaplains are
present. The usual conditions for general absolution apply.
The Holy Father has stated that if someone is in need of forgiveness for sin and cannot approach
a confessor personally, that person need simply turn to the Merciful Father and ask pardon for sin,
with true contrition in his or her heart.
THE URBI ET ORBI BLESSING WILL TAKE PLACE AT 1 PM (EDT). Live coverage will
begin at 12:45 pm when Bishop DiMarzio will speak and can be seen on NET-TV on
SPECTRUM channel 97, OPTIMUM channel 30 and FIOS channel 48.

14

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 16 of 59 PageID #: 86

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West ● Brooklyn, New York 11215 ● 718.399.5995 ● FAX: 718.399.5965

To:

Pastors & Administrators

From:

Most Reverend Raymond F. Chappetto

Re:

Special Notice for Reporting Coronavirus Confirmed Cases

Date:

March 27, 2020

If your church or another parish building has been exposed to Coronavirus by a confirmed case of
an employee, parishioner or someone using the building, please immediately contact Bishop
Raymond Chappetto, Vicar General, at (718) 965-7300 ext.1070.
Thank you.

15

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 17 of 59 PageID #: 87

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

MEMO TO DIOCESAN CHAPLAINS
Bishop DiMarzio has asked that the following information and directives be shared with all diocesan
chaplains, including hospital chaplains, nursing home chaplains, and prison chaplains.
In an effort to assist in the enforcement of social distancing norms, we ask that all chaplains be aware of
the need to take necessary precautions when attending to the sick, the elderly or whomever they are serving.
1. Chaplains must follow the guidelines set by the institution they are serving. If a nursing home
or hospital is limiting entry or banning it altogether or if there are limitations as to areas the
chaplain may enter, this MUST be strictly observed by chaplains.
2. If entry is permitted, chaplains MUST wear protective gear per the institution’s directives. This may
include masks, gloves or other protective clothing. Chaplains must observe the proper protocol for
discarding these items when finished.
3. Anointings may take place; however, the following precautions must be observed.
a. The holy oil may be placed on a cotton ball BEFORE entering the room. The oil stock should
remain outside the room to prevent contamination.
b. Aside from the obvious necessity of drawing close to the patient when anointing, the
chaplain should maintain social distancing norms.
c. The anointing may take place using the cotton ball as the canons permit an “instrument” to
be used in grave necessity.
d. The anointing should be celebrated as quickly as possible maintaining a pastoral spirit.
(Short forms of prayers in emergency should be used).
e. After the anointing, the cotton ball should be contained (in plastic) until it can be reverently
and properly disposed of (by burning or burying).
f. The Apostolic Blessing should be given, especially if absolution cannot be given. This
carries with it a plenary indulgence with perfect contrition on the part of the patient.
4. Confessions may be by General Absolution. This may be carried out in a ward or emergency room
by priest hospital chaplains where all those desiring absolution will be able to hear.
a. The Bishop must be informed of the General Absolution.
b. The rite in the Ritual is to be followed as well as possible, given the circumstances.
5. Other confessional situations must be for emergencies only, maintaining the proper social
distancing norms. The faithful should be reminded that a perfect Act of Contrition and doing acts of
penance with trust in the mercy of God will suffice during this challenging time.
Our chaplains are in our prayers as they battle on the front lines. Their health and well-being are of
utmost concern to the Bishop. In all circumstances, safety is a top priority for the patients and for the
chaplains, while striving to be as pastorally present as possible.
1

16

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 18 of 59 PageID #: 88

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

Bishop DiMarzio has asked that the following information be sent to all priests living in the
Diocese of Brooklyn:
BELLS OF HOPE
As we approach the Easter Season, in which we celebrate the Resurrection of our Lord from the dead,
which is the reason for our hope, the Bishop of Brooklyn is strongly encouraging that, during this COVID19 pandemic, every parish in Brooklyn and Queens that has outdoor bells should ring them at 3 PM daily,
beginning Friday, April 3 and continuing until further notice, commemorating the hour of the death of the
Lord and of Divine Mercy. The faithful should be encouraged to pray in silence at that time.
This initiative, which is called “Bells of Hope” is meant to be a symbol of solidarity with the faithful, as well as
with all who are suffering during this crisis, especially those who have died and the first responders who put their
lives at risk on a daily basis.
THE WELL-BEING OF PRIESTS DURING THE PANDEMIC
The COVID-19 pandemic has affected us all in many ways. Some priests are sick, some are living with people
who are sick and all of us have felt the frustration of not being able to be present to our people the way priests
ought to be.
A major concern is the health and well-being of the priests in the diocese during the pandemic. It is of utmost
importance that priests take good care of themselves in order for them to be able to serve the people of God.
What follows are some thoughts for priests to consider at this time. Remember that taking care of yourself is
ultimately the best way to be in a position to take care of the faithful.
DEFINITIONS
The following, from Johns Hopkins University, is helpful in understanding definitions and parameters:
“People who have been exposed to the new coronavirus and who are at risk for coming down with COVID-19
might practice self-quarantine. Health experts recommend that self-quarantine lasts 14 days. Two weeks
provides enough time for them to know whether or not they will become ill and be contagious to other people.
Self-quarantine involves:
x
x
x
x
x

Using standard hygiene and washing hands frequently
Not sharing things like towels and utensils
Staying at home
Not having visitors
Staying at least 6 feet away from other people in your household
1

17

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 19 of 59 PageID #: 89
For people who are confirmed to have COVID-19, isolation is appropriate. Isolation is a health care term that
means keeping people who are infected with a contagious illness away from those who are not infected. Isolation
can take place at home or at a hospital or care facility. Special personal protective equipment will be used to care
for these patients in health care settings.”

MAINTAINING GOOD HEALTH IN RECTORIES
Most, if not all, priests have already been exposed to COVID-19 given the very fact of our ministry to the faithful.
Those who knowingly have had direct exposure to someone with COVID-19 must enter quarantine, adhering to
the directives of the Centers for Disease Control and governmental agencies. This is to see if they develop
symptoms. If they do develop symptoms, they must contact their doctor immediately.
Because of the likelihood that many priests have had some exposure, we all should engage in good practices
limiting our time out of the rectory.
Priest who are ill must isolate. This means that, if they are in the rectory, they must remain in their private
quarters. Food must be brought to them (left outside their doors), their utensils must be washed carefully or
disposable utensils should be used, and anyone who interacts with them must maintain social distancing and wear
a mask and gloves.
We are looking into how priests might be able to get tested for COVID-19 if need be. More information on this
will follow.

SOCIAL INTERACTION & MENTAL HEALTH
Priests are asked to be especially careful if they must go out. This is because many priests live with other priests
and there are risks not just to himself but to those with whom he lives. As difficult as it may be, priests are being
asked to stay in as much as possible. While this may be a sacrifice, it is something we must do, setting an example
for others and doing what we must do to safeguard our health.
In rectories, priests are asked to practice proper hygiene and cleaning for everyone’s benefit. This includes being
attentive to our mental health. While we are living through stressful times, we must all remember that we are here
for each other and must look out for one another. The rectory community is important now, more than ever! At a
time when we are limited in what we can do in ministry, we must rely on each other all the more. It is not healthy
to completely isolate oneself (except in the medical sense) from those with whom we are living.
A walk outside (with proper precautions and social distancing) is a good thing. Meals together, prayer together,
conversations, and even watching a movie together are some ways of being there for one another. Phone calls,
emails, and text messages to other priests, neighbors and friends, are helpful.

2

18

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 20 of 59 PageID #: 90
Priests who live alone must consider their situations during this period of crisis. Others should remember to check
in on them. It may even be possible for a priest living alone to move into another rectory for a period of time,
with the permission of the Bishop.
The following information has been provided by Saint Luke’s Institute:
x

Mental Health Helpline for Clergy & Religious: Call 301-273-4519, M-F, 10 am-7:00 pm (ET)

x

Free Resources are available from SLI Connect, (www.sliconnect.org), the education ministry of Saint
Luke Institute (www.sli.org).

x
Managing Coronavirus Anxiety: (Practical strategies for managing the psychological impact of the
coronavirus pandemic. https://www.sliconnect.org/managing-coronavirus-anxiety/
x

Resiliency in Times of Crisis: FREE resources for building resiliency and managing emotional and
spiritual health. www.SLIconnect.org/resiliency

Please remember in your prayers our brother priests who are sick at home or in hospitals.
SPIRITUAL HEALTH
The following information is from The Sacred Heart Institute for the Ongoing Formation of Clergy. A new
initiative called “A Shepherd’s Care” has been started with the goal of attending to our spiritual and human needs.
Presentations include issues of current concern by various presenters. Log on to https://cor-jesu.org/a-shepherdscare/
Sacred Heart Institute Website: www.cor-jesu.org
Two virtual retreats will be presented next week as well. Msgr. Thomas Caserta has presentations for Monday,
Tuesday and Wednesday of Holy Week and Msgr. David Toups, Rector of St. Vincent de Paul Seminary, will
offer reflections for the days of the Triduum. They are recorded and can be viewed at any time.
LITURGICAL NOTES
Attached are two liturgical resources from the Holy See. The first resource is an additional text for the General
Intercessions of Good Friday. It becomes the tenth (X) intercession and the usual tenth (X) intercession becomes
the final one. This intercession supersedes the one given previously to you from the USCCB. The second
resource is proper readings and texts for a Mass in Time of Pandemic. Please note that this Mass can be celebrated
this week April 2, 3, 4 and then not again until April 20, 2020.
Please note, too, that the liturgical attachments are lengthy (over 20 pages) and include texts in English, Spanish
and Latin. Use these at your discretion and print what you will need. 

3

19

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 21 of 59 PageID #: 91

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

BISHOP’S ADDRESS TO PRIESTS ON HOLY THURSDAY
SCHEDULED FOR APRIL 9, 2020
Bishop DiMarzio will record an address to the priests of the Diocese of Brooklyn which will be available on Holy
Thursday. All priests are asked to watch this video presentation for an important message from our Bishop.
Information will be sent to you by text message.
PRAYING THE LITANY OF THE SACRED HEART OF JESUS
ON GOOD FRIDAY AT NOON
PLENARY INDULGENCE
By a special grant from the Apostolic Penitentiary of the Holy See for those who pray for the end of the pandemic,
a plenary indulgence is available for those who join Archbishop Gomez (the President of the USCCB) in praying
the Litany of the Sacred Heart on Good Friday at NOON. A plenary Indulgence removes all of the temporal
punishment due to sins and may be applied to oneself or to the souls of the deceased [Catechism of the Catholic
Church, no. 1471].
To receive this indulgence, a member of the faithful would need to
1. pray the Litany of the Sacred Heart on Good Friday
2. be truly repentant of any sins they have committed and receive the Sacrament of Reconciliation (at the
earliest opportunity)
3. pray for the Holy Father’s intentions.
As an aid to this call to prayer, please find at the following links a prayer card of the Litany of the Sacred Heart
of Jesus, as well as a promotional flyer for the occasion:
Spanish: https://lacatholics.org/wp-content/uploads/2020/04/Litany-of-the-Sacred-Heart-Spanish.pdf
English: https://lacatholics.org/wp-content/uploads/2020/04/Litany-of-the-Sacred-Heart-English.pdf
Flyer (English): https://lacatholics.org/wpcontent/uploads/2020/04/AnnoucementGraphic_USCCB_English.png
REMINDER ABOUT “BELLS OF HOPE”
Please remember that we are ringing our church bells every day at 3 pm (including Good Friday) as a reminder
to people to pray during this time for those who are suffering from the effects of the pandemic: the sick, those
who care for them and all first responders and for an end to the pandemic.
1

20

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 22 of 59 PageID #: 92
Thank you for making this known to parishioners who may join in a moment of prayer, even if they do not hear
the bells. Brooklyn and Queens are at the epicenter of the crisis in New York City so this is an important initiative
for uniting the faithful in prayer.
WEDDINGS IN GRAVE NECESSITY
If a wedding cannot be postponed, for the gravest of reasons, it could be celebrated with the necessary
precautions (social distancing, proper hygiene, avoidance of crowds etc.) Present at the wedding should be ONLY
the officiant (priest or deacon), the couple, the witnesses and possibly the parents. Please note, however, that the
marriage license office, as of the date of issuing this memo, is closed. These directives are only for a wedding
which must take place and cannot be postponed.

2

21

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 23 of 59 PageID #: 93

BISHOP DIMARZIO’S MESSAGE FOR DIVINE MERCY SUNDAY
Bishop DiMarzio will be sending out an email to the faithful of the Diocese of Brooklyn for Divine
Mercy Sunday. Please look for it in your inbox.

FINANCIAL INFORMATION AND UPDATES
Services provided by Grassi from the Engagement Letter for Consulting Services:
Deliverables: Necessary documentation and advice and counsel through final
application and loan forgiveness claim submission by Parishes.
Oversee the Paycheck Protection Program loan application process through approval and funding:
x Grassi provided a webinar on Tuesday March 31, 2020 describing the PPP. Engagement
letters were subsequently submitted to all parishes.
x Grassi assigned a staff person as the liaison with the Parish.
x Grassi assisted the Parish in consulting on accumulating supporting documentation.
x Grassi prepared financial analysis and advise on loan amount.
x Each Pastor applied for the loan
x The Pastor communicates with the bank through the approval and deposit of funds process.
Grassi is available to answer questions that come up through the Pastor-Bank steps.
Application and overseeing loan forgiveness submission by Parish
x For Parishes engaged with Grassi, over the next two weeks Grassi will provide a webinar
that will provide an overview of the process to submit an application for debt forgiveness.
It will include information on the documentation that will be required.
x Grassi will advise on the accumulation of Parish’s loan forgiveness documentation for
claim requests after measurement period.
x Grassi will monitor government regulations and will advise each Parish.
x Grassi will consult with the Parish as each parish submits forgiveness claim submission.
The Office of Fiscal Management (OFM) is continuing to assist parishes during the Covid-19.
Parishes that have questions and need additional assistance are requested to contact the Office of
Fiscal Management. Representatives from OFM continue to email and call parishes during this
time.

2

22

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 24 of 59 PageID #: 94
COVID-19 PASTOR PORTAL
A website has been developed to contain all the information (past and present) to the pastors and
administrators of the diocese regarding the Coronavirus pandemic and its effects. The goal of
creating this website is to give pastors easy access to all information and to provide one place to
see all the information provided to you from all sources in the diocese. The site will prioritize
information for you and will be accessible even from mobile devices.
You are invited to log in to the website by entering the following address into your browser:
https://covid-19.dioceseofbrooklyn.org/
The site will not require a password, so please be aware that any highly sensitive information will
still be emailed to pastors and administrators.

CATHOLIC CHARITIES RESOURCES
Catholic Charities Brooklyn and Queens continues to operate during Covid-19. Parishes are
advised to have individuals needing help to direct them to the Catholic Charities website
www.ccbq.org for more information and locations. In addition, individuals can call the Catholic
Charities Call Center (718) 722-6001 for help.
x On Friday April 17th, Catholic Charities Brooklyn and Queens had Emergency Pop-Up
Food Pantry on Friday April 17th at Our Lady of Sorrows Church in Corona, Queens, and
distributed 9,000 plus meals worth of food in Corona.
x Last week Catholic Charities Brooklyn and Queens distributed 7,000 meals worth of
food at another Pop-Up Emergency Food Pantry.
x The existing Catholic Charities food pantries are distributing nearly 100,000 meals worth
of food and have seen a dramatic increase in demand.
x In addition, Catholic Charities is delivering 8,000 hot meals to seniors.

ADDITIONAL HEALTH RESOURCE
The following information from Saint John Vianney Center is provided for your continued
physical and emotional health and well-being.
See: https://www.sjvcenter.org/covid-19-resources/

3

23

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 25 of 59 PageID #: 95


2)),&(2)7+(9,&$5*(1(5$/
DIOCESE OF BROOKLYN

3URVSHFW3DUN:HVW%URRNO\Q1HZ<RUN
Ɣ)$;




April 24,

'LRFHVDQ'LUHFWLYHVIRUWKH7LPHRI3DQGHPLF
5HJDUGLQJ6DFUDPHQWVDQG&KXUFK3URFHGXUHV

$FFRUGLQJWRWKH1HZ<RUN&LW\'HSDUWPHQWRI+HDOWKDVRI$SULOQGWKHUHZHUHFDVHVRI&RYLG
LQ%URRNO\QDQG4XHHQVZKLFKUHSUHVHQWVQHDUO\RIDOOFDVHVLQ1HZ<RUN&LW\'XULQJWKLVWLPH
RI WKH &29,'3DQGHPLF ZHPXVW WDNHGLUHFWLRQIURP SXEOLF KHDOWKDXWKRULWLHVLQ RUGHU WR OLPLWWKH
VSUHDGRIGLVHDVHDQGWRSURWHFWWKHKHDOWKRIWKHIDLWKIXORIWKH'LRFHVHRI%URRNO\QDVZHOODVWKDWRIWKH
FOHUJ\

7KH'LRFHVHILQGVLWVHOIDWWKHHSLFHQWHURIWKHFULVLVZLWK%URRNO\QDQG4XHHQVEHLQJWKHFHQWHURIWKH
RXWEUHDNLQWKH1HZ<RUN&LW\7KHIDFWLVWKDWZHPXVWWU\WRGRDOOZHFDQWRVHUYHWKH3HRSOHRI*RG
ZKLOHDOVRSURWHFWLQJDVPXFKDVSRVVLEOHWKHLUSK\VLFDOKHDOWK:KLOHLWLVWUXHWKDWZHDOOUHDOL]HWKDWZH
DUHSUHSDULQJIRUHWHUQLW\ZHDOVRUHDOL]HWKDWLWLVLUUHVSRQVLEOHWRULVNWKHJLIWRIOLIHWKDW*RGJLYHVXV

)RUWKLVUHDVRQWKHIROORZLQJGLUHFWLYHVDUHLQSODFHIRUSDULVKHVLQ%URRNO\QDQG4XHHQVGXULQJWKHWLPH
RIWKHSDQGHPLFDQGXQWLOWKH'LRFHVHRI%URRNO\QXVLQJWKHJXLGDQFHRIPHGLFDOH[SHUWVDPHQGVWKHVH
WHPSRUDU\SROLFLHV

&HOHEUDWLRQRIWKH(XFKDULVWDQG5HFHSWLRQRI+RO\&RPPXQLRQ0DVVLVEHLQJFHOHEUDWHGLQVHYHQ
ODQJXDJHVRQ1(7±79DQGLQQXPHURXVOLYHVWUHDPDQGUHFRUGHGEURDGFDVWVLQWKH'LRFHVH:KLOHWKHVH
DUHDOOODXGDEOHHIIRUWVZHPXVWDOVREHFRJQL]DQWRIWKHHIIHFWWKH\PLJKWKDYHRQSHRSOH:HFDQQRWLQ
RWKHUZRUGVEHFRPHWRRFRPIRUWDEOHZLWKLW:KLOHWKHVHFHOHEUDWLRQVVKRXOGSUREDEO\FRQWLQXHHYHQDIWHU
WKHUHVWULFWLRQVRQJDWKHULQJDUHOLIWHGZHPXVWFRQWLQXHWRHPSKDVL]HWRWKHIDLWKIXOWKHLPSRUWDQFHDQG
QHFHVVLW\RIJDWKHULQJDVDFRPPXQLW\ZKHQZHILQDOO\DUHDEOHWRGRVR

:KHQZHDUHZHZLOOXQGRXEWHGO\EHDVNHGWRPDLQWDLQVRFLDOGLVWDQFLQJUXOHV7RWKDWHQGLWZRXOGEH
EHQHILFLDOQRZWRXQGHUVWDQGWKHQXPEHUVRXUFKXUFKHVFDQDFFRPPRGDWHZLWKWKHVHSDUDPHWHUVVL[IHHW
RIGLVWDQFHEHWZHHQSHUVRQVLQDSHZZLWKHYHU\RWKHUSHZEHLQJXWLOL]HG3HUKDSVWKHVHVSDFHVFRXOGEH
PDUNHGRIILQVRPHZD\VRWKDWZHFDQJHWDQLGHDRIZKHUHZHZRXOGVWDQGZKHQZHFDQJDWKHU

$WWKLVSRLQWDQGXQWLOIXUWKHUQRWLFHQRSXEOLFFHOHEUDWLRQVRIWKH(XFKDULVWDUHSHUPLWWHG

7KHFKXUFKHVLQ%URRNO\QDQG4XHHQVDUHWRUHPDLQFORVHGHYHQIRUSULYDWHDQGLQGLYLGXDOYLVLWV:KLOH
WKH'LRFHVHLVXQLTXHLQWKLVGLUHFWLYHLQ1HZ<RUN6WDWHLWLVDQHFHVVDU\GLUHFWLYHVLQFHZHDUHDWWKH
HSLFHQWHURIWKHFULVLV,WSURYHGLPSRVVLEOHDWWKHEHJLQQLQJRIWKHVKXWGRZQWRPDLQWDLQVPDOOFURZGVLQ
RXUFKXUFKHVHVSHFLDOO\LQWKHDUHDVRIWKH'LRFHVHZKLFKODWHUSURYHGWREHDWWKHKHDUWRIWKHVSUHDGRI
&29,'7KLVGLUHFWLYHLVWRSURWHFWSHRSOH¶VKHDOWKDQGZKLOHLWLVSDLQIXOWRVD\WKHOHDVWWRVHHDFORVHG
FKXUFKLWLVQHFHVVDU\7KH'LRFHVHZLOOFRQWLQXHWRPRQLWRUWKHVLWXDWLRQDQGZLOOEHXSGDWLQJSDVWRUVLQD
WLPHO\IDVKLRQ








24

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 26 of 59 PageID #: 96
%DSWLVPV%DSWLVPVVKRXOGEHSRVWSRQHG:KLOHWKHFXUUHQWWKLQNLQJLVWKDWLWPLJKWEHSRVVLEOHWREHJLQ
VFKHGXOLQJ WKHP VRPHWLPH LQ WKH VXPPHU LW LV WRR HDUO\ WR WHOO $JDLQ WKH GLUHFWLYHV RI VWDWH DQG FLW\
RIILFLDOVUHJDUGLQJJDWKHULQJVZLOOEHREVHUYHG2EYLRXVO\HPHUJHQF\EDSWLVPV XVXDOO\LQKRVSLWDOV WDNH
SODFHZLWKWKHQHFHVVDU\SUHFDXWLRQV

5&,$ ,GHDOO\ ZH FRXOG ORRN WRZDUGV 3HQWHFRVW DV D JRRG WLPH IRU WKH UHFHSWLRQRI WKH VDFUDPHQWV RI
LQLWLDWLRQWRWDNHSODFH+RZHYHULWPLJKWEHODWHU2QFHDJDLQWKLVZLOOGHSHQGRQ'LRFHVHRI%URRNO\Q
DQG EDVHG RQ UHFRPPHQGDWLRQV RI KHDOWK SURIHVVLRQDOV :H PXVW PDLQWDLQ XQLW\ LQ WKLV PDLQWDLQLQJ
GLRFHVDQJXLGHOLQHVVRWKDWRQHSDULVKLVQRWSXWLQWRFRPSHWLWLRQZLWKDQRWKHU

&RQIHVVLRQV(PHUJHQF\FRQIHVVLRQVFDQWDNHSODFHZLWKWKHSURSHUVDIHW\PHDVXUHVEHLQJREVHUYHG7KHUH
VKRXOGQRWEHUHJXODUFRQIHVVLRQWLPHVLQSDULVKHV7KLVZLOOGUDZFURZGV,WPXVWEHHPSKDVL]HGWKDWZKLOH
WKHUHLVQRUHSODFHPHQWIRUVDFUDPHQWDOFRQIHVVLRQ*RG¶VPHUF\LVQRWERXQGE\DQ\WKLQJLQFOXGLQJWKH
FHOHEUDWLRQRIVDFUDPHQWV

*HQHUDO$EVROXWLRQLVSHUPLWWHGLQKRVSLWDOVDQGQXUVLQJKRPHVLIQHHGHGZLWKWKHSURSHUGLVWDQFLQJEHLQJ
REVHUYHG

$QRLQWLQJRIWKH6LFN3HUVRQVZKRQHHGWKH$QRLQWLQJRIWKH6LFNPD\EHDQRLQWHG6DIHW\PHDVXUHVPXVW
EHREVHUYHGWKDWLVPDVNVPXVWEHZRUQDVZHOODVJORYHVWKHDQRLQWLQJVKRXOGEHGRQHZLWKDFRWWRQEDOO
WREHGLVSRVHGRISURSHUO\DIWHUZDUGV FURVVFRQWDPLQDWLRQQHHGVWREHDYRLGHG

$JDLQLWLVLPSRUWDQWWRUHPLQGSHRSOHWKDW*RG¶VJUDFHLVQRWOLPLWHG:KLOHWKHJUDFHRIWKHVDFUDPHQWLV
LUUHSODFHDEOH LW PXVW EH UHPHPEHUHG WKDW WKH $SRVWROLF 3DUGRQ DQG LWV DFFRPSDQ\LQJ LQGXOJHQFH LV
DYDLODEOHDVZHOO

&RQILUPDWLRQ ,W LV QRW SRVVLEOH DW WKLV WLPH WR RIIHU SRVVLEOH GDWHV IRU FRQILUPDWLRQ (YHQ ZKHQ LW LV
SRVVLEOHWRJDWKHULWZLOOPRVWFHUWDLQO\EHZLWKDVPDOOHUQXPEHURISHRSOH7KHELVKRSVDUHZLOOLQJWR
FHOHEUDWHWKHVDFUDPHQWZKHQZHDUHSHUPLWWHGWRJDWKHUEXWWKLVPD\EHLQFRPELQHGFHUHPRQLHV$QRWKHU
RSWLRQPD\EHWRGHOHJDWHSULHVWVWRFRQILUPRQ3HQWHFRVW7KHVHRSWLRQVDUHDOODYDLODEOHDQGGHFLVLRQVZLOO
EHPDGHODWHU

0DUULDJHV1HZ<RUN6WDWHLVLVVXLQJPDUULDJHOLFHQVHVRQOLQHDQGHYHQDOORZLQJOLYHVWUHDPHGZHGGLQJV
:KLOHWKHOLFHQVHVDUHYDOLGZHFDQQRWZLWQHVVPDUULDJHVLQWKDWZD\2XUZHGGLQJVPXVWEHOLYHDQGLQ
SHUVRQDQGVRDWWLPHVDZHGGLQJZKLFKPXVWWDNHSODFHDQGQRWEHSRVWSRQHGFRXOGEHGRQHPDLQWDLQLQJ
SURSHUVRFLDOGLVWDQFLQJZLWKMXVWWKHFKXUFK¶VPLQLVWHUWKHFRXSOHDQGWKHWZRZLWQHVVHV

3UH&DQD 3UH&DQD VHVVLRQV DQG FODVVHV DUH DYDLODEOH RQOLQH DQG LQIRUPDWLRQ RQ WKRVH SURJUDPV LV
DYDLODEOHIURPWKH6FKRRORI(YDQJHOL]DWLRQRIWKH'LRFHVH

)XQHUDOV )XQHUDO 0DVVHV DUH QRW EH FHOHEUDWHG EHFDXVH RI WKH VDPH UHDVRQV JLYHQ DERYH IRU WKH
FHOHEUDWLRQVRIWKH(XFKDULVW2QHVROXWLRQZKLFKPD\EHRIFRPIRUWWRJULHYLQJIDPLOLHVLVWKDWWKHIXQHUDO
KHDUVHFDQSDVVWKHFKXUFKZKHUHDSULHVWFRXOGRIIHUVRPHSUD\HUVIURPDGLVWDQFHDQGEOHVVWKHERG\RI
WKHGHFHDVHGRQWKHZD\WRWKHFHPHWHU\

$VXJJHVWLRQLVWKDWZKHQSXEOLF0DVVHVDUHDOORZHGRQHRUWZR0DVVHVRIIHUHGIRUDOOWKRVHZKRKDYH
SDVVHGIURPWKHFRURQDYLUXVFRXOGEHFHOHEUDWHGGHSHQGLQJRQUHDOLWLHVRILQGLYLGXDOSDULVKHV7KHUHZLOO
PRVWOLNHO\EHD0DVVIRUGHFHDVHGSULHVWVDQGGHDFRQVLQ6HSWHPEHULISRVVLEOH


)RUWKRVHZKRDUHKDYLQJILQDQFLDOGLIILFXOWLHVDWWKHWLPHRIWKHGHDWKRIDIDPLO\PHPEHUWKH9LQFHQWLDQ
&KDULWLHV RI %URRNO\Q KDV D SURJUDP IRU WKH EXULDO RI WKH SRRU ,QTXLULHV VKRXOG EH PDGH WKURXJK WKH
&DWKROLF&HPHWHULHV2IILFH



25

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 27 of 59 PageID #: 97

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

April 25, 2020
Bishop DiMarzio has asked that the following information be made available to all Pastors and Administrators
and asks that pertinent information be passed on to all priests in the rectory, as well.
CALL TO SENATOR SCHUMER
A conference call regarding issues related to the pandemic is scheduled for Monday, April 27, 2020 at 11:15
am to take place via Zoom Conference. It will be coordinated between Senator Schumer’s Office and DeSales
Media. All clergy are invited to be part of this call. The participants will all have access to video but will be
muted by the host. The chat function, however, will be enabled and available for use. If questions do arise
from participants they can be forwarded to Martin Brennan (from the Senator’s staff) on the call for a written
response. Questions from the Diocese will be submitted in advance to the Senator to be responded to in his
opening remarks.
Please see the email sent to you separately with the information on how to participate in the call.

NOMINATION OF JOSEPH ESPOSITO AS
COORDINATOR OF REOPENING PROGRAM
Bishop DiMarzio is pleased to announce the nomination of Joseph J. Esposito as Coordinator of the
Reopening Program for Parishes in the Diocese of Brooklyn. In this capacity, Mr. Esposito will oversee
the gradual reopening of the parishes and offices of the Diocese. This will be in conjunction with civic and
health officials and directives.
Mr. Esposito brings with him to this position a wealth of knowledge and experience which will prove
exceedingly valuable to us during the difficult process of reopening.
Joseph J. Esposito was the Commissioner of the New York City Office of Emergency Management from
2014 until 2018. Prior to that role he was the Chief of Department of the NYPD from 2000 until his retirement
in 2013. He is also chair of the Diocesan Review Board.
TESTING FOR PRIESTS
A COVID-19 testing site for priests has been established. For information about an appointment please email
VGENERAL@DIOBROOK.ORG.
This testing site should be used for priests only. Other testing sites will become available for the faithful at a
later date.
1

26

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 28 of 59 PageID #: 98
RESUMPTION OF THE PAYCHECK PROTECTION PROGRAM
The Small Business Administration will resume accepting PPP loan applications on Monday, April 27. Pastors
and Administrators are highly encourage to actively work with, and communicate with, the financial institution
that they submitted their PPP applications, and if they were previously were unable to upload their application,
to be ready to do so, once their financial institution’s online portal opens and begins accepting applications.
Lastly, Pastors and Administrators are highly encouraged to regularly check their email during this process
and to respond in a timely fashion all request.
GRASSI & CO. WEBINAR
Many parishes have engaged Grassi and Co. to assist them with the PPP. Grassi & Co. will be holding a
webinar on Tuesday April 28 at 3:00pm. Pastors and Administrators will receive an email from the Vicar
General on Monday April 27th which shall contain the link for the webinar.
CONSECRATION TO THE BLESSED VIRGIN MARY
As the world continues to face the ongoing effects of the global pandemic of the coronavirus, Archbishop José
H. Gomez of Los Angeles and president of the U.S. Conference of Catholic Bishops (USCCB) has announced
that the U.S. bishops will join the Canadian Conference of Catholic Bishops on May 1 in renewing the
consecrations of the two nations to the care of our Blessed Mother.
Through a collective dedication or entrustment of a nation to Mary, an act of consecration is meant to be a
reminder to the faithful of the Blessed Mother’s witness to the Gospel and to ask for her effective intercession
before her Son on behalf of those in need. Bishop John Carroll of Baltimore, the first bishop of the United
States, promoted devotion to Mary, the Mother of God, and placed the United States under her protection in a
pastoral letter of 1792. The twenty-one bishops attending the Sixth Provincial Council of Baltimore in 1846
determined to name the Blessed Virgin Mary, under the title of the Immaculate Conception, as the Patroness
of the United States, and Pope Pius XI approved this decision the following year. More recently, the dedication
of the National Shrine of the Immaculate Conception in Washington, D.C. in 1959 was the opportunity for the
bishops to once again consecrate the nation to the Blessed Mother. Several popes have likewise consecrated
the world to Mary on various occasions.
The consecration on May 1 follows a similar action of the bishops’ conference of Latin America and the
Caribbean (CELAM) who consecrated their nations to Our Lady of Guadalupe on Easter Sunday. The renewal
of consecration planned in this country for May 1 does not change the designation of Mary as the Patroness of
the United States under the title of the Immaculate Conception. Rather, this prayer reaffirms and renews
previous Marian entrustments, and unites us in solidarity with our Holy Father, who recently established the
Memorial of the Blessed Virgin Mary, Mother of the Church, as a source of protection and strength.
“This will give the Church the occasion to pray for Our Lady’s continued protection of the vulnerable, healing
of the unwell, and wisdom for those who work to cure this terrible virus,” said Archbishop Gomez in a letter
to the U.S. bishops. Each year, the Church seeks the special intercession of the Mother of God during the
month of May. “This year, we seek the assistance of Our Lady all the more earnestly as we face together the
effects of the global pandemic,” he continued.
Archbishop Gomez will lead a brief liturgy with the prayer of re-consecration on Friday, May 1 at 3:00
pm EDT and has invited the bishops to join in from their respective dioceses and asked them to extend the
invitation to the faithful in their dioceses for their participation. A liturgy guide will be available to assist the
faithful who may join in by tuning into the USCCB’s social media platforms: Facebook, Twitter, and
Instagram.
2

27

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 29 of 59 PageID #: 99

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

May 8, 2020
Bishop DiMarzio has asked that the following information be made available to all Pastors and
Administrators and asks that this information be passed on to all priests in the rectory, as well.
COVID-19 ANTIBODY TESTING FOR PRIESTS
A COVID-19 antibody testing site for priests has been established. For information or to request
an appointment please email VGENERAL@DIOBROOK.ORG.
Beginning on Wednesday, May 13, the Diocese will now be offering to all priests the opportunity
to be tested for COVID Antibodies at the Immaculate Conception Center in Douglaston. As you
know, this test was not previously available and therefore, was not initially offered to you.
Dr. Murtezani, who is the on-site ICC physician is now in position to undertake this testing, too.
Please be advised that it will require him to draw one vial of blood. If you have not been tested for
active COVID, you can also request the nasal swab at that time too. Please indicate in your email
to the Vicar General’s Office which test you wish to receive. You will receive an email with the
date and time of your appointment.

1

28

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 30 of 59 PageID #: 100

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

May 13, 2020
Bishop DiMarzio has asked that the following information be made available to all Pastors and
Administrators and asks that pertinent information be passed on to all priests in the rectory, as
well.
Policy on Sacramental Celebrations
At the start of the lockdown for the pandemic, May 15th was offered as a possible “re-opening” or
“restarting” date. That date is now proven to be unrealistic and premature.
Therefore, at this time the following directives on the sacraments must be observed.
First Communions and Confirmations: At this time it is necessary to state that the celebrations
of First Holy Communion and Confirmation are to be postponed with no future date for
celebrations to be given at this time.
Baptism: Baptisms, too, should be postponed until further notice. Emergency baptisms should,
naturally, occur with proper precautions being taken.
RCIA Sacraments: No date may be offered for the celebration of these sacraments at this time.
Weddings: In general, weddings are to be postponed. There is no reopening date as yet;
therefore, it is imprudent to fix a date in the future. That being said, a wedding that is absolutely
necessary at this time may be celebrated since the City is issuing marriage licenses. These
weddings should be weddings that cannot be postponed for some reason. The wedding should take
place in either the church or the rectory, whichever allows for better social distancing and they
should be Weddings outside of Mass, not Nuptial Masses. There may be no more than 10 people
present and all other social distancing directives must be observed. These celebrations are to be
private and without unnecessary publicity.
Confessions: Confessions should take place only when they are absolutely necessary, that is,
when someone is conscious of mortal sin or in an emergency situation. Social distancing must be
observed and so the choice of location for the confessions is critical. Parishioners are to be
reminded of the value of a sincere Act of Contrition.
Anointing of the Sick: Anointing should take place in emergency situations only and with proper
precautions, i.e. gloves, masks and the use of cotton balls for anointing.
Eucharist: There are to be no public Masses until further notice in the diocese and the churches
will remain closed.
1

29

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 31 of 59 PageID #: 101

While there is universal agreement that these restrictions are difficult and burdensome, it is also
important to recognize the need to preserve public health and respect life in this way.
Payroll Protection Program (PPP) Loan Approved
If your Parish or School/Academy were notified that it was approved for a PPP loan, please inform
the Office of Fiscal Management. Send an email to jmitchell@diobrook.org with the following
information:
1. Loan amount 2. Date Approved 3. Bank.
Testing for Antibodies
Beginning on Wednesday, May 13, the Diocese will now be offering to all priests the opportunity
to be tested for COVID Antibodies at the Immaculate Conception Center in Douglaston. As you
know, this test was not previously available and therefore, was not initially offered to you.
Dr. Murtezani, who is the on-site ICC physician is now in position to undertake this testing
too. Please be advised that it will require him to draw one vial of blood, it is not the finger prick
test which has been deemed unreliable. If you have not been tested for active COVID, you can
also request the nasal swab at that time too. Please indicate in your email to the Vicar General’s
Office which test you wish to receive. You will receive an email with the date and time of your
appointment.
To make reservations please email VGENERAL@DIOBROOK.ORG
Preparing for Reopening
In an effort to prepare for reopening of our churches, it would be helpful to start to measure out
the churches’ seating areas.
Therefore, to minimize risk, we must delineate “safe” areas in our churches for people to sit. This
means we measure out a distance of at least 6 feet between people in a pew. This may mean only
3 or 4 persons per pew. Family members and households may sit together, in which case it would
mean at least six feet between those groupings.
This will also apply for the space between pews which practically speaking, might mean 2 pews
blocked off between the occupied pews or perhaps to skip one pew but stagger the numbers of
people in the occupied pew (in other words maybe 4 people in pew one starting at the ends and 3
in row three starting 6 feet in from the aisle). This depends on the church’s particular configuration.
The areas will need to be marked off in some way (perhaps tape or signage). This will also give
you an idea about whether a Mass or two might need to be added. However, some of that will
depend on the numbers of people returning at the beginning and the gradual increase of the
numbers.
Note that this is being asked in preparation for eventual reopening. As of now the churches
remain closed.
2

30

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 32 of 59 PageID #: 102

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

May 21, 2020
PLAN FOR THE REOPENING OF OUR CHURCHES
Bishop Nicholas DiMarzio is pleased to announce the Diocese of Brooklyn will slowly work
towards going back to normal by opening the doors of the churches on May 26, 2020 for private
prayer and devotion as well as for funerals and limited celebrations of baptisms and weddings. The
following directives will apply in general and individual churches should prepare further directions
which the faithful must adhere to when visiting a church.
PLEASE NOTE THAT THE CHURCHES MAY OPEN THEIR DOORS ON MAY 26TH. IF A
PARISH IS NOT PREPARED TO DO SO ON THAT DATE, PASTORS OR
ADMINISTRATORS MUST EMAIL THE DATES THAT THEY WILL BE ABLE TO
REOPEN. Please email Adriana Rodriguez at arodriguez@desalesmedia.org.
REOPENING SCHEDULE
Stage 1:
Stage 2:
Stage 3:
Stage 4:

Opening of Churches for private prayer and devotion, Funerals, Baptisms and
Weddings (May 26th) Please see pages 3 & 4 for details.
Limited Celebrations of Daily Mass (No date has been set yet)
Limited Celebrations of Sunday Mass (No date has been set yet)
Celebration of First Holy Communion and Confirmation (No date has been set yet)

The commencement dates of these stages (numbers 2,3, and 4) will be announced.
CHURCHES
x

Before opening pastors and administrators may be interested in sanitizing the church.
According to the CDC, the virus can only live on surfaces for a limited time (ranging from
hours to days depending on the type of surface). Since churches have been closed for over
two months, it may be something to consider, for the purpose of reassuring parishioners. If
you would like this procedure done and for information, please email Greg Roach at
groach@rocklynasset.org for approved contractors and schedules.

x

After the churches reopen for private prayer and devotion, the full reopening of the
churches for liturgical celebrations will begin after the order for reopening of large
gatherings has been given. This is important because of the danger of gathered crowds and
the possible spread of the virus.
1

31

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 33 of 59 PageID #: 103
x

With respect to the dates of the opening and use of churches, the above stages will be
followed.

x

One door should be opened for entrance into the church. However, all doors should be
available for egress in emergencies.

x

The church should be marked off with painter’s tape to show areas that adhere to social
distancing guidelines. Pastors or administrators who may need assistance in creating social
distance seating plans for the church may reach out to Greg Roach
(groach@rocklynasset.org) and/or Rob Dadona (rdadona@rocklynasset.org) for
assistance.

x

The elderly and all who are health-compromised MUST be advised to stay home.
Communications to parishioners should tell them that anyone who feels sick in any way
must stay home. Parishioners should be asked to take their temperatures before leaving
their home and should stay home if the temperature is over 100 degrees.

x

The church will have been measured and marked off, respecting social distancing norms.

x

There is to be NO holy water in the fonts.

x

Crying rooms and other rooms aside from the main church must be kept closed and locked.

x

Hymnals, missalettes and any other worship aids must be removed from the pews and
stored away.

x

Bulletins must not be distributed, nor should there be any literature available for people to
take. Bulletins could be uploaded to parish websites.

x

Parishioners must be advised of the requirement to wear masks, which they will bring on
their own from home. No one should be in church without a mask.

x

Hand sanitizer should be available at the entrance to church but parishioners are to be
encouraged to bring their own from home, as well.

x

Restrooms should be open and available but used by one person at a time and must be
cleaned regularly.

x

It is advisable that churches be cleaned after each opening.

x

For the foreseeable future, parishes may not schedule any events which will draw crowds
and make social distancing difficult.

2

32

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 34 of 59 PageID #: 104

PRIVATE PRAYER AND DEVOTION
x

The church will be open for a limited time period each day. Pastors will decide on these
hours of opening based on the needs of the community. The church should remain open for
no more than 4 hours each day. These hours should not coincide with the time a Mass
is celebrated in the church.

x

There is to be no congregating of people (e.g. gathering to say a rosary together). There
should not be more than ten (10) people in the church and there cannot be a group gathered.

x

The faithful must be instructed not to touch statues or other devotional objects in the
church.

x

Two ushers or other volunteers MUST be present in the church to assure that social
distancing rules are observed and to determine whether the church is getting too crowded.

Again, these rules will vary depending on the individual church’s needs and configuration.
Parishioners should be made aware of these rules before the May 26th opening and by way of
signage in the church itself.
Please note that some churches in high population density areas will not be able to open on
the May 26th as they may have to set a different timeline. Please ask your parishioners to be
respectful of the decisions pastors and administrators will make based on the requirements
of their individual communities.

FUNERALS
The directives indicated above apply for funerals as well.
Funeral services will be permitted but are to be strictly limited to 10 people. The funeral service
must be the Funeral Outside of Mass (the liturgy that is used for funerals during the Paschal
Triduum). Holy Communion should not be distributed at these services.
Persons attending the funeral must be seated using social distancing norms (Six [6] feet apart)
except for members of the same household and everyone must wear a mask or face covering.
Funerals should begin with the casket in place in front of the sanctuary and with the participants
seated. There is to be no procession into or out of the church. No worship aids should be distributed
or used.
BAPTISMS
Baptisms will take place with social distancing guidelines being enforced and limited to 10 or
fewer participants. The water must be changed for each baptism. Baptisms can be celebrated only
with prior consolation with the Office of the Chancellor. Please email saguggia@diobrook.org.

3

33

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 35 of 59 PageID #: 105

WEDDINGS
Weddings will take place with social distancing guidelines being enforced and, at first, limited to
10 or fewer participants. Weddings should be celebrated with the Rite of Marriage Outside of
Mass. No Nuptial Masses should be celebrated at this time. Holy Communion should not be
distributed at this time. Weddings can be celebrated only with prior consultation with the Office
of the Chancellor. Please email saguggia@diobrook.org.
OUTDOOR SERVICES
Although the possibility for this may be limited in Brooklyn and Queens, some parishes may be
capable of conducting services outdoors in parking lots or similar spaces, perhaps using a tent or
having people remain in cars. Please be aware that social distancing norms and hygiene guidelines
must be observed. At this point, too, please note that no gatherings of more than ten (10)
persons is permitted. If you are contemplating an outdoor services, please submit your
written plan to vgeneral@diobrook.org for approval before implementation.
ANOINTING OF THE SICK
Anointings will be celebrated with the usual safety measures in place. Priests will wear mask and
gloves and the anointing will take place with the use of a cotton ball which is to be reverently
disposed of after each anointing. Any guidelines that are in place in hospitals or other institutions
must be respected. There are to be no celebrations of communal anointings in church.
CONFESSIONS
Confessions will take place with the priest and penitent both wearing masks and remaining at least
six (6) feet distant from one another. A space other than a traditional confessional might need to
be used. A larger space will be needed. A barrier system could be devised. Care must be taken
to assure that no lines or groups form for confessions.

OBTAINING CLEANING SUPPLIES FROM ICS
Pastors and administrators should take note to this link to Institutional Commodities Services (ICS)
where sanitizing supplies (such as hand sanitizer and cleaning supplies) can be obtained:
https://nyics.org/hand-sanitizer-cleaning-supplies
QUESTIONS?
Questions about any of the above guidelines or about particular situations may be addressed to the
Vicar General’s Office vgeneral@diobrook.org.
4

34

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 36 of 59 PageID #: 106

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965


CHURCH SANITIZING/CLEANING BEST PRACTICES
Ȍ ǣ
Ȉ Ǥ
Ǧ Ǥ
Ǧ  Ǥȋ  Ȍ
ȈȀ ǤǤ
Ȍ  ǣ
Ȉǡ    Ǥ
Ǧ
Ǧ  
Ǧ 
Ȍȋ Ȍǣ
Ȉ 
Ȉ   Ǥ
Ȉ    Ǥ
Ȍ     ǣ
Ȉ    ǡ 
 Ǥ
Ȉ  ǡ Ǧ ǡ 
ǡ Ǥ
Ȉ    ȋ Ȍ
Ȉ Ȁ  Ǥ
 Ǥǡ 
 Ǥ
Ȍ ǣ
Ȉ  Ǥ
Ǧ  
Ǧ
Ȉ   
ȋǤǤǡ ǡǡǡǡ ǡǡ ǤȌ
Ȉ   ȋ   ǡ
Ȍ ǤǤǤ
ȈǤ
Ȉ   ͳͲǦ                 
͸̵ Ǥ   ǡ  
Ȉ ǡ   Ǥ
1

35

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 37 of 59 PageID #: 107

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West ● Brooklyn, New York 11215 ● 718.399.5995 ● FAX: 718.399.5965

To:

Deans

From:

Most Reverend Raymond F. Chappetto

Re:

Compliance with Diocesan Directives

Date:

June 16, 2020

It has come to our attention that some of the pastors are not following the Diocesan directives
regarding the reopening of our churches. It has been reported to us that some pastors/priests are
celebrating Masses either in their churches or outdoors.
The purpose of this memo is to ask each Dean to personally contact the pastors in each Deanery
by this Friday, June 19, 2020, to remind them that we are still in Stage One of our reopening plan.
Please remind them that Stage One allows for ten people to be gathered for:
x
x
x
x

Baptism Ceremonies (limited to 10 people)
Wedding Ceremonies (limited to 10 people)
Funeral Services without a Mass (limited to 10 people)
Private Prayer (limited to 10 people)

As soon as we are able to announce the dates for the beginning of Stages Two and Three, we will
send those dates out to all the pastors/priests. In the meantime, if you hear of any violations of the
directives, we ask you to remind the pastors that they are being asked to follow the directives
issued by the Bishop of Brooklyn.
Thank you very much for your help in this matter.

36

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 38 of 59 PageID #: 108

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

June 18, 2020
REOPENING THE CHURCHES FOR LITURGICAL CELEBRATIONS

IMPORTANT UPDATE
PLEASE SEE BELOW FOR IMPORTANT UPDATES ON THE
OPENING DATES FOR STAGE 2 & STAGE 3
Stage 1 was the reopening of the churches for private prayer and devotion. At that Stage we learned the best
practices of good hygiene and social distancing. Those lessons will be important as we move to Stages 2, 3,
and 4.
Stage 2:

Limited (25% Capacity) Celebrations of Daily Mass
MONDAY, JUNE 29, 2020

Stage 3:

Limited (25% Capacity) Celebrations of Sunday Mass
SATURDAY EVENING, JULY 4, 2020 and SUNDAY, JULY 5, 2020

Stage 4:

Celebration of First Holy Communion and Confirmation (No date has been set yet)

NOTE: The City of New York is scheduled to enter its Phase 2 on Monday, June 22nd. Bishop DiMarzio
has determined that the parishes in Brooklyn and Queens can open for daily Mass on June 29, 2020 and
Sunday Masses on the weekend of July 4-5, 2020. This is to provide ample opportunity for Pastors &
Administrators to ready their churches and their parishioners for their welcome back.
Below are guidelines to be followed as each stage is introduced. Please read them over carefully.
STAGES 2 & 3: (LIMITED 25% CAPACITY) CELEBRATIONS OF MASS
THE DIRECTIVES GIVEN FOR STAGE 1 REOPENING OF CHURCHES REMAIN IN EFFECT
FOR STAGES 2 & 3. This includes all the measures taken to ensure good hygiene and cleaning of the
church, including the disinfection of hands, the wearing of masks and social distancing.
The announcement of the opening dates in advance will provide ample opportunity to allow Pastors and
Administrators to ready the churches for the reopening. If anyone needs help, please contact Greg Roach at
Rocklyn Asset for assistance (groach@rocklynasset.org).
Pastors and Administrators are encouraged to resume their normal schedules in order to ensure social
distancing and not exceed the 25% capacity. Sunday Mass schedules may need to be adjusted according to the
needs of the community (increased number of Masses or decreased number of Masses). Please adapt the
directives according to the particular needs of the parish, while maintaining the important guidelines outlined
here. Some of the suggestions offered could be amended to fit particular circumstances.
NOTE: A PARISH MAY NOT READY TO BEGIN THE PUBLIC CELEBRATION OF MASS ON THE
INDICATED DATES. IF THAT IS THE CASE, PLEASE DETERMINE THE MOST APPROPRIATE
1

37

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 39 of 59 PageID #: 109
DATES AND TIMES FOR YOUR COMMUNITY. Please let Adriana Rodriguez from the Press Office know
(arodriguez@desalesmedia.org).
THE PUBLIC CELEBRATION OF MASS
(These guidelines will apply for the eventual public celebration of daily Mass in Stage 2
and the eventual celebration of Sunday Mass in Stage 3)
x

Pastors and Administrators must devise a system of ensuring the limit on the number of people in the
church. This number is based on the current guidelines.

x

Priests who are ill or otherwise in a compromised state should not celebrate Mass publicly.

x

All ministers for the Mass (celebrant, deacon, lector) must sanitize their hands before Mass begins.

x

For the daily celebration of Mass, please limit the number of ministers for Mass. There should be only
one (1) lector and no altar servers.
o Suggestion: A lectern could be set for the Celebrant to use for the Collect and the Prayer after
Communion.
o Suggestion: A separate podium or lectern should be set up for the lector while the priest will
use the pulpit or ambo. The lector should not carry in a Gospel Book and the lectionary should
be set and opened to the correct page for the Mass.

x

There should be no entrance procession for all Masses, Sunday and weekday. Celebrants should not
wear a mask or gloves at this time.

x

Music ministry should be limited to the organist and a cantor using social distancing. The cantor should
not sing from the same place from which the lector reads. Choirs should not be used at this time since
social distancing will be impossible for them.

x

There should be no missals or worship aids available.
o Suggestion: The Mass itself and homilies could be shortened where possible to allow Mass to
be celebrated in an abbreviated time, allowing for extra time to clean the church after Mass.

x

There is no exchange of peace and no holding of hands at the Lord’s Prayer.
o Suggestion: A single offertory basket can be placed in a secure location in church for people
to place their donations. Parishioners are to be encouraged strongly to use e-giving services.

x

Concelebrating priests should receive Holy Communion by intinction. Consecrated Hosts are to be
left on the paten for each concelebrant to take and intinct. Hosts to be consecrated at the Mass for
distribution to the people should be kept to the side of the altar, away from the Host consecrated for
the priests’ use, on a separate corporal. Alternatively, each concelebrant could have a separate chalice
reserved for his own use.

x

Holy Communion is to be distributed by the celebrant, concelebrating priests, and/or extraordinary
minister of Holy Communion who will not wear gloves but should wear masks. Extraordinary
Ministers of Holy Communion should only be used if there are not enough priests in the parish to assist.
The Host should be allowed to “fall” (reverently) into the communicant’s hand to avoid any physical
contact. The hands should be disinfected before distribution of Holy Communion. Hand disinfectant
should be available nearby those distributing Holy Communion.
2

38

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 40 of 59 PageID #: 110

o Suggestion: The communicant should come before the Minister of Communion with the mask
on for the dialogue (“The Body of Christ. Amen.”) and then, moving to the side, lower the mask
and consume the Eucharist and replace the mask.
x

If Extraordinary Ministers of Holy Communion are used, they must be diligently instructed on the
procedures for giving Communion to the faithful. They must follow the same guidelines the priests and
deacons will follow.

x

The Precious Blood is not to be distributed to the faithful.

x

People should come for Communion in the normal way, observing at least 6 feet of distance between
them as they approach.

x

IT IS VERY STRONGLY RECOMMENDED THAT THE FAITHFUL RECEIVE HOLY
COMMUNION IN THE HAND. Pastors and Administrators must strongly suggest this to the
people emphasizing that this is for the safety of those receiving Holy Communion and of the
minister of Holy Communion. While this may be difficult for some people, they must be reminded
of the reverent way to receive in the hand. IF PEOPLE WISH TO RECEIVE ON THE TONGUE,
THEY SHOULD COME FORWARD AT THE END OF THE COMMUNION LINE, SO THAT
THEY ARE THE LAST ONES RECEIVING, so that the Communion ministers can disinfect their
hands if need be after each person receives.

x

When the communicants receive the Sacred Host, they should move to the side and consume It
immediately.

x

If the minister distributing Holy Communion has unintentional contact with someone’s hand, the
minister is to stop and disinfect the hands before continuing. An ablution cup and hand sanitizer should
be set near the Ministers of Holy Communion to purify their fingers before using the hand sanitizer.

x

After distribution of Holy Communion, the ministers’ hands should be sanitized.

x

There is to be no recessional procession. There should be no stopping to greet parishioners as they
depart the church.

x

If pastors or administrators are considering outdoor celebrations of Mass, whether in a tent, parking lot
or other open space, social distancing regarding seating, and all other directives pertaining to churches
and the celebration of Mass must be observed.
CELEBRATIONS OF FIRST HOLY COMMUNIONS AND CONFIRMATIONS

First Communions can be celebrated at an appropriate time following all of the guidelines for the celebration
of the Eucharist.
Confirmations will be rescheduled at an appropriate time. Please consult with the Bishop assigned to your
parish for Confirmation and follow the guidelines that will be issued later for the celebration of Confirmation.
These celebrations apply in Stage 4 (see above).
QUESTIONS?
Questions about any of the above guidelines or about particular situations may be addressed to the Vicar
General’s Office (vgeneral@diobrook.org).
3

39

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 41 of 59 PageID #: 111

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

June 19, 2020

SUMMER MINISTRY
Many parishes in the Diocese have plans regarding “Non-Incardinated clergy doing short-term ministry
in the Diocese of Brooklyn during the summer” Most of these clergy are Non-Incardinated Priests who
come to the United States with either a Religious Worker Visa (R-1) or the priest is Lawful Permanent
Resident (Green Card holder). Due to the Covid-19 pandemic, there are now a series of variables that
parishes need to consider. The following information may provide some guidance; however, for more
information or specific questions, please refer to the Office for Clergy personnel and Deacon Julio C.
Barreneche (jbarreneche@diobrook.org)
Pastors and Administrators are reminded that a Non-Incardinated Priest seeking to minister in
the Diocese of Brooklyn, MUST BE CLEARED by the Office of the Chancellor prior to the NonIncardinated Priest coming to the Diocese. A Non-Incardinated Priest must have an updated certified
Letter of Good Standing on file with the Office of the Chancellor and can only minister once after the
Office of the Chancellor has provided ministerial faculties.
Financial Constraints:
Pastors and Administrators must assess their own financial situations to determine whether or not having
summer assistance will be possible given the current financial situation of the parish;
x

If it is determined that summer assistance will be financially impossible this year, this should be
made known to the Office for Clergy Personnel and to the Non-Incardinated Priest as soon as
possible.

x

If it is determined that summer assistance is possible, and the Non-Incardinated Priest is able to
come for the summer months, the Non-Incardinated Priest must follow the guidelines of U.S.
government and health authorities regarding possible quarantine periods after their arrival; for
more information on a possible quarantine, please see below.

Travel Constraints:
A Non-Incardinated Priest who is scheduled to come to the United States for summer ministry may or
may not be able to do so, due to a variety of factors including: his ability to obtain a visa, travel
restrictions, and his ability to get a flight to the United States.

1

40

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 42 of 59 PageID #: 112

If a Non-Incardinated Priest is not a Lawful Permanent Resident, or if he does not already have a
Religious Worker Visa in his passport, there is an extremely high probability that he will be unable to
obtain one in time for this summer. USCIS only began to process Religious Worker Visa on June 8th,
after they had been temporarily suspended since March. In addition, once a Non-Incardinated Priest
receives an approval notice, the priest is still required to make an appointment at the Embassy, or U.S.
Consulate, that was noted in the application.
To find specific information about the COVID-19 situation and any additional restrictions in a
particular country overseas:


Please visit Embassy webpages on COVID-19 for information on conditions in each country or
jurisdiction.



You may also visit www.coronavirus.gov for more information.

The President issued Proclamations 9984, 9992, and 9993, which suspends entry to nearly all foreign
nationals who have been in China, Iran, and certain European countries (Schengen Zone of the European
Union) at any point during the 14 days prior to their scheduled travel to the U.S. These European
countries, include: Austria, Belgium, Czech Republic, Denmark, Estonia, Finland, France, Germany,
Greece, Hungary, Iceland, Ireland, Italy, Latvia, Liechtenstein, Lithuania, Luxembourg, Malta,
Netherlands, Norway, Poland, Portugal, Slovakia, Slovenia, Spain, Sweden, Switzerland, and the United
Kingdom. In addition, the Center for Disease Control (CDC) requires all travelers, including U.S.
citizens and legal permanent residents, who have been in certain European countries (Schengen Zone of
the European Union), or any CDC Level 3 country, in the last 14 days to self-quarantine for 14 days.


Travelers should visit www.coronavirus.gov for more information.

Pastors and Administrators should be prepared for the possible cancellations by their summer
assistants because of many factors beyond their control. They should, therefore, be prepared for the
possibility of having no summer assistance.

2

41

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 43 of 59 PageID #: 113

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West ● Brooklyn, New York 11215 ● 718.399.5995 ● FAX: 718.399.5965

To:

Pastors & Administrators

From:

Most Reverend Raymond F. Chappetto

Re:

Returning to Mass Video from Bishop DiMarzio

Date:

June 26, 2020

Below you will find link to a video message from Bishop DiMarzio regarding Returning to Mass,
in various languages.
Please add these videos to your websites and social media platforms.
Returning to Mass
https://vimeo.com/430806908
Regresando a Misa (Spanish)
https://vimeo.com/430805591
Tornando alla Santa Messa (Italian)
https://vimeo.com/432197185
Powrót mszy św. z udziałem wiernych (Polish)
https://vimeo.com/432283449
ᘺᧈᅇ⼹ (Chinese)
https://vimeo.com/432835015
Retounen nan Mès (Creole)
https://vimeo.com/432497004
‫ࢢی׵‬ʎ (Korean)
https://vimeo.com/432836681

42

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 44 of 59 PageID #: 114

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West ● Brooklyn, New York 11215 ● 718.399.5995 ● FAX: 718.399.5965

To:

Pastors & Administrators

CC:

Parish Deacons

From:

Most Reverend Raymond F. Chappetto, D.D., V.G., V.E.

Re:

Deacons at Liturgies

Date:

July 8, 2020

During this time of the COVID-19 pandemic, many directives regarding changes in the way the
liturgy is celebrated have been issued. There has been a limitation on the service of liturgical
ministers at Mass, including lectors, extraordinary ministers of Holy Communion, Cantors and
Altar Servers.
Please note that as ordained clergy, the deacons have a proper role and place at the celebration of
the Mass and there is no reason to restrict that service at this time. Deacons have been made aware
of the procedures and guidelines to be followed (see attachment).
Naturally, if a deacon has problems with health or other factors which may make him
uncomfortable to participate as he normally would, this should be taken into account.
As always, if there are any particular concerns or questions, please do not hesitate to contact the
Office of the Vicar for Clergy vgeneral@diobrook.org, the Chancellor saguggia@diobrook.org, or
the Liturgy Office joconnor@diobrook.org.

43

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 45 of 59 PageID #: 115

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

June 19, 2020

Guidelines for Deacons serving at Liturgies during the Pandemic
The COVID-19 Pandemic has caused everyone to make adjustments in many areas of their lives. This is
no less true in the liturgical life of the Church.
Several changes are taking place to ensure safety at Mass and other liturgical celebrations. Deacons may
participate in these liturgies and so it is important that they are mindful of the guidelines and best
practices which concern them.
9 Deacons and all liturgical ministers in the sanctuary area (and indeed, everywhere in the church)
must maintain the social distancing guidelines and keep six feet of space between themselves
and others to the best degree possible in what might be somewhat tight areas.
9 Close contact generally is considered to be less than six feet of distance between persons as well
as a span of time that exceeds 15 minutes. In general, a deacon would not be so close to a priest
for a greater amount of time.
9 Deacons should not wear a mask while assisting at the altar but must wear one while distributing
Holy Communion which is to be distributed in the same manner that a priest would do so (see
the Guidelines sent to Pastors on the Opening of Churches).
9 Deacons should disinfect their hands before and after Mass as well as before and after
distributing Holy Communion.
9 Deacons should not hold the Missal for the Priest to read the prayers from. A stand should be
used instead.
9 When proclaiming the Gospel, Deacons should read from the Pulpit or Ambo which would be a
separate lectern from the one used by the lector.
9 As there will be no Altar Servers for the time being, Deacons should be aware that they will need
to assist with those functions. When arranging the altar, they should space out the ciboria with
hosts for the people away from the Priest’s host on separate corporals.
9 There is no “Exchange of Peace,” so the Deacon will not invite the faithful to do so.
9 Deacons should receive Holy Communion under the form of bread only and in the hand. They
should not receive by intinction as it would require them to receive on the tongue.

44

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 46 of 59 PageID #: 116

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

July 8, 2020

STAGE 4: CELEBRATIONS OF FIRST HOLY COMMUNION &
CONFIRMATION
1. FIRST HOLY COMMUNION CELEBRATIONS
Celebrations of First Holy Communion may take place at any Mass (Sunday or Weekday) to accommodate for
proper social distancing and observing the applicable occupancy norms in church. This may necessitate
celebrations at multiple Masses.
The usual guidelines for the celebration of the Eucharist, already in place, must be observed. Please make
particular note of the fact that the children must be instructed on the proper way to receive Holy Communion
with the particular hygienic guidelines being observed.
2. CELEBRATIONS OF SPRING PARISH CONFIRMATIONS
Due to the Coronavirus Pandemic which caused so much upheaval in parish life, most of the regularly
scheduled celebrations of Confirmations by the Bishops of the Diocese were postponed. There are two options
for pastors and administrators for these celebrations.
1. Contact the Bishop who was scheduled for the Confirmation to reschedule the celebration at a mutually
convenient time

OR
2. Bishop DiMarzio has granted an indult to all pastors and administrators to confirm those candidates
whose Confirmations were postponed due to the pandemic. This indult is in effect for the months of
July, August and September 2020. This indult does not apply to Confirmations scheduled for the Fall
of 2020.


When this faculty has been used by the Pastor or Administrator, he is asked to inform the
Chancellor of
o the date and time of the Mass at which it was used,
o the number confirmed
o and by whom it was used (Pastor/Administrator or one to whom it was subdelegated).



Please inform the Chancellor’s Office at SAGUGGIA@DIOBROOK.ORG. When entering the
fact of the Confirmation in the parish sacramental register, the following should be included for the
minister of Confirmation:
Reverend NAME OF PRIEST, delegated, c. 884 §1.

There will be some changes in the celebrations when they take place which it is important to take note of now:
1

45

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 47 of 59 PageID #: 117



While the Confirmations to be celebrated by the pastors and administrators may be celebrated during
a Mass, the Confirmations done by the Bishops will not take place during the celebration of Mass, as
they usually do, but instead, using the ritual for “Confirmations Outside of Mass,” which is essentially
a Liturgy of the Word. Questions about using this particular ritual can be directed to the Liturgy Office
at joconnor@diobrook.org.



The anointing with Chrism will take place using an “instrument,” as is permitted in Canon Law and by
clarification from Rome. This means that the celebrant will use a cotton ball which will be reverently
disposed of after the ceremony. It will be necessary for the parish to have these available for the
ceremony.



There will be no handshake at the Exchange of Peace with the confirmandi or their sponsors. Instead
the simple verbal exchange: “Peace be with you” and “And with your spirit” will be offered with no
accompanying gesture.



Masks will be worn by the celebrant and the confirmandi and sponsor at the time of the anointing.



After the ceremony, there will not be group photos taken, nor will there be individual photos with the
Bishop. Pastors and administrators may want to consider having one photographer to be positioned at
the side while the Bishop is confirming.
3. CELEBRATING THE SACRAMENTS OF INITIATION FOR
CATECHUMENS AND CANDIDATES

As we were unable to welcome our candidates and catechumens into Full Communion at this year’s Easter
Vigil as is our custom, Bishop DiMarzio is pleased to issue these guidelines allowing for these celebrations.
These confirmations, which can be administered by a priest, can be celebrated at any time, using the applicable
social distancing guidelines.
Priests with the faculties of the Diocese may administer the sacrament of Confirmation to those who are
unbaptized and are being fully initiated or to baptized non-Catholics who are being fully initiated into Full
Communion with the Catholic Church.
Please note: This does not include those previously baptized in the Catholic Church who have not
completed their initiation (that is, did not receive Confirmation and/or Eucharist). For these, the
Bishop is issuing an indult to confirm (see below).
The celebrations of the RCIA sacraments must take place during a celebration of Mass because they involve
the reception of Holy Communion. While it is most fitting, given the Paschal character of the celebration, that
this be at a Sunday Mass, it may take place on another day.
o All social distancing norms must be observed as per the guidelines previously given for the opening of
churches for the celebration of Mass, that is, occupancy in Church according to civil directives and the
particular requirements of the church itself, the wearing of masks/face coverings, etc.
o In particular for these celebrations, please note:
o Water must be changed between baptisms or, if this is difficult, it could be poured from one
basin over the head of the person being baptized and into a new receptacle for each person.
2

46

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 48 of 59 PageID #: 118
o A cotton ball should be used for anointings and priests must disinfect their hands after each
anointing
o Guidelines for the reception of Holy Communion must be observed carefully
Please note: Depending on the amount of people involved, these celebrations might necessarily take
place at more than one Mass.
4. CELEBRATING CONFIRMATION FOR THOSE
PREVIOUSLY BAPTIZED
Those who have been baptized in the Catholic Church but were previously uncatechized and who have
participated in the RCIA program may be confirmed with an indult given by the Diocesan Bishop and
following specific guidelines and directives. (Note that these celebrations are the ones that normally take place
at Pentecost.)
Bishop Nicholas DiMarzio has delegated all Pastors and Administrators the faculty to celebrate the
Sacrament of Confirmation within their own parishes on any day of July 2020, August 2020, or
September 2020.


Please note that while a celebration of Confirmation fittingly is celebrated on Sunday, this faculty may
be used at another Mass during the week, especially to allow for proper social distancing at the Mass.



The usual candidates for this celebration of Confirmation are those who have been baptized but not
catechized, are of high school age and older and have simply never been confirmed.



This faculty is not granted to all priests. For a serious reason, a Pastor or Administrator may subdelegate
another priest to confirm. However, no further subdelegation is permitted. A serious reason may be a
special language need or the health of the Pastor. This may require the use of the indult at an additional
Mass.



When this faculty has been used by the Pastor or Administrator, he is asked to inform the
Chancellor of
o the date and time of the Mass at which it was used,
o the number confirmed
o and by whom it was used (Pastor/Administrator or one to whom it was subdelegated).
Please inform the Chancellor’s Office at saguggia@diobrook.org.




When entering the fact of the Confirmation in the parish sacramental register, the following should be
included for the minister of Confirmation:
Reverend NAME OF PRIEST, delegated, c. 884 §1.
QUESTIONS?

As always, please do not hesitate to contact the Vicar General vgeneral@diobrook.org
or the Chancellor’s Office curia@diobrook.org
or the Liturgy Office joconnor@diobrook.org for assistance or with questions.

3

47

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 49 of 59 PageID #: 119

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

Update on Best Practices for Sacramental Celebrations
During the COVID-19 Pandemic
Now that several weeks have passed since the opening of our churches for the celebration of Mass, Pastors
and Administrators have certainly had an opportunity to evaluate how it has been going in terms of people
coming to church and receiving the sacraments.
By way of reviewing some of the more important points and aware that every parish and every church is
different, we would like to present the following thoughts for your consideration.
CELEBRATION OF MASS
1.There should be no processions in or out of the church. This is to avoid having to move through the people
gathered. There should be no carrying of the Cross or Gospel Book.
2. There should be no Altar Servers at this point in time. Most of them are too young to grasp what “social
distancing” means on a practical level. Also, considering the limited space in most sanctuaries, it will cut
down on the number of people gathered there.
3. Missals should be either on the Altar or on a podium in front of the celebrant in order to prevent too many
people from touching it.
4. If a lector is used, he or she should not be reading from the same ambo as the priest when he proclaims
the Gospel and preaches.
5. A deacon should remain 6 feet from the celebrant (except for the short period of the Doxology when he
holds the Chalice).
6. The bread and wine should be well spaced on the Altar with the people’s host being off to the side, on a
separate corporal, and not directly in front of the priest.
7. Face coverings must be worn by the celebrant if he is within 6 feet from anyone in the sanctuary and
certainly for Holy Communion. The mask should be put on before the hands are disinfected and removed
before they are disinfected again after distribution.
CELEBRATIONS OF BAPTISMS
1. Limit the number of children and guests at any one given celebration to no more than 25% occupancy
with social distancing of at least 6 feet between individuals or households.
2. Wear face coverings when in close proximity to the children or families.
1

48

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 50 of 59 PageID #: 120

3. Use cotton for the anointing with Chrism and eliminate the anointing with the Oil of Catechumens.
4. Use new water for each child. Alternatively, use a pitcher for the water, avoiding splashing.
CELEBRATION OF MARRIAGE
1. Weddings must respect social distancing norms, limitations of numbers of guests to respect occupancy
of no more than 25% and face covering rules.
2. The procession must take place with at least 6 feet of space between people. There should not be
“couples” walking together unless they are already a household unit.
3. The celebrant should remain at least 6 feet from the couple.
4. While a wedding ceremony is recommended, if a nuptial Mass is celebrated, all regulations about the
celebration of Mass must be observed, including the guidelines about the distribution of Holy Communion.
CELEBRATION OF FUNERAL LITURGIES
1. The casket, covered with the pall, should be in place before the Mass begins.
2. Families and guest should be seated before the Funeral begins, avoiding gathering in the aisles. It is also
the best time to explain the procedures for receiving Holy Communion.
3. The normal guidelines for the celebration of Mass must be observed.
4. At the end of the Mass, the family and the guests should file out, keeping 6 feet from one another before
the pall bearers bring out the casket.
5. A Funeral without Mass is permitted. Perhaps this might be considered as an option for some families.
In all of these scenarios hand sanitizer should be used before entering the Church and before distributing
and receiving Holy Communion.
There should be no gathering after the ceremonies for greeting people and care must be taken when pictures
are taken to avoid groups.
Thank you for being aware of these guidelines and putting them into practice in your parishes. Please be
ready to adapt them as needed while still respecting the importance of the directives for the health and wellbeing of parishioners.
QUESTIONS?
As always, for any questions or concerns, please feel free to contact:
Vicar General (Bishop Raymond Chappetto) vgeneral@diobrook.org
Chancery (Msgr. Steven Aguggia) saguggia@diobrook.org
Liturgy Office (Fr. John O’Connor) joconnor@diobrook.org
2

49

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 51 of 59 PageID #: 121

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West ● Brooklyn, New York 11215 ● 718.399.5995 ● FAX: 718.399.5965

To:

Pastors & Administrators

From:

Most Reverend Raymond F. Chappetto

Re:

NYC Makes Masks Available to Houses of Worship

Date:

July 31, 2020

New York City is offering masks to houses of worship. Please fill out the information requested
in the link here. Feel free to pass this information on to other houses of worship.
Please click the link and fill in the information ASAP as the deadline is today, Friday, July 31st.

50

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 52 of 59 PageID #: 122

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

AUGUST 2020
GUIDELINES FOR FUNERAL DIRECTORS FOR CATHOLIC FUNERALS
DURING THE COVID-19 PANDEMIC
The following are guidelines which we hope you will find helpful as you assist people in planning funerals for their
loved ones. As you know, there are restrictions already in place in our churches for the public celebration of Mass,
including funeral Masses. These general instructions apply to all public celebration which take place in our churches.
There are some specific guidelines we would like to offer for funerals which we hope will be of help to you and
which will keep our people, your staff and our clergy healthy and safe.
1. We ask funeral directors to be aware of the guidelines regarding quarantining for family and guests who may
wish to come to NY from other states. The parishes are asked to respect these guidelines. So families must
be made aware that out-of-town visitors may be asked to quarantine themselves for two weeks after their
arrival. If the funeral is to take place within that time, they will not be permitted to be in church.
2. For all Masses and public celebrations, masks are required in our churches. There are no exceptions to this
rule. The priest celebrating the Mass will not be wearing a mask as long as he is in the sanctuary and away
from anyone else. He will put on a face covering when he distributes Holy Communion.
3. Please become familiar with the entrances and exits the church has indicated for the church. The particular
church may have them separated so that people do not enter and exit from the same doors.
4. The family and other guests should be seated in the church ahead of the start of the Mass. The casket should
be placed in the center aisle before the start of the Mass. (This also applies for cremains). There is no
procession into church following the casket. The pall may be placed at the appropriate time in the liturgy.
5. Guests must observe the places set up for seating by the church.
6. Once the family is seated it may be an appropriate time to remind them on the procedures for the reception
of Holy Communion. They should be told that they must maintain six feet of distance from anyone in front
of them on line and that they must approach the priest for Communion with their hands extended to receive
the Host. Once they have received in the hand they should move to the side (at least six feet), lower their
mask and consume the Eucharist. Then, replacing the mask, they return to their seat.
7. There may be a lector for Mass (a particular parish may or may not allow for it). There should be a separate
podium (separate from the main pulpit) for the lector to read from. The lector should have his or her own
copy of the reading and retain it.
8. If there is a eulogy, limited to one, it must be read from a separate podium and not from the main pulpit.
9. The Mass will conclude with the normal rites but there will be no procession out of the church with the
casket. The casket should be carried out first, followed by the family and guests. This is to avoid crowding
at the exit. They should not gather outside the church.
10. Some funerals may take place at a liturgy other than Mass (like the ones we use during Holy Week). If that
is the case, the same rules regarding social distancing will apply but the parish should be consulted about any
other adaptations.
Thank you for your cooperation and assistance in this important matter. While there will be adaptations in various
places because of individual needs, these general guidelines can assist us in trying to keep everyone safe and healthy.
51

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 53 of 59 PageID #: 123

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

August 26, 2020
Bishop DiMarzio has asked that the following information be made available to all Pastors and
Administrators and asks that pertinent information be passed on to all priests in the rectory, as well.
UPDATES ON PROCEDURES AND POLICIES FOR THE TIME OF
COVID-19 PANDEMIC
RELIGIOUS EDUCATION, FAITH FORMATION & PRE-CANA
Very Reverend Joseph Gibino, the Vicar for Evangelization and Catechesis has issued these guidelines for
all Religious Education Programs in the Diocese of Brooklyn:
In the midst of the global coronavirus crisis, we have consistently sought to protect the health, safety, and
overall well-being of all our constituents. With so much uncertainty about the impact and scope of COVID19, we have created faith formation options which take into consideration both short- and long-term
consequences which we believe to be in the best interest of our religious education and family programs
and the broader community. Since March 2020, all in-person youth and adolescent catechesis programs,
Holy Spirit Institute courses, Leading and Living by Faith development opportunities and Pre-Cana
experiences have been postponed or virtually presented. The Secretariat for Evangelization and Catechesis
has developed opportunities and resources that foster the witness of faith formation and evangelization.
Because of the demands the ongoing pandemic places on our parish resources, for the good of God’s people,
out of an abundance of caution it has been decided that all parish religious education programs, all faith
formation programs, Pre-Cana experiences will be held virtually. The time period for this mandate
is September, 2020 until January 1, 2021. It must be noted that this situation is extremely fluid and there
is the possibility that this mandate will be extended into the Spring of 2021.
YOUTH MINISTRY
Parishes will have the option of having their youth ministry gatherings in parish buildings other than the
school/academy building, outside, or virtually. If in-person gatherings occur within the parish, please
continue to use the CDC regulations when planning to ensure everyone’s safety. Policies and procedures
such as social distancing, the use of face masks, no refreshments being served, and ensuring there are no
more than 50 people gathered in the same space must remain in place. If you have any further questions,
please contact Lucia Morales at lmorales@diobrook.org.

1

52

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 54 of 59 PageID #: 124

CYO AND PARISH SPORTS PROGRAMS
Mr. Robert Caldera, Executive Director of the Catholic Youth Organization in the Diocese of Brooklyn has
issued these directives and guidelines:
As part of the CYO Return to Play Safely and Smartly, CYO events will be operated with enhanced and
strictly enforced health and safety guidelines and protocols. These protocols will be continually updated in
accordance with guidelines from the CDC, local, state and diocesan officials. The CYO Return to Play
Safely Guidelines, Protocols and Procedures document was distributed to all parish athletic representatives
and is available on the CYO website (www.cyodob.org)
Following the guidance and direction of the diocese as our schools and academies prepare for a safe
reopening, CYO Indoor Activities, Events and Games will not be permitted in any of our parish
facilities, schools and academies during the remaining days of August through December. This
includes but is not limited to:
·
Team practice or workouts
·
Scrimmage games, Tournament games, League games
·
Intramurals or Instructional Programs
·
Team meetings or in-person registration/sign ups
·
Any outside sports organizations
We strongly recommend all CYO parish programs use an online registration process. The CYO office will
gladly assist any program in the need of setting up an online registration program. Email CYO Director,
Rob Caldera (rcaldera@diobrook.org).
The goal is to permit CYO Indoor Practices and Games beginning the week of January 4, 2021. The CYO
Administration will communicate with the parish athletic representatives the adjusted start dates for regional
league games for indoor sports (basketball and volleyball).
Currently the CYO is preparing for its Return to Play Safely with Outdoor activities and sports. The CYO
will continue to step up our efforts, continuing to offer a level of play that is competitive but also enjoyable
for families to exercise temperance and balance participation with a quality of family life. Our sport system
will continue to include these important values; child-centered, affordable, focus on bringing Christ into
practice and competition, and teaching character through athletic participation.
PARISH AND LITURGICAL GUIDELINES
As more people begin to come back to the celebrations of Mass in our parishes, it is wise to remind
parishioners of the safety measure which are already in place in the Diocese with regard to hygiene and
social distancing. Especially important is a reminder that the preferred method of receiving Holy
Communion is in the hand and that those who insist on receiving on the tongue, should wait to the end of
the communion line to receive in order to limit the possibilities of spreading infection. A review of how to
receive in the hand properly and reverently may be in order.

2

53

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 55 of 59 PageID #: 125

EXTRAORDINARY MINISTERS OF HOLY COMMUNION, LECTORS, CHOIRS & ALTAR
SERVERS
Parishes may begin to use liturgical ministers if proper social distancing and hygiene requirements are met.
x

Lectors must read from opened lectionaries. (There is no procession with Gospel Books). They
must read from lecterns separate from the ambo or pulpit from which the Gospel is read or the
homily preached. The lector must wear a face covering until he or she begins the reading and replace
it immediately upon finishing. The lector must stand as far from the microphone as possible. The
lector must not be seated in the sanctuary area of the church before or after the readings.

x

Extraordinary Ministers of Holy Communion must be properly instructed in how to distribute
the Eucharist safely, the method of purifying hands before and after distribution, and the wearing of
a mask. These procedures are the same for an Extraordinary as they are for priests and deacons.
Please remind parishioners who receive on the tongue to wait for the end of the Communion line
and Extraordinary Ministers to disinfect hands after distribution, especially if Communion was
given on the tongue (which must be after each person receives in that way)

x

Choirs may begin to practice and sing at liturgies with special care taken to assure social distancing
and good hygiene. Masks should be worn. Although this is obviously a hindrance to good singing,
the wearing of a mask is necessary at this time to prevent the transfer of aerosols. At least 6-feet of
distance should separate the choir members from each other. If this distancing is not possible
because of space limitations, it may not, in fact, be possible for a particular choir to sing at this point
in time. Choir members must each have their own printed materials and not share them or leave
them in the church.

x

It is not recommended at this time to have Altar Servers at liturgies. The generally limited space in
sanctuaries will make it impossible to maintain proper social distancing, therefore, are not to be
anyone aside from priest(s) and deacon(s) in the sanctuary area during the liturgies.

Please note that it is not required that the ministries described above be started in parishes. Pastors and
Administrators should only restart them if they feel they are ready and can comply with all directives for
safety. Any minister who is uncomfortable with returning to his or her ministry should refrain at this time.
PARISH MEETINGS
Parish meetings such as prayer groups, Bible studies, AA meetings, etc. may take place. However all
hygiene, sanitizing and social distancing norms must be observed.
x
x
x
x
x

Be aware of the maximum number of people permitted based on the total occupancy of the room
(usually at about 25% of the total occupancy)
Have hand sanitizer available in the room
Masks/Face Coverings must be worn
Seat people at least six feet from each other
It is best practice not to have refreshments because of the shared utensils and risk of gathering in
close proximity
3

54

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 56 of 59 PageID #: 126

GUIDELINES FOR LONG-TERM AND SHORT-TERM MINISTRY AND HOSPITALITY FOR
PRIESTS COMING FROM OUTSIDE THE DIOCESE OF BROOKLYN DURING THE
EXTENDED COVID-19 PERIOD
With the possibility of priests traveling form overseas or from other dioceses in the United States to do
ministry in the Diocese of Brooklyn, or coming for hospitality for a long or short period of time, during the
pandemic time, pastors/administrators must comply with the following guidelines:
1. Notify the Office of the Chancellor and the Office for Clergy Personnel of any visiting priests that
will be with you for ministry or hospitality, in writing, or via email.
2. If possible, notify in advance the Office for Clergy Personnel once you know when the priest will
arrive.
3. As soon as the priest arrives, the priest must take a Covid-19 test and must be in quarantine until
the test results are received.
4. If the test results are negative, the priest can begin ministry immediately; if the results are positive,
the priest must be in quarantine for two weeks, following the current guidelines for a priest with a
positive result; after the quarantine the priest must take the test again before he is allowed to do
public ministry.
5. If the priest will be ministering in the parish, salary must be paid from the time of his arrival.
6. Notify the Chancellor and the Office for Clergy Personnel of the priest departure date in writing or
via email.

QUESTIONS?
As always, please do not hesitate to contact the following for any clarification, assistance or inquiry:
Vicar General’s Office
Chancellor’s Office
Liturgy Office
Clergy Personnel Office

Most Reverend Raymond Chappetto (vgeneral@diobrook.org)
Msgr. Steven Aguggia (saguggia@diobrook.org)
Rev. John O’Connor (joconnor@diobrook.org)
Deacon Julio Barreneche (jbarreneche@diobrook.org)

4

55

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 57 of 59 PageID #: 127

OFFICE OF THE VICAR GENERAL
DIOCESE OF BROOKLYN
310 Prospect Park West, Brooklyn, New York 11215
718.399.5995 ● FAX: 718.399.5965

SEPTEMBER 8, 2020
In preparation for the Pastor’s Meeting tomorrow, Sept. 9th and Thursday, Sept. 10th, please
review the following REVISED guidelines:
Bishop DiMarzio has asked that the following information be made available to all Pastors and
Administrators and asks that pertinent information be passed on to all priests in the rectory, as
well.

REVISED PROCEDURES & POLICIES FOR THE TIME OF COVID-19 PANDEMIC
RELIGIOUS EDUCATION, FAITH FORMATION & PRE-CANA
Very Reverend Joseph Gibino, the Vicar for Evangelization and Catechesis has issued these
guidelines for all Religious Education Programs in the Diocese of Brooklyn:
In the midst of the global coronavirus crisis, we have consistently sought to protect the health,
safety, and overall well-being of all our constituents. With so much uncertainty about the impact
and scope of COVID-19, we have created faith formation options which take into consideration
both short- and long-term consequences which we believe to be in the best interest of our
religious education and family programs and the broader community. Since March 2020, all inperson youth and adolescent catechesis programs, Holy Spirit Institute courses, Leading and
Living by Faith development opportunities and Pre-Cana experiences have been postponed or
virtually presented. The Secretariat for Evangelization and Catechesis has developed
opportunities and resources that foster the witness of faith formation and evangelization.
Because of the demands the ongoing pandemic places on our parish resources, for the good
of God’s people, out of an abundance of caution it has been decided that all parish religious
education programs which share space within an academy/school or building leased to
the Department of Education experiences will be held virtually. The time period for this
mandate is September 2020 until January 1, 2021.
Those parishes which have independent buildings that are used exclusively for religious
education may hold in-person instruction. The following procedures must be followed:
I: Before program Protocols:
a. All classrooms must be measured to allow for six feet social distancing
between desks
b. All classrooms, lavatories, and shared spaces must be sanitized after the use
of a population
c. These spaces must be sanitized before they may be used by a new population
1

56

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 58 of 59 PageID #: 128
d. Proper ventilation following the City of New York’s regulations for
ventilation must be in place before the opening of programs
a. Exhaust fans in each room
b. Air conditioning for each room
c. Windows open at all times
2. Only the DRE, Catechist, and student population may enter the Building
3. Before the DRE, Catechist, and student population may enter the building:
a. A health report must be completed; this report must ask:
1. Have you tested positive for COVID-19 (either by saliva or nasal or throat swab), in the past
14 days? (Follow self-isolation process)
Yes - Do not report to religious education program
No
2.Do you have a Fever (temperature of 100.4 or greater) without having taken any fever
reducing medications or have you had symptoms of a fever in the past 24 hours such as chills,
sweats, felt “feverish”?
Yes - Do not report to religious education program
No
3.Select any of the following COVID-19 related symptoms that you have had in the past 14
days.
Fever (temperature of 100.4 or greater)
Changing Cough
Shortness of Breath
Difficulty Breathing
Change or Loss of Taste
Loss of Smell
4.Did you select any of the symptoms in Question 3?
Yes - Do not report to religious education program
No
5. Have you been in close or proximate contact (within 6 feet for at least 10 minutes) with
someone with a confirmed or suspected COVID-19 case in the past 14 days?
Yes - Do not report to religious education program
No
2

57

Case 1:20-cv-04844-NGG-CLP Document 5-1 Filed 10/08/20 Page 59 of 59 PageID #: 129
6.Have you traveled in the past 14 days to a country or state who has been on Level Three
Travel Health Notice or under the NYS Travel Advisory?
Yes - Specify Country or State in Question 7 and do not report to the work
No - Report to religious education program
7. If answer yes to question 6, please enter the country or state that you to traveled to.

ii. Temperature must be taken and recorded before entry
iii. Temperature must be taken every time the DRE, Catechist or student leaves
and re-enters the building.
4. If one student tests positive for covid -19:
a. the class may not reassemble until 15 days of quarantine is maintained
b. if one student and one Catechist OR two students or more test positive for
covid-19 the program may not reassemble until 15 days of quarantine is
maintained
c. the period of quarantine begins each time there is a new report of a DRE,
Catechist, or student testing positive for covid-19
d. each sibling of a student who has tested positive must be quarantined
e. each positive case must be reported to the Vicar General’s Office, the
Secretariat for Evangelization, and the School which the student attends.
Please Note: Any family choosing a virtual option has the right to do so given the current
state of the pandemic. If the home parish is not able or willing to provide such a program,
the family may enroll in a religious education program with a virtual option.
QUESTIONS?
As always, please do not hesitate to contact the following for any clarification, assistance or
inquiry:
Vicar General’s Office
Chancellor’s Office
Secretariat for Evangelization
and Catechesis

Most Rev. Raymond Chappetto, vgeneral@diobrook.org
Rev. Msgr. Steven Aguggia, saguggia@diobrook.org
Very Rev. Joseph R. Gibino, jgibino@diobrook.org

3

58

EXHIBIT N
(Dist. Ct. Dkt. No. 21)

Case 1:20-cv-04844-NGG-CLP Document 21 Filed 10/14/20 Page 1 of 6 PageID #: 639

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK
Plaintiff,
v.
GOVERNOR ANDREW M. CUOMO, in his
official capacity,
Defendant.
-----------------------------------

x
:
:
:
:
: No. 1:20-CV-4844-NGG-CLP
:
:
:
:
:
x

SUPPLEMENTAL DECLARATION OF BISHOP RAYMOND F. CHAPPETTO IN
FURTHER SUPPORT OF PLAINTIFF’S APPLICATION FOR A
PRELIMINARY INJUNCTION
I, Bishop Raymond F. Chappetto, Vicar General for The Roman Catholic Diocese of
Brooklyn, New York, hereby declare under penalty of perjury pursuant to 28 U.S.C. § 1746, and
state as follows:
1.

I submit this supplemental declaration in further support of Plaintiff’s application

for a preliminary injunction in order to provide an update regarding which churches in The
Roman Catholic Diocese of Brooklyn, New York have been affected by Governor Cuomo’s
October 6, 2020 COVID-19 order (the “Emergency Order”), to further explain how the
Emergency Order has burdened and will continue to burden the Diocese and its parishioners, and
to elaborate on voluntary efforts that the Diocese has adopted—above and beyond those
measures required by city and state government—to prevent the spread of the virus in our
churches.

Case 1:20-cv-04844-NGG-CLP Document 21 Filed 10/14/20 Page 2 of 6 PageID #: 640

Churches Affected by the Governor’s Emergency Order
2.

Since executing my initial declaration on October 8, 2020, I have learned from a

new, interactive map published by local government officials that the Emergency Order affects
more churches in the Diocese than we initially believed.
3.

Specifically, there is one additional church in the red zone, St. Catharine of

Alexandria. That church has a seating capacity of 700 people, but is currently limited to 10
parishioners pursuant to the Emergency Order.
4.

In the orange zone, there are three additional churches subject to the 25-person

capacity limits: Mary Queen of Heaven (which has a seating capacity of 600 people), St. Agatha
(which has a seating capacity of 800 people), and St. Columba (which has a seating capacity of
400 people). St. Mark and Immaculate Heart of Mary, two churches that we previously
understood fell within the orange zone, fall outside that zone.
5.

With the addition of these four new churches and removal of the two previously

included churches, the total number of churches in the Diocese subject to either 10- or 25-person
capacity limits stands at 26 churches.
Burden Imposed by the Emergency Order
6.

In my initial declaration, I explained that the Emergency Order would effectively

close the doors of all Diocesan churches in the red and orange zones, which would be
devastating for our spiritual community. Remote Mass is generally only offered to accommodate
the elderly or, as was the case this past spring, as a public health necessity in order to ensure the
safety of our parishioners and the surrounding community. It is no substitute for in-person Mass,
which is the way our parishioners express their religious faith.

2

Case 1:20-cv-04844-NGG-CLP Document 21 Filed 10/14/20 Page 3 of 6 PageID #: 641

7.

Over the course of my nearly 50 years as a pastor and Bishop in Brooklyn and

Queens, I have observed firsthand how important in-person attendance at both Mass and
lifecycle events of religious importance (such as baptisms, weddings, and funerals) is for our
spiritual community. The ability for parishioners to worship and affirm their religious
convictions among other members of their faith who share their beliefs—as well as to receive the
sacrament of Holy Communion—cannot be replicated by remote Mass. These in-person
gatherings are also a cornerstone of our faith, and have been so for millennia.
8.

As I explained in my initial declaration, the period of closure this past spring,

which began when the Diocese voluntarily closed the doors of its churches to help stem the
spread of the pandemic (before being ordered to do so by the government), only further
highlighted the importance of in-person attendance at Mass and other church ceremonies.
Members of our community have reported that the inability to worship and affirm their faith in
person led to feelings of depression, alienation, and spiritual deprivation. It therefore has not
been surprising that, even though remote Mass remains an option for some, and even though the
current version of Mass being offered is attendance-limited (to 25% capacity), socially distanced
(leaving every other row empty and seating spaced six feet apart within a row), mask-wearing
(with sanitizer also made available), and service-altered (with Communion offered in a more
limited way for safety reasons), many of our parishioners have returned to our pews since our
carefully controlled and safe reopening.
9.

In short, the inability to offer in-person Mass amounts to a meaningful burden on

the Diocese’s ability to care for its parishioners’ spiritual well-being, and impedes an important
function of our religious ministry.

3

Case 1:20-cv-04844-NGG-CLP Document 21 Filed 10/14/20 Page 4 of 6 PageID #: 642

Voluntary Safety Efforts—Singing in Church
10.

Finally, in addition to the other COVID-19 protocols discussed in my initial

declaration, the Diocese of Brooklyn has implemented measures specifically designed to address
singing, which I understand has been identified by the Governor’s counsel as a potential source
of viral transmission.
11.

When churches across the Diocese reopened for in-person Mass in early July, the

Diocese took specific steps to limit singing. Among other things, we prohibited choirs, and
removed all physical hymnals from the pews. Removing the hymnals in particular ensured two
things. First, by not having access to the physical hymnals, parishioners could not transmit
germs to each other via those objects. Second, without access to the hymnals, the congregation
could not participate in the vast majority of hymns and songs—apart from a limited number that
are particularly well-known—thus minimizing the risk of singing-based viral transmission.
12.

As a result, since reopening, singing has largely been limited to the cantor and the

organist (which, for some churches, is the same person). The cantor and organist are socially
distanced from each other when they are two distinct people and, in most churches, actually
perform their function from a physically separate space. In every church in the Diocese, the
cantor and organist are physically separated from parishioners by at least 10 feet, and—as I
explained in my initial declaration—all parishioners are required to wear a mask at all times. To
the extent any of our congregants sing notwithstanding the absence of hymnals, they do so while
facing forward in their socially distanced seats, with the row in front of them empty, not in
groups or circles. We have seen no evidence of the limited singing described above leading to
any COVID-19 cases or spread.

4

Case 1:20-cv-04844-NGG-CLP Document 21 Filed 10/14/20 Page 5 of 6 PageID #: 643

13.

On August 26, 2020, the Diocese lifted the prohibition on choirs, on the strict

condition that choirs in churches would be socially distanced and wear masks. As a result, in
recent weeks, certain churches have reintroduced socially distanced and mask-wearing choirs
back into their services. The Diocese has not seen any evidence that the recent reintroduction of
choirs in some congregations has led to any COVID-19 cases or spread—again, the choir
members are set off from each other and the rest of the congregation, who, regardless, are all
wearing masks. Nevertheless, as a condition to injunctive relief from the 10- and 25-person
capacity restrictions, the Diocese would be willing to eliminate choirs again, and it would also be
willing to prohibit singing by the congregation, thus limiting singing of any kind to the
physically separated cantor and/or organist. Further, the Diocese would be willing to mandate
that the cantor and organist be physically separated from parishioners by at least 12 feet, instead
of the currently applicable 10-foot separation.

5

Case 1:20-cv-04844-NGG-CLP Document 21 Filed 10/14/20 Page 6 of 6 PageID #: 644

+('-#"-'#%- -  -"- %## ,"-*-#%-

#&'-)-,!#"-- $$''#----



EXHIBIT O
(Dist. Ct. Dkt. No. 30)

Case 1:20-cv-04844-NGG-CLP Document 30 Filed 10/16/20 Page 1 of 3 PageID #: 733

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------THE ROMAN CATHOLIC DIOCESE OF
BROOKLYN, NEW YORK
Plaintiff,
v.
GOVERNOR ANDREW M. CUOMO, in his
official capacity,
Defendant.
-----------------------------------

x
:
:
:
:
: No. 1:20-CV-4844-NGG-CLP
:
:
:
:
:
x

SECOND SUPPLEMENTAL DECLARATION OF BISHOP RAYMOND F.
CHAPPETTO IN FURTHER SUPPORT OF PLAINTIFF’S APPLICATION FOR A
PRELIMINARY INJUNCTION
I, Bishop Raymond F. Chappetto, Vicar General for The Roman Catholic Diocese of
Brooklyn, New York, hereby declare under penalty of perjury, pursuant to 28 U.S.C. § 1746, as
follows:
1.

I submit this supplemental declaration in further support of Plaintiff’s application

for a preliminary injunction. In light of the exchanges I heard during yesterday’s hearing, I
wanted to clarify how long Sunday Mass typically was in the Diocese’s churches even before the
pandemic, as well as how much shorter it is today under the safety protocols we’ve
implemented.
2.

Even before the pandemic, Catholic Masses were relatively short—about an hour

or less in duration—compared to the religious services conducted by some other faith traditions.
The Masses over which I personally presided prior to the pandemic were typically 55 minutes in
length. And of course, weekday Masses, pre-pandemic, were typically even shorter.

Case 1:20-cv-04844-NGG-CLP Document 30 Filed 10/16/20 Page 2 of 3 PageID #: 734

3.

Since churches in the Diocese of Brooklyn reopened for Sunday Mass in early

July, the average length of Mass has decreased substantially, in part as a result of the COVID-19
protocols promulgated by the Diocese. For instance, we have eliminated the Sign of Peace, no
longer offer the Precious Blood (in the form of wine) during Holy Communion, and eliminated
the priest’s procession into and out of the church—all of which have reduced the duration of the
Mass. Some bishops and priests, myself included, have taken additional steps to expedite the
celebration, including by shortening our “homilies” (sermons given following the readings from
Sacred Scripture).
4.

As a result, clergy in the Diocese have reported reductions of 10–20 minutes in

the duration of Sunday Masses since our reopening. The Sunday Masses over which I have
presided since our reopening have typically been 45 minutes or less in length.
5.

We have made these and other changes to ensure the safety of our parishioners,

and we have succeeded. I heard the DOH witness say yesterday that time matters. Our changes
have further reduced the times of our Masses, which were relatively short to begin with. I heard
him say masks and social distancing are the “most important” ways to prevent the spread of
COVID-19. We insist upon both in order for parishioners to enter and remain in our churches.
We offer sanitizer to parishioners, and sanitize the entire space with top-to-bottom cleanings
before and after Mass. These and the other measures about which I have testified previously, in
writing and at yesterday’s hearing, have worked. We have not had any COVID outbreaks in any
of our Diocese’s churches since reopening for Sunday Mass in early July through early October
2020. Thus, the strict mitigation measures we have implemented have worked to prevent any
spread of COVID, even if someone exposed to COVID happened to attend a Mass, because there
has not been any spread of COVID whatsoever in our churches over the past three months.

2

+(&-! -&!#- -  - - #!!, -*-!$-


!%'-)-,! -- ""&&!-- 

EXHIBIT P
(Dist. Ct. Dkt. No. 6)

Case 1:20-cv-04844-NGG-CLP Document 6 Filed 10/08/20 Page 1 of 5 PageID #: 130

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------------------------x
:
ROMAN CATHOLIC DIOCESE OF
:
BROOKLYN, NEW YORK,
:
:
Plaintiff,
:
:
vs.
:
:
GOVERNOR ANDREW M. CUOMO in his
:
official capacity,
:
:
Defendants.
----------------------------------------------------------x
DECLARATION OF JOSEPH J. ESPOSITO IN SUPPORT OF PLAINTIFF’S
APPLICATION FOR A TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION
I, Joseph J. Esposito, hereby declare under penalty of perjury pursuant to 28 U.S.C.
§ 1746, and state as follows:
1.

I submit this declaration in support of Plaintiff’s application for a temporary

restraining order and preliminary injunction in order to explain the rigorous protocols and
practices that the Catholic Church has implemented in Brooklyn and Queens to prevent the
spread of COVID-19 during Church services, under my guidance as the former Chief of
Department of the New York City Police Department and the former Commissioner of New
York City Emergency Management. These protocols, which at all times followed the guidance
of City, State, and Federal authorities, include limited attendance, limiting the number of
services, requiring social distancing and masking, blocking off sections of seating, monitoring
foot traffic flow, keeping all doors open so that worshipers may enter and exit in a socially
distant manner, and even altering the way Holy Communion is taken. These protocols have been
communicated by email to all members of the Church, posted on signage at each church, and

Case 1:20-cv-04844-NGG-CLP Document 6 Filed 10/08/20 Page 2 of 5 PageID #: 131

compliance is actively monitored by Church-appointed ushers at each church. To my
knowledge, there have not been any outbreaks of COVID-19 stemming from any Catholic
church or congregation in New York City, including in Brooklyn or Queens.
Professional Background
2.

I served with the New York City Police Department and New York City

Emergency Management for over 50 years, including as NYPD Chief of Department and
Commissioner of New York City Emergency Management, before retiring in 2019.
3.

I entered the New York Police Department in August 1968 as a Police Trainee. In

April 1971, I was appointed a Patrolman, and began my career on patrol in the 77th Precinct in
Brooklyn. I was promoted to Detective in May 1983, Sergeant in September 1983, Lieutenant in
February 1986, Captain in June 1989, Deputy Inspector in August 1993, Inspector in August
1994, Deputy Chief in September 1996, and Assistant Chief in December 1997.
4.

On August 25, 2000, I was promoted to the position of Chief of Department. As

Chief of Department, I directed and controlled the daily operations of the five major enforcement
Bureaus (Patrol Services, Detectives, Transit, Housing, and Organized Crime Control) within the
NYPD. I also coordinated the crime control strategy meetings at which commanders share
tactical information and recommend plans of action for realizing crime reduction goals. I served
as Chief of Department until March 2013.
5.

In the course of my career, I have served in numerous commands of the

department, including the 77th, 10th, 83rd, 109th, 34th, 66th, and 83rd Precincts, and in the
Narcotics Division and the Detective Bureau. In my last assignment before becoming Chief of
Department, I was the Commanding Officer of the Strategic and Tactical Command
(S.A.T.COM) Brooklyn North.

2

Case 1:20-cv-04844-NGG-CLP Document 6 Filed 10/08/20 Page 3 of 5 PageID #: 132

6.

During my career in the New York Police Department, I earned some of the

department’s most honored and prestigious awards, including the Combat Cross, the Medal for
Valor, and the Exceptional Merit award.
7.

After my retirement from the New York Police Department, I served as the

Commissioner of New York City Emergency Management from 2014 to 2019. As
Commissioner, as well as in my various leadership roles in the New York Police Department, I
trained extensively in disaster preparedness, including participating in multiple tabletop exercises
for pandemics among other potential disasters. These tabletop exercises included participants
from State, City, and local governments and sought to game out, so to speak, how an emergency
would occur to test and practice our responses in the moment.
The Church’s Efforts To Protect The Health, Safety, And Religious Needs Of The
Community In Light of COVID-19
8.

I am a parishioner at the St. Athanasius Roman Catholic Church in Brooklyn, and

have been since 1983. When I retired from my position as Chief of Department of the New York
City Police Department in 2013, I was asked to serve on a Review Board tasked with reviewing
allegations of misconduct by clergy within the New York Catholic Church. In that role, I got to
know well the bishops and other senior members of the clergy. I personally witnessed their great
compassion for their parishioners and the people of New York City at large. They care deeply
about the health and safety of the community.
9.

When the COVID-19 pandemic hit the United States, New York State and City

authorities issued shelter-in-place regulations to regulate the way that persons and groups could
convene in a variety of ways. All of the Catholic churches in New York City, including those in
Queens and Brooklyn, were closed for any congregation, worship, or mass for several months.

3

Case 1:20-cv-04844-NGG-CLP Document 6 Filed 10/08/20 Page 4 of 5 PageID #: 133

10.

Early on, I became involved in the Church’s efforts to figure out how the Catholic

churches in New York, including in Queens and Brooklyn, could create safe spaces for religious
expression and worship for their congregants. Church officials asked me, with my experience in
public safety and emergency preparedness, to chair a commission focused on ensuring that their
parishioners’ spiritual needs could be met while at the same time doing the utmost to protect the
community from the ongoing COVID-19 pandemic. The group of individuals working on these
efforts provided guidance to the church leadership, including promulgating written plans and
recommendations for safely reopening places of worship. In doing so, we based all proposed
regulations for the Catholic churches on the guidelines New York Governor Andrew Cuomo and
New York City Mayor Bill de Blasio published, as well as all applicable federal, State, City, and
local ordinances related to the COVID-19 pandemic. I also consulted closely with medical
professionals, as well as several of my prior colleagues in Emergency Management and the New
York Police Department as well as leveraged my own experience in emergency management.
11.

Starting in late May 2020, the churches opened in a staged approach that has been

conducted in accordance with the iterative regulations promulgated by the State of New York
and New York City regulations. In doing so, all Catholic Churches in New York City, including
those within the Roman Catholic Diocese of Brooklyn, New York (which covers churches in
Brooklyn and Queens), adopted our recommendations on how to institute procedures to safely
accommodate their congregants’ constitutional and spiritual right to worship and engage in
Catholic religious practices. To my knowledge, all of the churches have consistently
implemented our recommendations. A PowerPoint deck provided to parishes before opening,
which summarizes our recommendations to them, is attached as Exhibit A.
12.

These procedures are detailed, and included structural and procedural changes to

all churches. For instance, the churches have blocked off every other pew so congregants cannot

4

Case 1:20-cv-04844-NGG-CLP Document 6 Filed 10/08/20 Page 5 of 5 PageID #: 134

EXHIBIT Q
(Dist. Ct. Dkt. No. 6-1)

&9)*#*5"

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 1 of 10 PageID #: 135

Church

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 2 of 10 PageID #: 136

• If possible to procure, have a small quantity available

• All must wear a mouth/nose covering to enter.

• Limit occupancy, based on available seating to maintain distancing guidelines

• Keep a distance of 6’ seating within active pews. (Except families at their discretion)

• Close off pews as necessary to maintain a distance of six 6-8’ between open pews.

• Adopt social distancing measures. Basically, 6’ of separation sketched below.

.

• All churches should be sanitized before reopening. (See details below)

Re-opening of Churches - Recommendations

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 3 of 10 PageID #: 137

Run any available exhaust fans
Open windows as practical to do so (operable, weather, etc?)
Run any existing HVAC system that uses fresh air
Replace all existing HVAC air filters if not already replaced this year

https://www.cdc.gov/coronavirus/2019-ncov/community/organizations/guidance-community-faith-organizations.html

For more information visit the CDC “faith organizations” website at:

(Before Sunday Mass schedule is recommended at a minimum)

• Sanitize pews, doorknobs, and other high touch surfaces at least weekly.

Sample signs below

• Reinforce hygiene practices for all. Wash hands, soap and water frequently, do not touch face, etc…

• Encourage at risk population to stay home

• Provide hand sanitizer spray stations as they become commercially available.

•
•
•
•

• Keep area well ventilated.

Re-opening of Churches - Recommendations – Cont-d

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 4 of 10 PageID #: 138

• 4 teaspoons bleach per quart of water

• 5 tablespoons (1/3rd cup) bleach per gallon of water or

• Household bleach solution is prepared by mixing:

• For disinfection, most common EPA-registered household disinfectants, and diluted household
bleach solutions, are effective.

• If surfaces are dirty, they should be cleaned using a detergent or soap and water prior to
disinfection.

Hard Non-Porous Surfaces

• Routine cleaning of high touch surfaces (i.e doorknobs, light switches, handles, desks, toilets,
faucets, sinks, and electronics)

Getting your facility ready

Disinfecting Protocols

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 5 of 10 PageID #: 139

• Ensure there is proper ventilation before using chemicals to disinfect surfaces.

• If reusable gloves are used, those gloves should be dedicated for cleaning and disinfection of
surfaces for COVID-19 and should not be used for other purposes.

• Gloves should be discarded after each cleaning.

• Wear disposable gloves when cleaning and disinfecting surfaces.

Other considerations

• Use EPA approved products for porous surfaces

• Launder items as appropriate in accordance with the manufacturer’s instructions. If possible,
launder items using the warmest appropriate water setting for the items and dry items completely.

Soft Porous Surfaces (i.e carpeted floor, rugs, and drapes)

Disinfecting Protocols - Cont’d

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 6 of 10 PageID #: 140

• Provide COVID-19 prevention supplies at your parish (e.g., soap, hand sanitizer that contains at
least 60% alcohol, tissues, trash baskets, availability of a limited qty of disposable face coverings as
commercially available)

• Wear disposable gloves when cleaning and disinfecting surfaces.

Disinfecting Protocols - Cont’d

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 7 of 10 PageID #: 141

Recommended Social Distance Seating Plan

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 8 of 10 PageID #: 142

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 9 of 10 PageID #: 143

Case 1:20-cv-04844-NGG-CLP Document 6-1 Filed 10/08/20 Page 10 of 10 PageID #: 144

